<html>
<title> - STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR FISCAL YEAR 2017</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]




 
  STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                            FISCAL YEAR 2017

                              ----------                              


                        TUESDAY, APRIL 12, 2016

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:05 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Lindsey Graham (chairman) 
presiding.
    Present: Senators Graham, Leahy, Mikulski, Boozman, 
Shaheen, Daines, Coons, Merkley, and Durbin.

                     THE CAUSES AND CONSEQUENCES OF

               VIOLENT EXTREMISM AND THE ROLE OF FOREIGN

                               ASSISTANCE

STATEMENTS OF:
        GENERAL JAMES L. JONES, USMC (RET.), FORMER NATIONAL SECURITY 
            ADVISOR AND SUPREME ALLIED COMMANDER EUROPE, AND PRESIDENT 
            OF JONES GROUP INTERNATIONAL
        HON. ANTONY J. BLINKEN, DEPUTY SECRETARY OF STATE, U.S. 
            DEPARTMENT OF STATE
        BONO, LEAD SINGER OF U2 AND COFOUNDER OF ONE AND (RED)
        KELLY T. CLEMENTS, DEPUTY HIGH COMMISSIONER, UNITED NATIONS 
            HIGH COMMISSIONER FOR REFUGEES

              OPENING STATEMENT OF SENATOR LINDSEY GRAHAM

    Senator Graham. The subcommittee will come to order.
    Our hearing today is on ``The Causes and Consequences of 
Violent Extremism and the Role of Foreign Assistance.''
    I would like to welcome our distinguished panel of 
witnesses: Deputy Secretary of State Tony Blinken; Bono, lead 
singer of U2 and Cofounder of ONE and (RED); General James 
Jones, former National Security Advisor, Supreme Allied 
Commander in Europe, and President of the Jones Group 
International; and Kelly Clements, Deputy, United Nations High 
Commissioner for Refugees.
    I will make a short opening statement, let Senator Leahy do 
the same, and we'll have 7-minute question and answer rounds.
    So, number one, this was a good day for photographers. 
[Laughter.]
    I hope you got a good shot there. I've just gotten back 
from my 30-something trip to the region. I had the pleasure of 
being in Turkey and Egypt with Bono. And each person here is 
tasked in their own way of trying to inform the Congress and 
making policy decisions to deal with what I think is a crisis 
that you either pay now or you pay later. To the American 
people, we cannot ignore this. The goal is for people to stay 
at home and not come here, not go to Europe, but stay in Syria, 
you name the country they don't have to leave. The reality is 
the average refugee has been displaced from their home for 17 
years.
    In Turkey, we met people in a refugee camp, preschoolers 
that were 4 years old, most of them were born in the camp. I 
could not tell them when they would get to go home. If the war 
in Syria ended tomorrow, it would be a nightmare to reconcile 
Syria, but that day I hope is coming, and we'll have to deal 
with that problem.
    The idea of humanitarian assistance is absolutely necessary 
because some of these people are without food, water, and 
shelter. It is in our national security interest, and I think 
General Jones will tell us, to get ahead of this problem before 
it turns into the jihadist army of the future.
    But humanitarian aid has to be looked at in terms of 
reality. There's an op-ed today by Bono in the New York Times. 
I would recommend you read it. It is about the dilemma of 
humanitarian aid and developmental assistance. When you realize 
that most of these kids and their parents are not going back 
home anytime soon, what kind of skill set should they possess 
to make them viable human beings in the country where they're 
going to live for a while? And if they ever do go back to their 
home, what do they bring back with their home?
    Every day that goes by that a kid is not educated in one of 
these camps, and most of them are not in camps, they are 
actually in the cities of the country that they've been 
displaced to. In Turkey, the Government of Turkey has been 
extraordinarily generous, making payments, free health care. 
Jordan, our friends in Jordan, are completely overrun. In 
Lebanon, there are more Syrian refugee children in Lebanese 
primary school than Lebanese children. To think that will not 
affect us is naive. To think that there are no solutions, well, 
that's just wrong. To think it's easy is just crazy.
    So here's the deal. I'm going to work with Senator Leahy 
and the members of this subcommittee to put together an 
emergency relief package, and if you don't think this is an 
emergency, I welcome the debate. This account is 1 percent of 
the Federal budget. In the cost of world events, it is 
tremendously under siege. I don't want to take money away from 
the President's Emergency Plan for AIDS Relief (PEPFAR), I 
don't want to take money away from malaria, I don't want to 
take money away from the Peace Corps. I'm not going to take 
money away from Embassy security. So what do we do?
    I think we have to recognize we have an emergency on our 
hands, and then we have to come up with a long-term strategy, 
and it has to be world driven, not United States driven. In the 
op-ed piece I referenced, Bono suggested that now is the time 
to think big. I could not agree more.
    We know in the past that radicalized populations were 
turned around. Germany and Japan were very radicalized 
populations. The Marshall Plan did work. Out of that effort, we 
have now two stable democracies that are allies. The difference 
is the war is still going on, and we don't have an occupation 
force. Radical Islam is spreading its wings all over the Middle 
East and throughout Africa, and the question for this 
committee, the country, and the world is: How do you destroy 
radical Islamic extremists and other radical ideologies?
    General Jones will tell us about the limitations of 
military power. Mr. Blinken will tell us about the limitations 
of diplomacy. Mr. Bono will tell us about the possibilities of 
the private sector joining with governments to give people hope 
that have none now.
    I'm a pretty hawkish fellow, but I've learned a long time 
ago, about 30 trips ago, that you're not going to win this war 
by killing terrorists. The biggest threat to radical ideology 
is a small schoolhouse educating a poor young girl. That will 
do more damage to the radical Islamic extremists than any bomb 
you could drop on their head.
    We have schoolhouses here at home are in great state of 
disrepair, we have a lot of domestic needs, and we have $19 
trillion in debt, and counting. I am sorry the world is not 
more convenient in terms of the needs back here at home. I do 
not ignore people in South Carolina when I say we need to spend 
some money over there. I tell people back home either we invest 
over there, or they're coming here.
    9/11 is becoming a distant memory, but not for me. The 
money this country spent just on the money side after the 
attacks of September 11, 2001, is north of $1 trillion. The two 
wars of Afghanistan and Iraq is about $1.5 trillion. We can 
argue about how we spent the money, should we have spent the 
money, but we are where we are.
    Now, I'm not here, Tony, to argue with you about Syrian 
policy, I'm here to find a way to go forward, to use what is 
commonly called soft power to supplement a military strategy.
    And I will conclude with this. To our non-governmental 
organization (NGO) community, you can do just as much good as 
any battalion of soldiers, because without your assistance on 
the ground trying to give people hope, nothing will ever 
change. To take the land from the enemy is one thing; to hold 
it is another. That's where we come in. For a fraction of what 
we spent in the past, if we do it wisely through a worldwide 
effort, I think we can turn this around before it's too late. 
If we do nothing, I know exactly what's going to happen: some 
of our friends are going to fall, and the people in these camps 
today are going to be our enemies.
    So you have two choices when it comes to these young 
people: get involved in their lives now or fight them later. I 
choose to get involved in their lives now and let them do the 
fighting later, because without their help, we will never win 
this war.
    So I want to thank each member of the panel for sharing 
with us your vision of how to move forward.
    To this subcommittee, I think we have a great opportunity 
with a modest amount of money to make a huge difference. I 
intend to do that, but I cannot do it without your buy-in, 
without your support, and without your advice. Times are tough 
at home, but when you go to one of these refugee camps and you 
visit the Middle East, you know it could be worse.
    Senator Leahy.

                 STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. Well, thank you, Mr. Chairman. I appreciate 
the fact you're holding this hearing. I also appreciate the 
four witnesses. They each bring unique perspectives to these 
challenges. I once introduced Bono at an event and said that 
there are millions of people who will never know your name, 
never be able to purchase your music, or go to one of your 
shows, all they know is their life is better because of the 
work you've done, and you haven't stopped since that time. 
You've focused the world's attention on poverty in Africa and 
the very tangible ways we can dramatically improve the lives of 
millions of people. I'm glad Ali and your children are able to 
be there with you because I know they share your commitment.
    I know General Jones from way back when I think he was a 
major, long before he became a four-star, long before he was 
commandant, long before he was the head of NATO. He has had a 
long and distinguished career.
    I've also heard General Jones say many times that as 
important as military force is, it's no substitute for 
diplomacy and development. And the general has been concerned 
about Africa since long, long before this hearing.
    And, General, I admire you for that.
    And Deputy High Commissioner Clements is no stranger to any 
of us here. She has worked on refugee issues at the State 
Department and the United Nations for I think over 25 years, if 
I'm correct. It seems that every time we've had a refugee 
crisis, you've been involved, and I appreciate it.
    And then I could take a list of 40 issues, and Secretary 
Blinken is involved in every one of them with expertise, and 
that's been helpful to those of us here in the Senate, as well 
as for the President and others.
    We're seeing horrific crimes committed by groups like ISIL 
and Boko Haram. Now, we can--as, Chairman, you have said, and 
others, we can limit the territory or control of these 
organizations through the use of force, but we're not going to 
defeat barbaric and pernicious ideas with bullets and bombs. 
And our foreign aid programs can't substitute for government 
policies and strategies in places like the Middle East and 
North Africa, which must promote stability and opportunity. 
They have to protect fundamental freedoms. If they don't, then 
they don't provide a real counter to terrorist recruitment. And 
those policies and strategies in that area are often lacking.
    We support a wide range of programs to address these 
issues, including economic and social development, and so on. 
But spending, just spending more money is not going to do it. 
We have to do better. We have to address the underlying causes. 
So that's why I want to hear from everybody here.
    I have an article written by Admiral Stavridis and General 
Zinni, and a letter signed by 18 of our former colleagues, 
including former Majority Leaders Frist and Daschle, and I 
would ask for those to be part of the record, because they make 
this point very persuasively.
    Senator Graham. Without objection.

    [Clerk's note: The article and two letters submitted by 
Senator Leahy appear in the section titled ``Materials 
Submitted for the Record'' at the end of the hearing.]

    Senator Leahy. And while I will also do this on the floor, 
I would ask that the op-ed piece that Bono wrote in today's New 
York Times be part of the record.
    Senator Graham. Without objection.

    [Clerk's note: The Bono op-ed article submitted by Senator 
Leahy appears in the section titled ``Materials Submitted for 
the Record'' at the end of the hearing.]

    Senator Leahy. They talk about development and diplomacy, 
how we need that to combat terrorism.
    I mention these things because you have a Republican and a 
Democrat from different political backgrounds, and we have 
worked together on these issues for years and years. I was 
almost going to say way back when I had hair, but you weren't 
born then. [Laughter.]
    Senator Graham. Well, I'm catching up with you on the hair. 
[Laughter.]
    Senator Leahy. But you give us your ideas of what to do, 
and we'll try to do it.
    Senator Graham. Thank you very much, Senator Leahy.
    General Jones, when it comes to what to do, you're a 
military man, you've had a distinguished military career. Can 
you tell us why you support this idea of economic assistance, 
foreign assistance, in general, from a military point of view?
STATEMENT OF GENERAL JAMES L. JONES, USMC (RET.), 
            FORMER NATIONAL SECURITY ADVISOR AND 
            SUPREME ALLIED COMMANDER EUROPE, AND 
            PRESIDENT OF JONES GROUP INTERNATIONAL
    General Jones. Mr. Chairman, thank you, and members of the 
subcommittee.
    Senator Leahy, thank you very much for this invitation to 
testify today. I commend your leadership on a matter of great 
importance to our interests and the future of the human 
enterprise.
    And I'm very honored to be here with our fellow witnesses, 
who devoted much of their lives to the cause of human 
development, peace, and stability.
    Secretary Blinken and I go back a long way to his days in 
the Senate Foreign Relations Committee and the National 
Security Council, and I would like to publicly recognize the 
tremendous work he's doing at the State Department.
    From personal observation, there is no more passionate, 
thoughtful, informed, and effective advocate for development 
and security nexus than Bono. Millions live better and more 
hopeful and peaceful lives because of his work and because of 
many efforts of this subcommittee, and I thank you for that, 
and congratulate you, Bono.
    You have my full statement, Mr. Chairman, and with your 
permission, I'll summarize very briefly.
    During most of my active duty military service, our 
national security was defined by the struggle against Communism 
and the Soviet military threat. Security was expressed in the 
calculus of comparative troop strength, weapons count, and 
nuclear throw-weight. Today's threats are exponentially more 
diverse and more complex than those we faced in the bipolar 
world we left behind in the 20th century. The challenges 
include the terrorist enterprise and transnational criminal 
organization, failing states and conflict triggering massive 
refugee flows, grave natural resource threats, and the ongoing 
battle for hearts and minds between the forces of modernity and 
those of hate and intolerance.
    These challenges are synergistic and extreme, yet so are 
the opportunities created by many positive trends in the march 
of human advancement. But if our future is to be defined by our 
opportunities rather than the threats, it demands, and I stress 
demands, a far deeper conception and understanding of national 
and international security, one less reliant on reaction and 
far more focused on anticipation and prevention, one that 
centers on disarming the root causes and major multipliers of 
conflict and instability, and one that in the long run is much 
less costly than what we practice today.
    Viewed through that lens, what comes into sharp focus, in 
my view, is that the premier strategic threat to global 
security and to our own is not any single country or any single 
ideology or any single weapon; it's human need, the unsatisfied 
demands for life basics, including food, energy, water, 
dignity, and a better future for masses living on the edge. And 
as I understand it, the purpose of this hearing is to examine 
the causes and consequences of violent extremism.
    For many extremists leaders and their acolytes, the 
attraction to violent Islam is born of religious fanaticism and 
the selfish lust for power. Others find their attraction in 
depraved quests for belonging. For multitudes, the simple 
motivation is sustenance, fear, and coercion. What is 
abundantly clear, however, is that extremists bank on 
leveraging human want and desperation for their own purposes. 
They seek to exploit human misery in the pursuit of scale. At 
scale, and with increasing access to sophisticated weaponry, 
violent extremism is as great a threat to global stability and 
prosperity, including our own, as any state power.
    I have long felt that the United States and developed 
nations have a deep moral obligation and self-interest to end 
the plague of the Islamic State of Iraq and Syria (ISIS), Boko 
Haram, and their ilk. Unquestionably, defeating this barbaric 
threat has a military element associated with it, but defeating 
radicalism strategically requires a far broader toolkit, and 
that's where we and our likeminded allies and our collective 
foreign assistance play the most crucial role.
    U.S. foreign assistance has produced great achievements 
over the last century to alleviate extreme poverty, advance 
global health, and respond to natural disasters and human 
emergencies. The return on investment in global influence and 
national security is enormous. The key now is investing our 
resources more wisely to leverage the full spectrum of U.S. and 
allied capabilities to defeat violent extremism and the 
conditions that give it oxygen in the most vulnerable 
populations and places on Earth. It seems to me that we must 
realign our strategy to face today's threats, the same way we 
calibrated to defeat the dark ``isms'' of the last century with 
major overhauls in policy and organization, such as the 1947 
National Security Act and the 1986 Goldwater-Nichols 
legislation.
    We need global development and a counter extremism campaign 
that is as sophisticated and passionate as any fight we have 
taken on in our history, designed and resourced as if the 
future depends on it, because it does.
    I would submit that such a new framework must be guided by 
four principles.
    One, the battle plan must recognize that stability in the 
21st century is a complex ecosystem, an integrated symphony of 
security, development, and good governance rooted in the rule 
of law. Our foreign engagement and assistance programs should 
be synthesized to cultivate these three coefficients in 
concert.
    Two, it must integrate the public and the private sector. 
No amount of foreign assistance can substitute for the 
transformational power of economic growth and employment, which 
is fueled by private sector investment.
    Three, it must recognize the threat posed by want of 
education, food, energy, and water, and security, to stability. 
Lack of access to these resources is a major driver of poverty, 
conflict, and extremism. That means core to everything we do--
our diplomacy, policies, practices, and innovations--must be 
promoting wise stewardship of the natural systems required to 
sustain human well-being.
    And, four, the campaign must engage the whole of the U.S. 
interagency, the whole of society, and the whole of our 
alliances to deliver security, development, and governance 
assistance that changes people's lives.
    In essence, these are the pillars of a refugee and state 
failure prevention strategy. They are the arsenal that will 
cause a lasting defeat of radicalism, maintain U.S. influence 
in a needy world, and assure the triumph of our principles, 
interests, and values.
    In this century, as it was in the last, shaping a world of 
peace and prosperity will require American leadership at its 
best. With it, we can, we must, and I believe we will rise to 
the extreme challenges and opportunities in this still young 
and hopeful century.
    With your approval, Mr. Chairman, I would like to submit 
four documents for the committee's consideration. One is an 
article from the Atlantic Council's ``Task Ahead'' publication 
on modernizing global engagement. The second brief is a 
relevant NGO initiative on the topic. The third is a New York 
Times article ``Rebranding America'' by Bono. And the fourth is 
a recent speech I gave on water security.

    [Clerk's note: The documents submitted by General Jones 
appear in the section titled ``Materials Submitted for the 
Record'' at the end of the hearing.]

    Please accept my deepest appreciation for the committee and 
to my fellow witnesses for your devotion to American leadership 
in the cause of global security, development, and stability. It 
is the mission of our time and it is a cause for the ages.
    Thank you, sir.
    [The statement follows:]
       Prepared Statement of General James L. Jones, USMC (Ret.)
    Mr. Chairman, Ranking Member Leahy, and subcommittee members, thank 
you for the invitation to testify today. I commend your leadership on 
an issue of cardinal importance to America's interests and the future 
of the human enterprise.
    I'm honored to testify alongside individuals who have devoted their 
lives to the cause of development, peace, and stability. I have had the 
pleasure of working with Bono for a number of years on these issues. 
There is no more passionate, thoughtful, informed and effective 
advocate for development, and its nexus with security. Millions of 
people live better and more hopeful and peaceful lives because of his 
work, and because of the many efforts of this committee.
    During the bulk of my military service, U.S. national security was 
defined by the long twilight struggle against communism and the Soviet 
military threat. Security was expressed in the calculus of comparative 
troop strength, weapons count, and nuclear throw weight. Today's 
threats are exponentially more diverse and complex than those in the 
bipolar world we left behind in the 20th century. It's an alarming 
roster. Among them:

  --Metastasizing terrorist and criminal enterprises combined with 
        widening access to massively destructive weapons.
  --Weakening and failing states triggering a proliferation of 
        political and economic refugees.
  --A spectrum of world-altering natural resource threats.
  --And the ongoing battle for hearts and minds between the forces of 
        modernity and the retrograde agents of intolerance.

    The challenges are synergistic and extreme. Yet, so are the 
opportunities created by many positive trends: the march of democracy, 
universal connectivity, global economic integration, and life-changing 
innovation.
    If our future is to be defined by our opportunities rather than the 
threats, it demands--and I stress demands--a far deeper conception of 
national and international security--one less reliant on reaction and 
far more focused on anticipation and prevention--one that centers on 
disarming the root causes and major multipliers of conflict and 
instability, and one that, in the long run, is much less expensive than 
what we practice today.
    Viewed through that lens, what comes into sharp focus is that the 
premiere strategic threat to global security, and our own, is not any 
single country, ideology, or weapon. It is human hunger, and 
unsatisfied demand for life-basics including food, energy, water, 
dignity, and a better future for masses living on the edge.
    Let me expand on that. As I understand it, the purpose of this 
hearing is to examine ``the causes and consequences'' of violent 
extremism. This question, and in particular the link between poverty 
and terrorism, has been long debated.
    For many extremist leaders and their acolytes, the attraction to 
violent Islam is born of religious fanaticism or the selfish lust for 
political power and wealth disguised as faith. Others find their 
attraction in a depraved quest for belonging. For multitudes, the 
simple motivation is sustenance, fear, and coercion.
    What is abundantly clear, however, is that extremists bank on 
leveraging human want and desperation to dominate, gain territory, and 
achieve a perverted form of legitimacy. They seek vacuums caused by 
poor governance and corruption to exploit human misery and weakness in 
the pursuit of scale. At scale, and with increasing access to 
sophisticated weaponry--including potentially WMD--violent Islam is as 
great a threat to global stability and prosperity--including our own--
as any state power we can think of.
    I have long felt that the world has a deep moral obligation, and 
self-interest, to end the plague of ISIS, Al Qaeda, Boko Haram and 
their ilk. Unquestionably, defeating this barbaric threat has a 
military element associated with it. But, defeating radicalism 
strategically--depriving violent extremism of scale--requires a far 
broader and more strategic toolkit: one that empowers us not only to 
deploy and defeat but to vigorously--and I mean vigorously--engage and 
endow. That's where we and our like-minded allies, and our collective 
foreign assistance play the most crucial role.
    U.S. foreign assistance has produced great achievements over the 
last couple decades to alleviate extreme poverty, advance global health 
and respond to natural disasters and humanitarian emergencies. The 
return on investment in global influence and national security is 
enormous. This committee has had much to do with that progress.
    The key now is investing our resources more wisely in a more 
focused mission--to leverage the full spectrum of U.S. and allied 
capabilities to defeat violent extremism and the conditions that 
provide it oxygen. This is why U.S. and allied foreign assistance 
programs are more important than ever; but their success requires that 
we build a more effective strategic planning and implementation 
framework.
    Of this I'm convinced: if civilization is to achieve the hopeful 
world order envisioned at the outset of this century, we need a 
complete transformation of how the U.S. and our allies engage with the 
most vulnerable populations and places on earth--located in the African 
continent, the Middle East, Asia, and in central and south America--the 
very people and places where extremists are currently setting their 
sights.
    It's time re-align our strategy to face the threat of violent 
extremism, the same way we recalibrated to defeat the dark ``isms'' of 
the last century with major overhauls in policy and organization, such 
as the 1947 National Security Act and the 1986 Goldwater-Nichols.
    The United States does not have a strategic planning framework for 
foreign assistance that parallels how our military plans. The QDDR is a 
step in the right direction but the lack of foreign assistance 
strategic planning makes advancing our objectives far more difficult 
and uncertain.
    We need global development campaign plan that is as sophisticated, 
serious and passionate as any fight in our history--designed and 
resourced as if the future depends upon it. Because it does!
    I would submit that such a new framework must be guided by four 
principles:
    One, the battle plan must recognize that stability in the 21st 
century is a complex ecosystem--an integrated symphony of security, 
development, and good governance, rooted in the rule of law. Any one of 
the triad absent the others is unsustainable. That means our foreign 
engagement and assistance programs must be synthesized to cultivate 
these three coefficients in concert. It's time for partnership and 
symphony to replace parochial stovepipes and knee jerk reactions that 
too often characterize our current framework.
    Two, it must integrate the public and private sector. No amount of 
foreign assistance can substitute for the transformational power of 
economic growth and entrepreneurship, which is fueled by private sector 
investment. Our foreign assistance strategy and programs must place 
greater emphasis on catalyzing and supporting economic growth and 
opportunity.
    Development and foreign direct investment do and must complement 
one another. Greater security and development will mean stronger 
markets. And stronger markets will bring greater stability. That's a 
win for America and the world. This is what I mean when I say that in 
this new era of human development, entrepreneurs, investors, and 
innovators are as fundamental to geopolitical stability as politicians, 
generals, and diplomats; and trade and investment agreements are as 
instrumental to world order as defense pacts.
    Three, it must recognize the threats posed by food, energy, and 
water insecurity to stability. Lack of access to these resources, 
whether from mismanagement or inequitable distribution, is a major 
driver of poverty, conflict, and extremism. That means core to 
everything we do, our diplomacy, policies, practices, and innovations, 
must promote wise stewardship of the natural systems--including a 
hospitable climate--required to sustain human well-being.
    Four, the campaign must engage the whole of the U.S. interagency, 
the whole of society--meaning government, NGOs, and private 
enterprise--and the whole of our alliances, particularly NATO, to 
deliver security, development, and governance support and assistance 
that improve lives, expands investment, and promotes self-sufficiency. 
We are in a battle of ideas and we are in the fight of our lives for 
the future. If we don't team and win together, we will slowly sink 
together.
    In essence these are the pillars of a refugee and state failure 
prevention strategy. They are the arsenal that will cause the lasting 
defeat of radicalism, maintain U.S. influence in a needy world, and 
assure the triumph of our principles and interests.
    At the beginning of my remarks I mentioned the subcommittee's 
leadership. In this century as it was in the last, shaping a world of 
peace and prosperity rather than desperation and conflict will require 
American leadership at its best. No other country can come close to 
what we can do--not China, not Russia. Only the United States together 
with our allies and friends, hopefully including China and Russia, can 
bring about such global change.
    With your approval Mr. Chairman I would like to submit three 
documents relevant to the hearing topic for the committee's 
consideration. One is an article from the Atlantic Council's ``Task 
Ahead'' publication making the case for modernizing U.S. and allied 
global. The second is a briefing on an initiative I have been 
developing to advocate for and operationalize modern U.S. engagement 
based on the pillars I highlighted. The third is a statement on the 
importance of water security to all of the imperatives we are 
discussing today.
    With America in the lead, we can, we must, and I believe we will, 
rise to the extreme challenges and opportunities in this still young 
and hopeful century.
    Please accept my deepest appreciation to the subcommittee and to my 
fellow witnesses for your devotion to American leadership in the cause 
of global security, development, and stability. It is the mission of 
our time and a cause for the ages. Thank you.

    Senator Graham. Thank you, General.
    I want to recognize Senator Perdue is here. He was on our 
last trip.
    So thank you for coming, Senator Perdue.
    Mr. Blinken.
STATEMENT OF HON. ANTONY J. BLINKEN, DEPUTY SECRETARY 
            OF STATE, U.S. DEPARTMENT OF STATE
    Mr. Blinken. Mr. Chairman, as a ``wannabe'' musician, I can 
only dream of one day opening for Bono. [Laughter.]
    So thank you and thank you to the ranking member for making 
that dream come true. [Laughter.]
    It's not the Verizon Center, but I'll take it. [Laughter.]
    And thank you, more seriously, for having all of us here 
today. I would like to focus my remarks on our efforts to 
counter violent extremism, but I would welcome any questions 
you or the panel have on the administration's response to what 
is a global refugee crisis.
    A little over a year ago I traveled to Paris shortly after 
the Charlie Hebdo attacks. Our ambassador, Jane Hartley, 
convened faith leaders and activists from communities across 
the city, working to try to bring people a little bit closer 
together in the wake of that attack. One of them was an 
extraordinary woman, Latifa Ibn Ziaten, a French-Moroccan 
Muslim woman, the mother of five, including a son named Imad.
    Imad was a member of the 1st Parachute Regiment of the 
French Army. He was stationed near Toulouse in 2012, and there 
he was murdered alongside three brothers-in-arms, three 
children, and a rabbi by a radicalized 23-year-old from Izards 
in France. Soon after that, Latifa, his mother, traveled to 
Izards. She talked to those who knew her son's murderer, first 
as a shy boy who loved soccer or football, later as someone who 
racked up 15 charges for petty crimes and spent a year in jail 
for assault, where he was radicalized.
    When Latifa returned home, she started the Imad Ibn Ziaten 
Youth Association for Peace, working in France's at-risk 
communities to promote interfaith dialogue and help families 
steer their children away from radicalization and violence, the 
path that had resulted in her son's death.
    While Latifa's story shows our capacity to find greater 
understanding even in the midst of unimaginable tragedy, her 
son's death reminds us also of the complexity of the origins of 
violent extremism in the modern world, and only hardens our 
resolve to defeat it.
    The United States has mobilized countries around the world 
to disrupt and defeat terrorist groups and individuals who 
threaten our common security, starting with Daesh and Al Qaeda, 
including Boko Haram, Al Shabaab, Al Qaeda in the Arabian 
Peninsula (AQAP), and others. Our comprehensive strategy is 
making significant progress, as detailed in my written 
statement, which I submitted for the record.
    But even as we advance our efforts to defeat Daesh on the 
frontlines, we must work to prevent the spread of violent 
extremism in the first place, to stop the recruitment, the 
radicalization, and the mobilization of people, especially 
young people, to engage in violence and terrorist activities.
    Since President Obama hosted the White House Summit on 
Countering Violent Extremism (CVE) over a year ago, the 
Department of State has stepped up to play a lead role in what 
is a growing international CVE movement through our diplomatic 
engagement and foreign assistance. We've notified Congress of 
our intent to empower a retooled Bureau of Counterterrorism and 
countering violent extremism to try to lead this effort. The 
Bureau will promote a more strategic approach to countering 
violent extremism, alongside ongoing counterterrorism 
partnerships and engagement.
    In fiscal year 2017, the President's budget requests that 
we build upon and expand our current CVE efforts. We seek 
$186.7 million toward countering violent extremism. That 
includes $59 million for CVE as a portion of the overall 
Counterterrorism Partnership Fund. The request also includes 
$21.5 million for the new Global Engagement Center to try to 
counter Daesh's narrative.
    Additionally, we have invested in innovative programs to 
make communities more resilient against extremism. These 
resources would enable us to expand partnerships with national 
and local governments, civil society, community leaders, the 
private sector, in key countries to address the drivers of 
violent extremism, which I'm happy to address when we get to 
questions, and these resources would allow us to implement 
effectively the first ever joint United States Agency for 
International Development (USAID)-State Department strategy on 
preventing and countering violent extremism governed by five 
core priorities, and, quickly, they are:
    First, to engage and amplify locally credible voices that 
can expose the true nature of violent extremism and its denial 
of human dignity.
    Second, to increase support for innovative regional, 
country-based, and thematic research on the drivers of violent 
extremism and on effective responses.
    Third, to work more closely with our partners at the 
national and local levels around the world to actually adopt 
more effective policies to prevent the spread of extremism.
    Fourth, to strengthen diplomatic efforts and local 
partnerships to address some of the distinct underlying 
political, social, and economic factors that put communities at 
risk in the first place, and General Jones alluded to some of 
those.
    And, fifth, and finally, to strengthen the capabilities of 
our partners to prevent radicalization to violence, especially 
in prisons, and to help ensure that former fighters are 
rehabilitated and reintegrated back into society wherever 
possible.
    Ultimately at the heart of our strategy is a commitment to 
the principles that have underwritten an unprecedented era of 
greater peace and prosperity over the last 7 decades since 
World War II: good governance and pluralism, the rule of law 
and fundamental freedoms, human rights, and human dignity. That 
commitment extends to those who flee violence around the world. 
When it comes to refugee resettlement and the refugee crisis 
more generally, our first priority is to safeguard the American 
people, but at the same time, we must and we will continue to 
provide refuge to the vulnerable, which has been a bedrock of 
our country for centuries.
    Over the last several months, we've heard divisive and 
hateful rhetoric in all corners of the world, including the 
United States, that has conflated refugees with violent 
extremists and demonized those fleeing persecution, violence, 
and terrorism. Our ultimate success in the fight against 
violent extremism will be determined by our ability to hold 
fast to the very values that terrorists oppose: our capacity 
for reason, for wisdom, and for compassion.
    I returned to Paris just a month ago and I met again with 
that same group that I saw just after the Charlie Hebdo 
attacks. Latifa wasn't there, and the reason was because she 
was in Washington, where Secretary Kerry announced her as one 
of the 2016 International Women of Courage Award winners.
    Mr. Chairman, members of this subcommittee, many of you in 
this room have been vital leaders in countering extremism, 
including through the foreign assistance appropriations. Your 
leadership is helping to ensure that in their very acts of 
terror, violent extremists are precipitating exactly what they 
hope to destroy, a world a little bit more closely bound 
together in defense of dignity, justice, and peace.
    Thank you very much.
    [The statement follows:]
              Prepared Statement of Hon. Antony J. Blinken
    Chairman Graham, Ranking Member Leahy, Senators--thank you for 
having me here today. I want to focus my remarks on our efforts to 
counter violent extremism, but I would welcome any questions you may 
have on the administration's response to the global refugee crisis
    I traveled to Paris a little over a year ago, shortly after the 
Charlie Hebdo attacks opened a raw wound in the city. Our Ambassador, 
Jane Hartley, convened leaders from faith communities across the city: 
Muslim, Jewish, Christian--as well as activists who were working to 
bring the people of these faiths closer together.
    One of those activists was a woman named Latifa Ibn Ziaten, a 
French-Moroccan Muslim woman, the mother of five, including a son named 
Imad.
    Imad was a member of the first paratroop regiment of the French 
Army, stationed near Toulouse in 2012, when he was murdered alongside 
three brothers-in-arms, three children, and a rabbi by a radicalized 
23-year-old from Izards, France.
    Soon afterwards, Latifa traveled to Izards. She talked to those who 
knew her son's murderer--first as the sweet, shy boy who liked 
football, but also later as someone who had racked up 15 charges for 
petty crimes and spent a year in jail for assault, where he would 
become radicalized.
    When Latifa returned home, she started the Imad Ibn Ziaten Youth 
Association for Peace, working in France's at-risk communities to 
promote interfaith dialogue and help families steer their children away 
from radicalization to violence--the path that had resulted in her 
son's horrific death.
    While Latifa's story shows our capacity to find love and 
understanding even in the midst of great tragedy, the memory of her 
son's death reminds us of the complexity and opacity of the origins of 
terrorism in the modern world--and only hardens our resolve to defeat 
it.
    The United States has mobilized countries around the world to 
disrupt and defeat terrorist groups and individuals who threaten our 
common security--starting with Daesh and al-Qaeda and including Boko 
Haram, al Shabaab, AQAP and others. Our comprehensive strategy is 
making significant progress.
    The most visible part of this effort is the battlefield and our 
increasingly successful effort to destroy Daesh at its core in Iraq and 
Syria. Working by, with, and through local partners, we have taken back 
40 percent of the territory Daesh controlled a year ago in Iraq and 10 
percent in Syria--killing senior leaders, destroying thousands of 
pieces of equipment, all the while applying simultaneous pressure 
against key chock points and isolating its bases in Mosul and Raqqa. In 
fact, we assess Daesh's numbers are the lowest they've been since we 
began monitoring their manpower in 2014.
    Our comprehensive strategy includes training, equipping, and 
advising our local partners; stabilizing and rebuilding liberated 
areas; stopping the flow of foreign fighters into and out of Iraq and 
Syria; cutting off Daesh's financing and countering its propaganda; 
providing life-saving humanitarians assistance; and promoting political 
accommodations so that our military success is sustainable.
    These hard-fought victories undermine more than Daesh's fighting 
force. They erode the narrative it has built of its own success--the 
perception of which remains one of Daesh's most effective recruiting 
tools. For the danger from violent extremism has slipped past war's 
frontlines and into the computers and onto the phones of people in 
every corner of the world. Destined to outlive Daesh, this pernicious 
threat is transforming our security landscape, as individuals are 
inspired to violent acts from Paris to San Bernardino to Jakarta.
    So even as we advance our efforts to defeat Daesh on the 
frontlines, we know that to be fully effective, we must work to prevent 
the spread of violent extremism in the first place--to stop the 
recruitment, radicalization and mobilization of people, especially 
young people, to engage in terrorist activities.
    That effort begins by better understanding the drivers to 
radicalization--what makes a person or even a community susceptible to 
violent extremism? There is much we still need to study and learn. But 
we already know some challenging truths. There is no single type of 
violent extremist; no single method of recruitment; no single source of 
motivation or support. There is no single story, no easy synonym for 
one region, religious tradition, or culture. Some violent extremists 
are more focused on what they are running to; others more driven by 
what they are running from. Some become disillusioned. Others become 
very, very dangerous.
    Some believe that they are pious. Others do not. Some lack critical 
thinking skills and education, while others have advanced degrees and 
knowledge. Some are beyond reach. Others will still listen.
    In short, the nature and range of possible drivers can vary 
greatly--from individual psychological problems to community, sectarian 
and religious divisions.
    That said, some repeat factors stand out that elevate the risk:
    First, state sponsored violence and abuse correlates with the 
emergence of violent extremist groups. The more repressive a state, the 
higher the risk factor.
    Second, personal experience with petty state corruption--like 
having to pay bribes for services--is a frequent denominator.
    Third, an individual's perception of discrimination against his or 
her ethnic, sectarian or religious group--broadly, a sense of injustice 
and a challenge to the individual's identity--raises the risk.
    Fourth, inter- and intra-state conflicts are incubators for violent 
extremist activity.
    Fifth and most broadly, marginalization--whether personal, social, 
political or economic--correlates closely with extremism--pushing 
individuals to rebellion, to crime, to jail, to susceptibility and 
finally, in a small number of cases, to violent extremism. It's worth 
adding here that the relationship between economic status and violent 
extremism is complicated--we have plenty of examples of individuals who 
are not poor, or unemployed. But a perceived lack of opportunity and 
living in a marginalized community with high unemployment and low 
levels of educations does correlate.
    Much has been written and said about religion as a radicalizer. In 
fact, those responsible for the attacks in France and Belgium seem to 
have been radical before they were religious. Their common denominator 
is a life of crime and stints in jail, not a background in 
fundamentalism. It appears they were radicalized in jail or in their 
neighborhoods around what one of France's leading terrorism experts 
called ``a fantasy of heroism, violence, and death--not Sharia or some 
utopia.'' In that sense, as Fareed Zakaria has put it, for some Daesh 
is the ultimate gang, with violence for its own sake.
    So what is to be done? Since President Obama hosted the White House 
Summit on Countering Violent Extremism over 1 year ago here in 
Washington, a diverse movement has grown of country leaders, company 
CEOs, municipal officials, young people, clerics and parents united by 
a common commitment to fight the ideologies of hate, to defeat agents 
of terror, to destroy networks of financiers, propagandists, and 
recruiters, to make marginal communities more resilient--in short, to 
strengthen our own ability not only to counter--but to prevent--
radicalization in the first place.
    The Department of State is playing a lead role in this growing 
international CVE movement through our diplomatic engagement and 
foreign assistance. We have notified Congress of our intent to empower 
a retooled Bureau of Counterterrorism and Countering Violent Extremism 
to lead this effort for the Department. The Bureau will be responsible 
for promoting a more strategic approach to CVE, alongside ongoing 
counterterrorism partnerships and engagement.
    The President's fiscal year 2017 budget request seeks to build upon 
and expand our current CVE efforts, and includes $186.7 million towards 
CVE. That includes $59 million for CVE, which is a portion of the 
overall request for the Counter-Terrorism Partnership Fund (CTPF). The 
request also includes $21.5 million for the Global Engagement Center. 
Additionally, the Undersecretary of State for Public Diplomacy has set 
aside funds for innovative counter-messaging efforts and programs to 
make communities more resilient against extremism. We believe the 
resources we have requested for our CVE efforts across the board would 
provide us with the ability to expand partnerships with national and 
local governments, civil society, community leaders, and the private 
sector in key countries to address the drivers of violent extremism.
    To carry out this vision of a more comprehensive approach, we have 
developed the first-ever joint USAID and State Department strategy on 
preventing and countering violent extremism, governed by five core 
priorities.
    First, we will engage and amplify locally credible voices that can 
expose the true nature of violent extremism, its savagery, and its 
denial of human dignity.
    Through the recently announced Global Engagement Center, we're 
empowering independent, positive voices to confront terrorist messages 
wherever they arise.
    In Nigeria, where Boko Haram continues its indiscriminate killing 
in mosques and markets, we support Arewa24, the multimedia platform 
that catalyzes the capacity and energy of young Nigerians to create, 
develop, and produce positive narratives about their lives and culture 
and to counter intolerance and political violence. Arewa24 shares their 
stories and innovative solutions with Hausa-speakers in Nigeria, across 
West Africa, and around the world.
    We are beginning to see the space for extremist propaganda begin to 
shrink. Citizens around the world are notifying platforms of suspect 
content, and companies are moving faster to remove them. Twitter 
recently suspended 125,000 accounts for threatening or promoting 
terrorist acts, and Facebook deletes thousands of postings by 
terrorists or advocates of violent extremism every day.
    Daesh posts are no longer as prominent on the most visited social 
media sites as they were a year ago. Now many sites are overwhelmingly 
populated by anti-Daesh messages, and it is beginning to have an 
impact--measured not only in tweets and followers, but also the growing 
networks of researchers, young people, and civic leaders inspired now 
to take positive action.
    Second, we are looking to increase support for innovative regional, 
country-based, and thematic research on the drivers of violent 
extremism and on effective responses.
    For example, we are supporting the Researching Solutions to Violent 
Extremism (RESOLVE) Network, which connects academics and researchers 
to study the dynamics of CVE in specific, local contexts and identify 
effective CVE interventions. The phenomenon of violent extremism is, of 
course, not new, but its manifestations in this century are--its 
tactics, its tools, its reach, especially, of course, through the 
Internet and social media.
    Third, we are working closely with our partners--at the national 
and local level--in Europe and around the world to actually adopt more 
effective policies to prevent the spread of violent extremism.
    Through the Strong Cities Network, we are connecting local 
officials to share their experiences and, importantly, their best 
practices.
    For instance, we can learn from cities like Dakar, Senegal, where a 
collaboration of 19 district mayors supports roughly 500 youth 
volunteers to help identify and address local concerns in partnership 
with police.
    Fourth, we are strengthening diplomatic efforts and local 
partnerships to address the distinct underlying political, social, and 
economic factors that put countries and communities at high risk and 
make young men and women susceptible to the siren call of extreme 
ideologies.
    In many environments where the risk of violent extremism is high, 
development has failed to take root, human rights violations are 
common, governance is weak and not inclusive of vulnerable populations, 
access to education limited, and corruption is high.
    Together with State, USAID is bringing its development expertise to 
bear in precisely these environments--harnessing the full range of 
analytic tools to design, support, and measure programs and policies 
that reduce the vulnerabilities of local communities.
    In Gao, Mali, where the rate of recruitment was particularly high 
during occupation by violent extremists in 2012, USAID piloted a 
program to reduce the isolation and marginalization of target 
communities. After fostering trust by responding to basic needs, the 
program quickly pivoted to activities that built ties between 
communities through things like soccer tournaments, dialogues, youth 
conferences. A social network analysis conducted during the program 
found that community integration had already increased by 11 percent 
and led, in particular, to more tolerant views on the rights and role 
of women in society.
    Fifth, and finally, we will strengthen the capabilities of our 
partners to prevent radicalization to violence, particularly in 
prisons, and help ensure that former fighters are rehabilitated and 
reintegrated back into society whenever possible.
    Imad Bin Ziaden's killer was not the only extremist to have found 
an ideology of nihilism and hatred inside prison walls. Two of the 
three perpetrators of the Charlie Hebdo attacks were likely radicalized 
in prison. The same is true of the terrorist who shot and killed four 
people at the Jewish Museum in Brussels in 2014 and of the gunman 
responsible for the attack in Copenhagen in 2015. And as we continue to 
learn more about those responsible for the Brussels attack, we've found 
a list of petty crimes and time spent in jail.
    As a result, our partners around the world are increasingly 
embracing innovative ideas to mitigate prison radicalization. In one 
frontline state, we're working with a local NGO that provides pro bono 
legal assistance and vocational training to inmates, including 
juveniles, who have been detained for low-level, non-violent offenses. 
By facilitating the release and reintegration of these prisoners, we 
help remove them from a setting where they are vulnerable to the 
recruitment efforts of violent extremists.
    But prisons can also be effective environments to target 
rehabilitation and reintegration programs, in part because prison is a 
time when individuals can be cut off from negative influences and 
contacts of the past. Today, we are working with experts around the 
world to develop tools to assess the attitudes of prisoners to 
terrorism over a period of time to help both separate terrorist 
recruiters and ideologues from vulnerable inmates and identify good 
candidates for rehabilitation and reintegration.
    Ultimately, at the heart of our strategy--at the center of each of 
these five pillars--is a commitment to the principles that have 
underwritten an unprecedented era of greater peace and prosperity over 
the last seven decades. Principles of good governance and pluralism. Of 
the rule of law and fundamental freedoms. Of human rights and human 
dignity.
    And that extends to those we have seen flee the terror of violence 
around the world. When it comes to resettlement, our first priority has 
been and will continue to be safeguarding the American people. At the 
same time, we must continue to uphold our fundamental commitment to 
provide refuge to the vulnerable, which has been the bedrock of our 
country for centuries. Over the last several months, we have seen 
hateful rhetoric in all corners of the world, including the United 
States, conflating refugees with violent extremists and demonizing 
those fleeing persecution, violence, and terrorism. We reject any form 
of intolerance, ignorance, and prejudice, especially when directed 
against those in greatest need. Our ultimate success in the fight 
against violent extremism will be determined by our ability to hold 
fast to the very values terrorists oppose--our capacity for reason, 
wisdom, and compassion.
    I went back to Paris a month ago to sit back down with that 
interfaith group to discuss what had changed in the year since we first 
spoke, a year that brought more tragedy to Paris. Latifa was not able 
to attend--she was actually in Washington where Secretary Kerry 
announced her as one of the 2016 International Women of Courage Award 
winners.
    We must continue to invest in Latifa's world where the vast 
majority of people recoil at the actions of terrorists and reject the 
ideology of violent extremists with every fiber in their being. People 
like Latifa, who have not given in to the bitterness of loss, are 
critical to preventing more grieving communities and to bringing peace 
to homes, schools, prisons, and places of worship.
    So, on behalf of Secretary Kerry, let me say in conclusion how 
we're grateful for the support and engagement of our congressional 
leaders, including many of you in this room, have lent to this work 
through foreign assistance appropriations to carry out this very 
important work. It is not hard to see that--in their very acts of 
terror--violent extremists are precipitating exactly what they hope to 
destroy: a world more closely bound together in defense of dignity, 
justice, and peace.
    Thank you very much.
STATEMENT OF BONO, LEAD SINGER OF U2 AND COFOUNDER OF 
            ONE AND (RED)
    Bono. All right. Thank you, Mr. Chairman. Thank you, Member 
Leahy. Thank you, members of the subcommittee. My name is Bono. 
I am the cofounder of the ONE Campaign. And I'm just going to 
jump right into it because I've been told not to filibuster. 
And as you know, the Irish invented the filibuster. [Laughter.]
    So I'm going to read this because that makes it faster.
    I just returned from Africa and the Middle East, where I 
was lucky to join the CODEL led by Senator Graham there. I 
visited Kenya and Jordan and then, with the team, Turkey and 
Egypt. This visit revealed one fact and two fictions. The fact 
is that aid can no longer be seen as charity, a nice thing to 
do when we can afford it. If there's one thing I would like you 
to take away from this testimony, it is that aid in 2016 is not 
charity, it is national security, and when it's structured 
properly, with a hard focus on fighting corruption and 
improving governance to qualify for that aid, it could be the 
best bulwark we have against the violent extremism that is 
gaining traction in the Levant and the Sahel.
    The two fictions the expedition revealed to me were, number 
one, that this refugee problem is temporary. The typical crisis 
that creates refugees lasts 25 years. On our trip, Senator 
Graham and I heard the term ``permanent temporary solution'' 
thrown around, but without the irony that that phrase requires.
    The second fiction is that it's simply a Middle Eastern 
problem. Refugees are flowing from all over the world, 
especially Africa actually. Of the top 10 countries that are 
hosting refugees today, five of them are African.
    In Europe, the problem has moved from practical to 
existential. In 1989, the wall that divided Europe came down, a 
remarkable moment to live through. Who could imagine in 2016 
another set of walls being built up, this time made of mesh and 
razor wire, but walls nevertheless?
    Members of the subcommittee, let me soberly suggest to you 
that the integration of Europe, the very idea of European 
unity, is at risk here. Europe is America's most important ally 
since the Second World War. Are we not your most important ally 
in the fight against violent extremism? This should really 
matter to you. I know it does.
    Put simply, as we Europeans have learned, if the Middle 
East catches fire, the flames jump any border controls, and if 
Africa fails, Europe cannot succeed. It's not rocket science, 
it's math. Here are the numbers. By 2050, the African 
population will have doubled to 2.5 billion, twice that of 
China. Forty percent of the world's youth will be African, 
which personally excites me because I have a sense of who they 
are and want to be. Of the ONE Campaign 7 million members, 3 
million of them are African. We have a sense of their potential 
as an engine of growth that can roar, but we also fear that if 
the young people of Africa are misled and marginalized, their 
anger could be channeled not to hope, but to hate. The choice 
is stark: we fast-track our friendship or we invite new 
enemies.
    I know that you in this room believe deeply that freedom is 
more powerful than fear, that hope is more contagious than 
hate, and I know you'll agree with me when I say that sometimes 
hope needs a bit of help. Well, this is one of those times. You 
see, to defeat bad ideas, you need better ideas. But the good 
news is we have them. The United Nations High Commissioner for 
Refugees (UNHCR) has great ideas on how humanitarian support 
can be done better and provide jobs and hope. They witness how 
the mood of a camp changes if there's a classroom built for 
kids. They see the despair in the faces of skilled workers not 
allowed access to the labor market.
    But soberly I have to say to you, the international 
community, though it means well, is having a lot of meetings 
about the crisis, and I believe it's issuing a record number of 
press releases, but what it's not doing is cutting checks. As 
of last month, as you kind of are about to hear, the UN's 
humanitarian response plans for 2016 have only received 9 
percent of the funding they require, 9 percent. And grants are 
handed out annually, which is kind of on a hand-to-mouth basis, 
with no predictability, which makes it impossible for these 
agencies to plan, which is madness. It's absolute madness.
    Another idea that I heard that might be of serious interest 
to this committee is to prioritize the support of the countries 
along the Sahel and Levant who are not yet in crisis. Now, I 
know this sounds counterintuitive, but the people I met, 
especially the military, told us it is critical that these 
countries not only survive, but that they thrive. Imagine if 
the chaos that went through Syria were to engulf Egypt or, God 
forbid, Nigeria, these are gigantic countries. This is not 
melodrama.
    We now know that people, when running from war, will risk 
the most treacherous journeys, doctors, teachers, tying their 
children to their chests as they tie themselves to floating 
corks and tin cans on the Mediterranean Sea, all for the 
promise of a better life. When you think of an exodus on that 
big a scale, you realize that we have some, we better have 
some, big ideas to meet the challenge, and we do, and I'm 
really encouraged to sit here and hear them come from a 
bipartisan committee.
    These countries need aid, but it's not just aid, commerce 
is urgent here, new trade agreements are critical, concessional 
loans from the World Bank are essential. Dr. Jim Kim and the 
World Bank are really being innovative here. So is Gayle Smith, 
who runs USAID. You should be proud of these people. Anti-
corruption campaigners in our own office around the corner in 
the ONE Campaign will tell you that the reforms necessary to 
qualify for the loans can be as important as the loans 
themself. The African Development Bank has been right out in 
front on this stuff. President Akin Adesina understands that 
corruption kills more people than AIDS, TB, and malaria 
combined. So tackling corruption has to be part of this 
package. In fact, he was also one of the first leaders to call 
for a modern Marshall Plan as a partnership for progress.
    So what might that mean? Well, the Marshall Plan, as 
America knows, was the first time the world witnessed 
development and security on a grand scale. The Marshall Plan 
was an idea big enough to meet the moment in history. It was an 
idea as big as the sacrifice Americans made in the fight for 
freedom, an idea that showed America could not only win the 
war, but the peace, as Lindsey Graham keeps reminding us, an 
idea big enough to change the world, an idea, like the idea of 
America itself.
    You see, the peaceful Europe that I gratefully grew up in, 
the one that is so under threat right now, was born of the 
Marshall Plan, history's greatest example of national 
generosity, as national security, which is what I'm talking 
about today, and I'm not alone. Trade and development as 
security, that's what Jim Jones is talking about today, and 
he's not alone. Senator Graham, not alone when he spoke to the 
Washington Post yesterday, it's the same thing. The Finance 
Minister of Germany, Mr. Schauble, not known for his wild 
pronouncements, has invoked this. King Abdullah of Jordan, the 
same. Actually, King Abdullah is worth thinking about because 
he's a leader, and he's also a military man. It's not 
coincidence that he's a military man because I think, and I'm 
sure, military leaders, at least the great ones, know the cost 
of failure will ultimately be borne by them, by the men and 
women they lead into battle and have to face as they come home.
    This is a new century. These are new threats. This is 
politically very hard. I hope I understand the challenges, I 
hope I understand the pressures you face, as leaders, but in 
truth, I probably don't, but I'll tell you what I do 
understand. I understand that America is not ready to give up 
on its greatness, and I'm not either. That's what got America 
to the Moon, that's the spirit that brought mankind back to 
Earth, when you signed up to fight the largest health disaster 
in the history of the world, HIV/AIDS. There were members on 
this subcommittee who refused to accept that AIDS was a problem 
that couldn't be solved, and since 2002, we now have nearly 9 
million people who owe their lives to the U.S. taxpayer. If 
you're a U.S. taxpayer, you're an AIDS activist. Think about 
that.
    I'm here today to testify to the United States Senate that 
I have seen the impossible made possible right here in these 
halls, and we need that leadership again in this moment of 
great jeopardy. It is who you are, it is your essence and your 
calling. And when you serve history, you serve the people of 
America, and when you write history, we all live it.
    Thank you very much.
    [The statement follows:]
  Prepared Statement of Bono, Lead Singer, U2 Cofounder, ONE and (RED)
    Mr. Chairman, Ranking Member Leahy, and members of the 
subcommittee, thank you for this invitation to speak. It is an honor to 
give testimony on the steps I hope the world will take to address the 
growing refugee crisis and the rising threats to global security.
    My name is Bono and I speak to you today as an activist. In 
addition to my band U2, I am the cofounder of another band--the ONE 
Campaign--although this band has 7 million members. ONE, as some of you 
know, is an advocacy organization taking action around the world to end 
extreme poverty and preventable disease. In pursuit of those goals I 
have had the good fortune of working with many on this subcommittee and 
with many more of your colleagues over the years.
    We have made great progress toward ending extreme poverty--progress 
that would have been impossible without American leadership, American 
generosity, and good old-fashioned American hard-headedness, including 
the hard heads of Members of Congress. But that progress stands in 
jeopardy today. So I am here to urge action by the international 
community in response to both the refugee crisis and the rise of 
violent extremism.
    I have just returned from Africa and the Middle East, where I was 
lucky to join up with a congressional delegation led by Senator Graham. 
I visited Kenya, Jordan, Turkey, and Egypt--three of these countries 
are hosting the largest numbers of refugees. I met with many refugees 
and listened to their stories, some of them tragic, some full of hope. 
And I talked to countless officials and representatives of civil 
society. Not far away are countries that do not have big refugee 
populations but that sit, all the same, on the fault lines of chaos and 
violent extremism.
    What both kinds of countries need--whether to address an emergency 
or to prevent one--is a better bridge between immediate humanitarian 
support and long-term development. If we value stability in the nations 
on the brink, we need to invest in their stability--both through 
additional resources for development assistance, and through trade, and 
through related policies that combat the corruption that further 
weakens fragile states. Investing today in stability is more cost-
effective than investing later in crisis management and dealing with 
the violent extremism that conflict creates and attracts.
    For too long, aid has been seen as charity--a nice thing to do when 
we can afford it. But this is a moment to reimagine what we mean by 
aid. Aid in 2016 is not just charity--it is national security. Though 
of course we know that aid alone is not the answer, it is also true 
that when aid is structured properly, with a focus on fighting poverty 
and improving governance, it could just be the best bulwark we have 
against the extremism of our age.
    The global refugee crisis is the product of a lot of things: 
poverty, insecurity, violence, and poor or non-existent governance. 
When those things happen, people flee where they are and--often at the 
mercy of bad men and worse ideas--take themselves and their despair 
elsewhere. The ``elsewhere'' could be anywhere. That is one big reason 
why we can't afford to ignore what is happening today. It affects us 
all. And if we don't act, it implicates us all.
    To act effectively, we first have to get rid of a couple of 
wrongheaded ideas.
    One is that the refugee problem is temporary. The typical crisis 
that creates refugees lasts 25 years, which in my book is a long time 
to be exiled from your home country--and then to face a second exile by 
the country that accepts your presence, but not your right to work or 
move. On our trip, Senator Graham and I heard the term ``permanent 
temporary solution'' thrown around, but without the irony that phrase 
requires.
    That absurdity is made clear by the Dadaab refugee camp in Kenya on 
the Somali border. It's been there for a quarter century. It's the 
world's largest camp with 345,000 people living in it--nearly a third 
of whom were born in the camp. These families--many of which have been 
there for decades--do not view their situation as short term.
    The other wrong idea is that this is mostly a Syrian problem. Syria 
gets the headlines, and for very good reason, but refugees are flowing 
from Africa and Asia as well, not just the Middle East. In fact, 
according to the U.N., at this moment, 1 in every 122 people in the 
world has been forced to flee their home. My fellow Irishman Peter 
Sutherland, the United Nations Special Representative of the Secretary 
General for International Migration, has made clear that, ``Today we 
are living the worst crisis of forced displacement since the Second 
World War. Almost 60 million people have been compelled to flee their 
homes due to conflict or other dangers.'' We know that a few years ago, 
10,000 people on average were forced from their homes every single day. 
The latest numbers exceed 40,000.
    And most are ending up in the countries that, in many ways, are the 
least equipped to handle them: 86 percent of the world's refugees are 
in developing countries, which are struggling with the impact on their 
infrastructure and services, while they try to pursue their own 
development.
    It's good news that the Sustainable Development Goals, agreed last 
year, include a commitment to peaceful societies and to advancing new 
approaches to address conflict and development. But that's a commitment 
we've got to keep. Because if we sit back, we might see the whole of 
the Levant and sub-Saharan Africa destabilized for generations. That 
would be no small matter. You can't draw a perimeter around problems on 
that scale. We will all feel the effects.
    Poor countries are not the only ones showing the strain. As the 
conflict in Syria enters its sixth year, more than 4.8 million Syrian 
refugees have now fled, the majority to neighboring countries like 
Turkey and Jordan, which are quite strong economically and resilient 
politically. As I saw on my travels there, they have shown great 
generosity in hosting many of these refugees. Yet I heard about the 
immense strain being placed on public services and public finances.
    Given that, and with half the world's refugees living in urban 
centers and many of the rest in camps, host homes, makeshift shelters, 
and even out in the open, it seems very clear that we need to update 
our approach to delivering aid and international support to host 
countries--in ways that reflect their economic as well as their social 
needs, and those of the refugees themselves.
    I said that this was not a Syrian problem. Indeed it's very much a 
global problem, and it affects us all to varying degrees. As a 
European, I'm here to tell you that in Europe the problem has moved 
from practical to existential. In 1989, the wall that divided Europe 
came down. In 2016, barbed wire fences that divide Europe are going up. 
The integration of Europe--the very idea of a Europe ``whole and 
free''--is now under threat. Which puts a key strategic partner of the 
U.S. in play. As Robert Kaplan has written, ``such a transformation of 
political geography would leave the United States as the lonely bastion 
of the West.''
    Humanitarian organizations that I am affiliated with, like Amnesty 
International, are concerned about how the E.U. and Turkey have handled 
their latest ``deal'' on refugees. What's clear is that even in times 
of desperation, we have to stick by our fundamental values, the rights 
that were drafted to protect people in vulnerable circumstances and 
conflict. When times are tough, governments sometimes look to cut 
corners. But that never works in the long term--and in this case it 
doesn't appear to be working in the short term either. It's critically 
important that governments around the world stay true to the letter and 
the spirit of the 1951 Refugee Convention and 1967 Protocol; we need to 
see that in effect and not just on paper.
    It's also dangerous to cut corners on aid--aid that's been 
promised, aid that's essential.
    Aid budgets were strained to begin with. And now, an increasing 
proportion is being diverted from long-term development efforts aimed 
at root causes of conflict and poverty, and directed instead to pay for 
in-country refugee costs or disaster relief. Western governments that 
are struggling under the burden of incoming refugee populations are 
shifting spending from overseas development assistance to what's called 
``in-donor refugee costs'' within their own borders. The Netherlands, 
for example, has decided to use all future aid increases to cover in-
donor refugee costs in 2016 and 2017. The Danish Government has decided 
to cut development assistance while increasing the proportion spent on 
refugee costs at home. And in-donor refugee costs have directly 
impacted Sweden's ODA budget, including its 2016 contribution for the 
Global Fund to Fight AIDS, TB and Malaria which has been cut by 30 
percent.
    We have to think hard, as we do this, about the kind of world we 
want young people to grow up in, and how we want them to perceive their 
future. Africa's population is set to double from 1 to over 2 billion 
by 2050, and by then will contain 40 percent--two out of every five--of 
all the young people in the world. Will these young people have access 
to opportunity, and will they have the mental and physical capacity to 
fulfill their potential? Will they embrace democratic ideals of 
freedom? Or will they grow up in places that are blasted by neglect and 
corruption, where extremist ideas prey on the extremely poor?
    As the Committee knows, we're going to be living with the Syrian 
refugee crisis until two things happen: until the civil war comes to an 
end, and until the nations of the world find a more equitable way to 
share the costs and other challenges of forced migration on this scale. 
Both will require the leadership of the United States and other 
nations--and both lie outside my expertise, such as it is.
    So in my testimony I'd like to offer a few other ideas about where 
the world should act. Clearly we need to get smarter, think bigger, and 
move faster--both in addressing this crisis and in preventing the next 
one. We need a range of sound policies to address the humanitarian, 
development and security needs of the countries producing refugees, the 
countries in danger of producing them, and the countries on the edge of 
conflict zones. Having talked with refugees, and having talked to 
countless officials and representatives of civil society along the way, 
I see three basic areas for action.
    Firstly, we have to address the immediate humanitarian needs of the 
refugees and internally displaced persons and provide support to host 
nations in which refugees reside.
    The Global Humanitarian Overview produced by OCHA last year shows 
that, since 2011, the gap between humanitarian need and donor response 
has grown. At the end of last month, the United Nations humanitarian 
response plans for 2016 had only received 9 percent of the funding they 
require--leaving a shortfall of $18.6 billion.
    While the increase in consumption brought by refugees can 
contribute positively to economic activity, the World Bank estimates 
that the direct budgetary costs associated with increased spending on 
health, education, infrastructure, and social programs as a result of 
the refugee crisis is about 1-1.4 percent of GDP for Turkey, Lebanon, 
and Jordan.
    This would be a significant additional strain for any host nation 
but to expect developing countries like those hosting large refugee 
populations in sub-Saharan Africa, where basic services are already 
stretched and where the majority of refugees are still seeking 
sanctuary it is simply unsustainable.
    And these sums absolutely must be additional--they can't be cut 
from core lifesaving health or other development accounts. We can't pay 
to fight one crisis and inadvertently feed more future crises through 
insufficient resources. That's what is going on right now across the 
world and it will cost far more in the long run.
    As I described earlier, these humanitarian needs are not short term 
but in-fact long term.
    I mentioned the Dadaab camp, which has been in existence for 25 
years.
    The refugees there told me of their desire to gain an education, 
learn skills, go to university, and be able to work legally in the 
local economy. But in the quarter century since its formation, the 
Dadaab operation has not been able to expand beyond providing basic 
services to the refugees-- and cannot manage even that to the extent 
that is needed. Half the children in the Dadaab complex are not in 
school, and families with 3 children or more are limited to 70 percent 
of their usual food rations because of continued shortages.
    In theory, refugees in Kenya should have the same access to the 
labor market as any other foreign national. In practice, work permits 
for refugees are rare, preventing them from working towards becoming 
financially independent. Following recent Al Shabaab attacks close to 
Dadaab, the Kenyan Government threatened to close the camp altogether, 
and then re-banned any permanent structures being built within the 
camp.
    Second, we need to get creative in how we think about the 
contribution that refugees can make to the countries where they reside. 
The refugees want to work, and we should want their hands to be 
occupied and not idle. They need education; they need training; they 
need access to the labor market. If we can help provide those things, 
it will greatly reduce the pressure on host countries, and give 
refugees an opportunity to contribute to those communities.
    At Za'atari in Jordan I saw a camp of 80,000 refugees that have 
already established 3,000 shops within the camp's borders. The Syrians 
I met there were ambitious and entrepreneurial. Let me give you just 
one example; when it was announced that the Dutch Government were 
donating bicycles to the camp that had been discarded in the streets of 
Amsterdam, even before the bikes arrived, the refugees had set up 
bicycle repair shops. Once the bikes arrived and had been 
reconditioned, the refugees set up a bicycle pizza delivery service.
    The politics of integrating refugees into local economies, I don't 
need to tell you, is really hard. We need to work with governments so 
that they see refugees as being not exclusively a burden--but a benefit 
to the societies where they end up.
    Alexander Betts and Paul Collier argued recently that refugee camps 
can be reconceived as ``industrial incubator zones,'' where refugees 
can have access to education, training, and the right to work.
    That's exactly the right approach. Tents and camps won't solve the 
problem. Displacement is protracted, measured in years not months. It 
can be a whole lifetime for children who may well grow up without an 
education, without opportunities to contribute to the world's future 
growth.
    The international community must work to reduce the pressure on 
countries hosting refugees by supporting them in providing access to 
jobs and education that will benefit both refugees and host 
communities.
    Third, we tend to give humanitarian efforts and development efforts 
their own separate bureaucracies and unlisted phone numbers, as if 
they're completely separate concerns. But to be effective they need to 
be better coordinated; we need to get creative about linking the two 
and get innovative about providing new and sufficient sources of 
funding. The U.S., of course, has a big role to play here. But other 
nations, for example in Europe, and international financial 
institutions can and must also play a vital role in identifying and 
providing these new sources of finance.
    In Jordan I had the opportunity to meet with Dr. Jim Kim of the 
World Bank Group. And he was clear that the Bank is ready to implement 
innovative financing instruments to respond quickly to crisis 
situations, for example by giving concessional loans to countries that 
are hosting refugees to help ease their financial burden. Under his 
leadership, the Bank is also developing a Special Economic Zones 
project, which aims to contribute to creating 100,000 jobs for both 
Syrian refugees and host communities.
    Finally, we need big ideas to get ahead of violent extremism over 
the long term, which means meeting the development needs of nations 
that don't necessarily have large resident refugee populations but are 
vulnerable to instability and conflict.
    An example would be the Sahel, a region where the three extremes--
extreme climate, extreme ideology, and extreme poverty--combine to form 
a toxic brew that threatens the people of the region and potentially 
the world.
    What are the big ideas that will reverse that trajectory? Here's 
what I'm hearing. . . .
    There are no short cuts to breaking the cycle of violence; 
political and security-related issues must go hand-in-hand with 
development cooperation.
    Just think: the Marshall Plan was a bulwark against violent 
extremism in the early days of the Cold War, through finance and 
through incentivizing well-functioning political and economic systems. 
And as I have been talking to people about the precipitating factors in 
the refugee crisis in the last few months, I keep hearing calls for 
something like a Marshall Plan to head off the rise of violent 
extremism in North Africa, the Middle East, and the Sahel.
    Sanctuary for refugees and our safety are complementary, not 
competing. The conflict in Syria that has resulted in so many people 
fleeing their homes has in turn created a home in the abandoned war 
torn areas for violent extremists, and same is true for Boko Haram in 
Northern Nigeria.
    The pressing need for a new approach to the global refugee crises 
and their precipitating factors are now being recognized by those with 
the vision and imagination to look to the past for a solution to the 
problems of our future.
    Just last week the Chairman of this subcommittee Senator Lindsey 
Graham suggested that the international community should seek 
inspiration from the success of the Marshall Plan after World War II.
    The Finance Minister of Germany, not famous for wild 
pronouncements, has also called for this kind of big thinking. As did 
the new president of the African Development Bank, Akin Adesina, who 
said recently ``The future of feeding a projected 9 billion people in 
the world by 2050 depends on Africa. To seize this potential requires a 
scaled global partnership, a modern day Marshall plan but led by 
Africa.''
    As we hear from more experts and develop our thinking on this 
together, we can discuss the components of such a plan: investing in 
areas that produce jobs, like agribusiness and energy; investing in 
education, especially for girls, because as we know, poverty is sexist 
and girls are impacted first and worst by extreme poverty; investing in 
targeted social safety nets to help protect the vulnerable; combating 
corruption and poor governance; supporting the rule of law and a free 
and independent media without which power inevitably corrupts. Some pay 
for themselves, some will attract private investment, some need 
increased smart strategic aid, though aid alone is not the only answer.
    Very specifically, we hope the United States will back ambitious 
proposals at the Global Anti-Corruption summit in London in exactly 1 
month from today. Terrorist financing feeds of the opaque underbelly of 
the global financial system as much as extremists prey on the states 
weakened by the corrupt.
    We need to back countries that take on this fight, like Nigeria. 
President Buhari is implementing a zero tolerance towards corruption as 
part of his drive to beat Boko Haram and end extreme poverty in 
Nigeria. We need to back his initiative for the North East of that 
country which is currently a development disaster zone
    What we can't doubt is that we need big ideas and innovative new 
partnerships . . . the kind of ideas that America has always been known 
for. I want to close on this point. I've been talking today about the 
need for global action--comprehensive, well-coordinated. And that is 
what's needed. But there remains a role that only America can fill--
leadership that only America can provide. And when you step forward, 
you can really save lives, ease conflicts, and bring hope.
    We know what American ingenuity can do when unleashed. We know what 
American compassion can do. We know what American leadership can do.
    I know, myself, because I've seen it in action. Remember the AIDS 
crisis in sub-Saharan Africa? Not much more than 10 years ago, it 
seemed a sure bet that AIDS would wreck the whole of Africa. But when 
the American people got engaged, and when American science and American 
business and especially American political leaders, including this 
Congress, really got going, we began to beat back the plague.
    In a sustained effort marked throughout by bipartisan support--and 
never let that be forgotten-- the United States has, since 2000, spent 
more than $50 billion on the global fight against AIDS through programs 
such as PEPFAR and support for the Global Fund to Fight AIDS, TB and 
Malaria. In 2002, there were just 50,000 people on life-saving anti-
retrovirals in Africa; now there are more than 10 million. Since 2002, 
U.S. taxpayers have put more than 8.5 million people in developing 
countries on lifesaving anti-retrovirals and due to PEPFAR programs for 
prevention of mother-to-child transmission, 1.5 million babies have 
been born HIV-free.
    The fight against HIV/AIDS is not fully won yet, but global health 
is a success story. It has strengthened the continent of Africa, and--
no coincidence--it has strengthened America's standing in the world. 
Not only have deaths from AIDS been cut in half, but citizens of 
African nations have a far higher regard for the United States because 
of Americas response to the pandemic.
    In that sense and others, the global refugee crisis is another 
opportunity for America to lead. In the spirit of PEPFAR, in the spirit 
of the Marshall Plan, America once again has the chance to advance 
global security through global generosity, and turn this moment of 
great jeopardy into a time of opportunity. To answer the forces of hate 
with a future of hope.
    Those are the stakes. And that is the choice that confronts us 
today.
STATEMENT OF KELLY T. CLEMENTS, DEPUTY HIGH 
            COMMISSIONER, UNITED NATIONS HIGH 
            COMMISSIONER FOR REFUGEES
    Ms. Clements. Mr. Chairman, ranking member, members of the 
subcommittee, on behalf of the High Commissioner and the UN 
Refugee Agency, I am pleased to appear before you to speak on 
the global refugee crisis, especially to bat cleanup for four 
heroes.
    On a personal note, it's also a particular thrill to 
testify today with Bono, whose advocacy on behalf of the 
world's poorest, has pushed leaders to act and whose early 
music helped to shape my high school years. [Laughter.]
    Mr. Chairman, you have my full statement for the record, so 
I'll summarize as well.
    As this subcommittee is well aware, world attention to 
refugees has perhaps never been greater, yet forced 
displacement is nothing new, and has been steadily growing in 
recent years, and of the 65 million uprooted people, some 21 
million have crossed an international border and are, 
therefore, refugees, while the remaining 40 million people are 
primarily those who are displaced within their own borders, 
internally displaced persons. If the uprooted formed a single 
country, it would be the world's 24th largest. Last year, more 
than 42,000 people fled their homes every single day, and at 
the same time, the number of refugees who were able to return 
home was at its lowest level in three decades.
    New conflicts emerge and the existing ones drag on with no 
solutions in sight. The human and financial resources of the 
United Nations High Commissioner for Refugees and our partners 
are stretched like never before in order to respond to new 
crises while continuing to adequately attend to those displaced 
for many years.
    It's also important to note, and, in fact, clarify, that 
while refugee camps are a favored visual image for the media, 
most refugees are not in camps; rather, an estimated 63 percent 
of refugees globally, and 90 percent of Syrians, do not live in 
camps, they live in towns and villages.
    Mr. Chairman, the humanitarian system at large is faced 
with a critical humanitarian and financial dilemma. The funds 
available for humanitarian aid are not keeping up with the 
rapidly expanding needs. UNHCR continues to make very difficult 
choices. Our programs in Africa, for example, are at a breaking 
point, with only 35 percent of needs being met last year.
    Beyond the funding challenges, we are witnessing today an 
unprecedented attack on the ability of uprooted individuals and 
families to find protection from harm. In some cases, 
particularly in industrialized countries, this attack takes the 
form of policies that prevent or discourage asylum seekers from 
accessing protection. In other cases, we see closure of 
borders, making it nearly impossible for persons fleeing 
persecution and violence to find safety in neighboring 
countries.
    I was in Serbia last month when the Macedonia and other 
borders closed, essentially ending the Western Balkans route 
north, leaving thousands trapped in countries unclear of their 
futures. Not since the period preceding World War II have we 
witnessed such popular rejection of the notion of protecting 
refugees. Within this climate, it is all the more essential to 
ensure nondiscriminatory access to quality asylum and 
protection. While taking legitimate steps to ensure their own 
security, countries should not slam their borders shut to those 
who are themselves the victims of violence, persecution, and 
often terrorism, and who have no other means of finding safety.
    As recent events have shown, such efforts can have the 
unintended consequence of supporting the business of smugglers 
and human traffickers. In contrast, efforts to identify quickly 
those persons who are in need of international protection to 
address their needs are not only in line with international 
law, but also with the finest of humanitarian traditions.
    This approach recognizes that effective counterterrorism 
measures and the protection of human rights are complementary 
and mutually reinforcing goals. We look to the United States to 
uphold its longstanding leadership role in international 
refugee protection, consistent with the ideals on which this 
country was founded, by continuing its example of welcoming 
those who are amongst the most persecuted and most vulnerable 
in the world today.
    But amongst these challenges, there is hope. This week in 
Washington, we will support efforts by the World Bank and other 
partners to increase development assistance and resources for 
countries that are hosting large numbers of refugees and in 
many cases are geographically on the front lines of our 
collective security. Last week, a gathering of donors and 
agencies agreed through the Wilton Park Principles to a series 
of steps to support countries hosting large numbers of 
refugees, including the development of innovative financing 
instruments.
    Another effort is the UN High Level Panel on Humanitarian 
Financing to agree on implementable actions of what we call the 
``grand bargain,'' to improve the way humanitarian aid is 
mobilized and delivered, including, hopefully, multi-year 
plans.
    At the same time, UNHCR is working with governments and 
other partners to find new and creative avenues for refugees to 
find temporary and permanent legal protection. We call on 
governments to explore various ways for refugees to move 
legally and access employment without putting themselves in 
harm's way.
    As I conclude my statement today, I leave you with three 
main messages. First, the traditional responses to forced 
displacement, including humanitarian aid and resettlement, need 
to be reinforced and complemented with vigorous and creative 
alternatives that can be pursued now. In the absence of 
political solutions, we need robust humanitarian and 
development responses, particularly in refugee-hosting 
countries that are currently buckling under the strain.
    Second, the current attacks on the refugee protection 
system, fueled in part by an unjustified link between refugees 
and terrorists, often fail to recognize that refugees are the 
victims and not the perpetrators of violence and extremism. 
National security goals are in no way at odds with refugee 
protection, and UNHCR stands ready to help governments develop 
protection-sensitive border management policies.
    And, finally, U.S. leadership. It's critical to maintaining 
global refugees protection. Americans care deeply about 
refugees, and the U.S. Government translates this compassion 
into strong diplomatic, moral, and financial engagement that 
enables the humanitarian community to care for millions of 
uprooted people in need.
    Mr. Chairman and members of the subcommittee, I will end 
with a thought from one of the many passionate UNHCR team 
members working on the front lines of the humanitarian response 
on the islands of Greece. She was commenting on a refugee who 
perished fleeing to Europe, and her sentiments reinforced the 
need for action. She said she escaped bombs, she carried 
mountains, and yet she died at Europe's feet. Let us carry her 
along the way.
    Thank you for holding this hearing and for your ongoing 
interest in tackling these fundamental issues. And we stand 
ready to assist in any way possible.
    Thank you.
    [The statement follows:]
                Prepared Statement of Kelly T. Clements
                              introduction
    Mr. Chairman, ranking member, and members of the subcommittee, on 
behalf of the Office of the United Nations High Commissioner for 
Refugees (UNHCR), I am pleased to have the opportunity to appear before 
you today to speak about the global forced displacement crisis facing 
the international community, and the work of my agency--the U.N. 
Refugee Agency--in response. After serving 25 years in the U.S. 
Government, I took up the functions of Deputy High Commissioner at 
UNHCR in July of last year. My move to the agency coincided with the 
largest number of forcibly displaced in the world since World War II--
over 60 million--and ongoing crises in Syria, Iraq, Afghanistan, and 
parts of Africa leading to record numbers of refugees landing on the 
shores of Europe.
    UNHCR sincerely thanks the United States of America for tremendous 
support and leadership in global humanitarian aid and protection. 
Americans care deeply about refugees, and the United States Government 
translates this compassion into strong diplomatic, moral, and financial 
engagement that enables our community of committed humanitarian aid 
workers to care for millions of uprooted people in need. Today's 
hearing is a unique opportunity to bring attention to the displacement 
challenge and to explore the solutions necessary for global stability 
and the security of the United States of America.
    My comprehensive written testimony addresses a range of issues 
related to forced displacement of millions of men, women, and children 
and key operations that concern us. I hope to leave you with three main 
messages:

    1.  Forced displacement is at an all-time high and will remain a 
challenge for all of us. The traditional responses--including 
humanitarian aid and refugee resettlement--need to be reinforced and 
complimented with vigorous and creative alternatives that can be 
pursued now. While aid is no substitute for concerted political 
leadership to resolve conflicts, in the absence of political solutions 
we need robust humanitarian and development responses, particularly in 
refugee-hosting countries that are currently buckling under the strain.
    2.  Current attacks on the refugee protection system, fueled in 
part by an unjustified link between refugees and terrorists, fail to 
recognize that refugees are the victims and not the perpetrators of 
violence and extremism. They share our values of freedom and tolerance 
and are persecuted for it. National security goals are in no way at 
odds with refugee protection, and UNHCR stands ready to help 
governments in developing protection-sensitive border management 
policies.
    3.  U.S. leadership is critical to maintaining global refugee 
protection and ultimately to resolving the crises that drive people 
from their homes.
                    the state of global displacement
    World attention to refugees and other people on the move has 
perhaps never been greater, due in large part to the situation in 
Europe. Yet, forced displacement is nothing new and has been steadily 
growing in recent years. Today, more than 65 million people are 
forcibly displaced around the world. Of these individual men, women, 
and children--all of whom have a story of loss and upheaval--some 21 
million have crossed an international border and are therefore 
refugees, while the remaining 40 million are primarily those who are 
displaced within their own countries and internally displaced persons 
(IDPs).
    If the uprooted formed a single country, it would be the world's 
24th largest. Last year, more than 42,000 people fled their homes every 
single day. At the same time, the number of refugees who were able to 
return home was at its lowest level in three decades.
    How did we get to this place in history, where one in every 122 
humans is uprooted? In one respect, the answer is simple: new conflicts 
emerge and the existing ones continue. In the last 5 years, at least 15 
conflicts have erupted or reignited, covering virtually every region on 
the globe. Old conflicts drag on with no solutions in sight, while the 
media and public attention turn away. There is no doubt that the human 
and financial resources of UNHCR and our partners are stretched like 
never before in order to respond to the new crises while continuing to 
attend adequately to those in protracted displacement.
    Over half of all refugees come from just three countries: Syria, 
Afghanistan, and Somalia. On the one hand, this gives us some hope, 
because resolving these crises would drastically reduce the number of 
the uprooted. Yet, these very countries demonstrate just how long 
people are forced from their home. In some parts of the world, 
individuals and families have spent more than two decades as refugees. 
In Kenya's sprawling settlement known as Dadaab refugee camps, a third 
generation of Somali refugee children has now been born.
    The Syria conflict--now in its sixth year--clearly leads the 
current displacement crisis. With 5 million Syrian refugees and 8.7 
million internally displaced Syrians, we're at a point where one in 
five of the 65 million uprooted people is Syrian. Half of Syria's pre-
war population is forcibly displaced. Turkey now hosts more refugees 
than any country in the world--with 2.7 million Syrians as well as 
Afghans and others. Lebanon is the largest per-capita refugee hosting 
country; one in four people in Lebanon is now a Syrian refugee.
    Afghans remain the second largest refugee population, while 
Colombians comprise the second biggest population of IDPs. Other major 
uprooted populations are from Iraq, the Democratic Republic of the 
Congo, Sudan, South Sudan, Somalia, the Central African Republic, 
Yemen, Burundi, Mali, Myanmar, and the list goes on.
    Globally, women and children continue to comprise 80 percent of the 
uprooted, with more than half being children.
    It's also important to note--and in fact to clarify--that while 
refugee camps still exist and are a favored visual image for the media, 
most refugees are not in camps. Rather, an estimated 63 percent of 
refugees globally, and 90 percent of Syrians, do not live in camps. 
Most refugees live in urban or semi-urban areas, in apartments or other 
accommodations. While this is positive in the sense that non-camp 
settings can often provide a more dignified and normal existence, the 
trend does generate specific protection challenges. Refugees living 
outside of camps are often at greater risk of discrimination, 
harassment, arrest, and even forced return to their home countries. 
Yet, UNHCR and our partners welcome the opportunity to increase our 
urban and other non-camp programming, while at the same time providing 
aid and protection to those who remain in camps.
                           meeting the needs
    The international community has struggled to respond to the sharp 
growth in forced displacement and the resulting humanitarian needs. 
Never before has UNHCR had to manage its operations with such a gap 
between needs and funding available to address them. The humanitarian 
system is faced with a dilemma: while the numbers of people forcibly 
displaced across the world continue to rise, the funds available for 
humanitarian aid are not keeping up with the rapidly expanding needs. 
By the third quarter of 2015, some 33 U.N. appeals were only 42 percent 
funded. UNHCR's voluntary contributions stood at just 50 percent of its 
budget for 2015. By undertaking significant cost cutting measures--both 
early on and throughout the year--UNHCR was forced to make very 
difficult choices some a matter of life and death.
    Our programs in Africa are at a breaking point with roughly 35 
percent of the needs being met. The Mali Emergency Situation was funded 
at 16 percent (with a US$ 93.3 million funding gap), the CAR Situation 
at 24 percent (with a US$ 182.4 million gap), and the South Sudan 
Situation at 30 percent (with a funding gap of US$ 544.1 million). 
Funding for programs in the Americas was at 25 percent (and a gap of 
US$ 84 million), in Asia and the Pacific at 35 percent (a gap of US$ 
389 million), in Europe at 40 percent (a gap of US$ 357 million), and 
in MENA at 58 percent (a gap of US$ 907 million).
    The financial strain is felt not only by UNHCR but also by our 930 
international and national partners, including many U.S.-based non-
governmental organizations (NGOs).
                          the link to security
    Today's conflicts are increasingly complex, involving many actors. 
Many of these actors have no respect for humanitarian principles; the 
work of the humanitarian community has therefore become increasingly 
dangerous and difficult. In 2015, we had 196 security incidents. Staff 
and partners are highly exposed and, in order to mitigate these risks 
to the extent possible, we must carefully balance the number of staff 
at risk with the capacity needed to stay and deliver aid to people in 
need. We see this in our operations in Syria, Somalia, and Afghanistan, 
among others. In locations where the humanitarian needs are often the 
most dire, armed actors use civilian populations not only as targets 
but as weapons of war. Today's conflicts may include national and 
foreign armies, ethnic or religious based militias, insurgent groups, 
and other non-state armed actors. These groups can cross international 
borders and affect the stability and security of neighboring countries 
or even entire regions.
    We also see a multitude of mega-trends, which include climate 
change, natural disasters, extreme poverty, poor governance, food 
shortages, and energy crises--all converging. Two-thirds of the world's 
refugees are located in what my agency has referred to as an ``arc of 
crisis'' that stretches from southwest Asia through the Middle East to 
the Horn of Africa and the Lake Chad Basin. This is also an area in 
which populations are growing and heading to cities and where the 
impact of climate change is predicted to be severe. In addition, we're 
seeing violence in other parts of the world, such as the Northern 
Triangle of Central America, where multiple state and non-state armed 
criminal groups create complex humanitarian crises. Later in this 
testimony, I provide more detail on some of the crises that are spiking 
global displacement numbers and to which my agency and our partners are 
responding.
                     maintaining global protection
    In this increasingly complex landscape, we are witnessing an 
unprecedented attack on the ability of uprooted individuals and 
families to find protection from harm. In some cases, particularly in 
industrialized countries, this attack takes the form of policies that 
prevent or discourage asylum seekers from accessing full and fair 
determination of their refugee claims. In other cases, we see the 
complete or partial closure of borders, making it nearly impossible for 
persons fleeing persecution and violence to find safety in neighboring 
countries. Inside the conflict zones themselves, the targeting of 
civilians and humanitarian workers by many state and non-state actors 
means that IDP protection is increasingly difficult.
    A particularly troubling challenge to the institution of asylum 
arises from polarized political climates and the ensuing public 
debates. Not since the period preceding the Second World War have we 
witnessed such popular rejection of the notion of protecting refugees, 
as evidenced by hate crimes, hate speech, and xenophobia, often in the 
guise of what would otherwise be legitimate concerns over security. We 
would like to believe this involves only a vocal minority who are 
spreading hate. Within this climate, however, it is all the more 
essential to ensure non-discriminatory access to quality asylum and 
protection. While providing for their own security, countries should 
not slam shut their borders to those who are themselves the victims of 
violence, persecution, and often terrorism, and who have no other means 
of finding safety.
    In December 2015, UNHCR issued its updated note on Addressing 
Security Concerns without Undermining Refugee Protection, which I will 
provide for the record. This document recommends ways that governments 
can uphold both their security obligations and their commitments to 
persons fleeing persecution.
    UNHCR shares the international community's concern that violent 
extremism can be conducive to terrorism and conflict. We also share the 
understanding of many governments and their people that refugees are 
those who have rejected this ideology, who are targeted because of this 
rejection, and who share the values of democracy, freedom, and 
tolerance.
    Under international refugee law, individuals who have committed war 
crimes, crimes against humanity, or serious non-political crimes--
including terrorist offenses--are excluded from refugee status. Persons 
who may pose a security threat, such as combatants, are not entitled to 
refugee protection. Therefore, by definition, refugees are not 
terrorists. Yet in the public discourse and narrative in many parts of 
the world, legitimate security fears often end up directed at the very 
people who share that fear and who have run from the common enemy, 
seeking protection.
    On every continent, we are witnessing challenges to protection, 
often driven by security concerns, real or perceived, as well as 
domestic political agendas that are often unrelated to the presence of 
refugees. We call on the United States to uphold its longstanding 
leadership role in international refugee protection-- consistent with 
the ideals on which the country was founded--by continuing to set an 
example of welcome to those who are among the most persecuted and most 
vulnerable in the world today.
    An effective response to security threats will not come from 
measures to restrict the movement of refugees and further limit their 
access to protection. As recent events have shown, such efforts can 
have the unintended consequence of supporting the business of smugglers 
and human traffickers. In contrast, efforts to identify quickly those 
who are in need of protection, and to address their needs, are in line 
not only with international law--and the domestic laws of many 
countries including the United States--but also with the finest of 
humanitarian traditions. A component of such protection-sensitive 
border management is also the identification of those who are not in 
need of international protection and who may therefore be returned to 
their home countries.
    This approach, marrying security and protection, recognizes that 
effective counter-terrorism measures and the protection of human rights 
are complementary and mutually reinforcing goals. It is an approach 
adopted in a number of global initiatives, such as 2006 U.N. Global 
Counter-Terrorism Strategy and Plan of Action, and the 2016 U.N. 
Secretary-General's Plan of Action to Prevent Violent Extremism.
         maintaining the civilian nature of humanitarian action
    It is clear that our work with host countries and partners to 
assist refugees and other forcibly displaced persons is critical. Such 
assistance includes the provision of resources, services, and realistic 
prospects for the enjoyment of rights, such as education, healthcare, 
vocational training, and work opportunities. Such assistance anchors 
refugees within their larger communities and enables them to live with 
some modicum of stability, sense of purpose, and a belief in their 
futures.
    Education is a key component of our support to refugees. The 
displacement of refugee youth disrupts their personal networks and 
education, and limits later employment opportunities. It places them at 
heightened risk of violence and exploitation. UNHCR works with 
government and NGO partners to address these issues. Most young 
refugees want the opportunity to contribute to their societies. UNHCR 
provides formal and non-formal education and vocational training, and 
strengthens livelihood opportunities for young people and their 
parents, so that families have the means to support themselves. This in 
turn reduces the incidents of child labor, early marriage, sexual 
violence, and recruitment by armed actors. When programs are provided 
to youth from both refugee and host societies, these youth are better 
connected and integrated into their communities. They are also 
empowered through programs aimed at team-building and leadership, 
positive communication skills, peaceful resolution of disputes, and 
tolerance.
    To mitigate the risks of child recruitment, UNHCR also provides 
counseling to adolescent refugees and their families on the risks of 
such recruitment; works with border authorities to prevent the return 
of unaccompanied children; and conducts awareness-raising campaigns. 
UNHCR supports the creation of positive social media networks that 
provide an alternative to those tempted to participate in radicalized 
or extremist networks.
                 new approaches to forced displacement
    The number of humanitarian crises, the levels of forced 
displacement, and the protracted nature of many of these situations has 
prompted deep reflection on the adequacy of the current humanitarian 
response and the prospects for peace, security, and sustainable 
development. We are witnessing unprecedented political attention to 
these issues and the opportunity for a sea change in how we address 
forced displacement. Grounded in last year's adoption of the 
sustainable development goals which challenge us to ``leave no one 
behind,'' political leaders will find ways this year to better share 
international responsibility toward refugees, and in particular to 
mitigate the impact of sustained, large-scale movements of people on 
low and middle-income host countries. Governments are pledging concrete 
support to build the resilience of refugees and host communities 
alike--for example through their inclusion in development plans--and 
stronger linkages between humanitarian and development finance, 
planning, and programming. We strongly welcome these efforts in 
response to current global challenges.
    High Commissioner Filippo Grandi and I are both in Washington this 
week to support efforts by the World Bank and other multilateral 
partners to increase development resources for key countries 
confronting forced displacement, a topic I know is of great concern to 
this subcommittee and subject of your personal leadership, Senators. 
These include countries that are both hosting large numbers of refugees 
and are geographically on the front lines of our collective security. 
Last week, several host countries, bilateral donors, U.N. agencies, 
international financial institutions, and NGOs committed to developing 
innovative financing instruments that better respond to forced 
displacement, including concessional financing and leveraging private 
sector resources through the Wilton Park principles. These partners 
agreed to establish a set of concrete proposals by the time of the 
World Humanitarian Summit to be held in Istanbul, Turkey next month.
    Another effort is that of the U.N. High-Level Panel on Humanitarian 
Financing, working with donor governments, U.N. agencies, NGOs, and 
others, to agree upon implementable actions as part of a ``Grand 
Bargain'' to improve the way that humanitarian aid is mobilized and 
delivered. UNHCR is intensively engaged in this effort, which aims for 
greater flexibility by donors, greater transparency by agencies, and 
greater efficiency and effectiveness in outcomes. Agreements in this 
process are also potential areas for commitment at the World 
Humanitarian Summit.
    Further to the ministerial meeting UNHCR hosted with the Secretary 
General in March of this year. We are also working with governments and 
other partners to find new and creative avenues for refugees to find 
temporary and permanent legal protection. UNHCR is calling on 
governments to explore various ways for refugees to move legally and to 
access employment, without turning to smugglers and putting their lives 
at risk. These include not only greater use of resettlement, which is a 
critical, but option limited to the most vulnerable of refugees, but 
also family reunification, humanitarian admission, private sponsorship, 
and education and labor market access.
    Countries pledged to increase resettlement and humanitarian 
admissions for Syrian refugees--bringing the total to date to more than 
185,000--in addition to other commitments to reform admission and 
provide financial support. UNHCR estimates that at least 10 percent of 
the 4.8 million Syrian refugees in neighboring countries will need 
resettlement or other legal ways to move elsewhere before the end of 
2018. Globally, UNHCR sought resettlement for refugees from more than 
60 countries of origin in 2015; the highest numbers were from Syria, 
the Democratic Republic of the Congo, Iraq, Somalia, and Myanmar. We 
applaud the United States' significant contributions towards 
resettlement both in the form of its own refugee admissions and 
encouraging other countries to increase their commitments. More than 30 
additional countries currently offer resettlement or humanitarian 
admission.
    These efforts will culminate in two major events this fall: a 
Global Compact on Responsibility Sharing for Refugees and Migrants on 
the margins of the U.N. General Assembly in September, and a Leaders 
Summit on Refugees to be hosted by the United States. The latter will 
seek firm and explicit commitments from governments to increase funding 
for U.N. humanitarian appeals, additional resettlement opportunities 
for refugees in need of this form of international protection, and 
concrete policy changes to increase the number of children in school 
and the number of legal employment opportunities for refugees in 
countries of asylum.
              unhcr's response to humanitarian emergencies
    As I mentioned previously, conflicts are becoming increasingly 
inter--connected even if they may play out in different regions of the 
world. Most of the Afghans, Iraqis, and Syrians who are arriving in 
Europe are coming from or through Turkey, the Middle East at large, or 
South West Asia. Africans arriving in Europe are originating from or 
transiting through West Africa and the Horn of Africa. These 
situations, and the flow towards the United States of asylum seekers 
and others from the Northern Triangle of Central America, demonstrate 
that is not possible to simply ``turn off the tap'' of forced migration 
by adopting one policy or closing borders. Resolving conflicts quickly 
and peacefully is the only real solution that will stop desperate 
families from fleeing and allow them to return to their homes.
    The enormous and unprecedented influx to Europe has commanded our 
collective attention. However, I hope to underscore the plight of the 
displaced globally and remind you of other crises, such as the Nigeria 
situation, which only 12 months ago we were highlighting as the most 
compelling unfolding displacement emergency at that time. Other crises 
that have erupted ore reignited since then--including Burundi, Yemen, 
South Sudan, Eritrea, and elsewhere--all require fundamental life-
saving assistance and core protection interventions. These responses 
are often carried out under difficult and dangerous conditions, where 
the safety of our staff is routinely threatened and lives are sometimes 
lost.
                         extremism and conflict
    I will now briefly highlight the humanitarian needs and challenges 
in a number of situations where extremism is among the causes of 
conflict, and where international aid saves lives and brings long-
lasting stability to regions in crisis.
                     syria and its historic impact
    As mentioned previously, the conflict in Syria has forced half of 
its people from their homes. More than 4.8 million Syrians have fled to 
neighboring countries, and estimates in 2015 reflected that nearly 13.5 
million people within Syria were in need of humanitarian aid--nearly 
half of them internally displaced persons. These statistics do not do 
justice to the mind-numbing scale of the destruction in Syria and the 
countless lives affected permanently by the war and violence.
    High Commissioner Grandi recently said ``Syria is the biggest 
humanitarian and refugee crisis of our time, a continuing cause of 
suffering for millions which should be garnering a groundswell of 
support around the world.''
    Syrian refugees fleeing the conflict face greater hurdles every 
day, and their ability to find safety is increasingly limited. 
International solidarity with the Syrian people is failing to match and 
reflect the scale and seriousness of the humanitarian tragedy. Syria's 
neighbors are carrying an enormous burden, hosting millions of 
refugees, and are increasingly managing their international borders. 
These restrictions are leaving thousands of vulnerable people stranded 
inside Syria, unable to leave the country.
    European states, which once welcomed Syrians, are now bringing down 
the shutters in the wake of more refugees seeking safety there. 
Meanwhile, refugees in countries neighboring Syria are more vulnerable 
than ever given reduced humanitarian aid and limited support to 
national and local systems. As a result, Syrians are taking to the sea 
to survive--embarking on dangerous journeys to Europe or resorting to 
dangerous options such as child labor, early marriage, or sexual 
exploitation.
    In February, donors gathered in London and pledged over $11 billion 
for the Syria response--$5.8 billion for 2016 and an additional $5.4 
billion for needs to be met through 2020. At this point, with the 
exception of the United States and a small handful of other countries, 
pledges have not been followed by disbursement. We are increasingly 
concerned that humanitarian aid will again fall short of the needs 
faced by the refugees, internally displaced, and host countries--
resulting in even greater displacement and desperation.
    The Syrian emergency has strained UNHCR to unprecedented levels. 
Despite the generosity of the host countries and donors, Syrian 
refugees are facing increasingly difficult living conditions, after 
more than 5 years in exile. Meanwhile, the host governments continue to 
face enormous political, economic and security pressure as a result of 
the conflict. In Jordan and Lebanon, 90 percent of the refugees live 
below the poverty line. UNHCR has continued to work closely with 
partners to address their protection and assistance needs, as well as 
those of the most vulnerable members of the host communities. In the 
neighboring countries, approximately 200 partners are working hand in 
hand in innovative ways to implement the 2016 $4.5 billion Regional 
Refugee and Resilience Plan. The plan's key objectives are to provide 
protection and improve access to education, health, nutrition, shelter, 
sanitation, jobs, legal assistance, and other critical services. 
Currently, the plan is only 7 percent funded and we are already in 
April. International solidarity is clearly needed to ensure that these 
host countries can continue to welcome refugees while at the same time 
meeting the needs of their own populations.
    Inside Syria, the humanitarian situation and level of human 
suffering endured by the Syrian people dramatically worsened in 2015. 
Safe, unimpeded and sustained humanitarian access in the country 
remains a significant challenge. As mentioned previously, in 2015 a 
total of 13.5 million people were estimated to be in need of 
humanitarian assistance, including 4.5 million in hard-to-reach 
locations. UNHCR continued to use all possible means to reach the 
internally displaced and others in need, working across conflict lines 
and borders, as authorized under United Nations Security Council 
Resolutions. Some 3.2 million people were provided with core relief 
items, including nearly 430,000 persons in more than 30 hard-to-reach 
locations and 469,000 through cross-border operations. In 2016, UNHCR 
will continue to take the lead in the protection, shelter, non-food 
items, and camp coordination and camp management sectors. Since the 
beginning of this year, inter-agency convoys reached nearly 500,000 
people in besieged, hard-to-reach and priority cross-line areas in 
Syria (i.e., 210,000 in besieged locations, 236,925 in hard-to-reach 
locations and 50,000 in priority cross-line areas).
    Based on approvals received to date, the U.N. and partners are 
currently working to deliver assistance before the end of April to 
811,000 people (cumulative) in 31 hard-to-reach, besieged and other 
priority locations across conflict lines with acute needs. On 27 March, 
UNHCR delivered core relief items to 13,000 individuals/2,600 families 
in the hard-to-reach Suqaylabiyah in Hama Governorate.
                                  iraq
    While Iraq continues to host nearly a quarter of a million Syrian 
refugees--most of them in the Kurdish areas of northern Iraq--the 
humanitarian situation in Iraq itself continues to deteriorate. As a 
result, Iraqis are fleeing horrendous violence. The escalation of armed 
conflict across the central governorates of Iraq and the constantly 
changing security situation has resulted in 10 million people needing 
humanitarian assistance. The total figure of internally displaced 
Iraqis now stands at nearly 4 million, of whom over 3 million have been 
displaced since January 2014. Newly displaced Iraqis continue to arrive 
in overcrowded camps and temporary settlements. The displaced also face 
exposure to violence, restrictions on freedom of movement, forced 
encampment, and constrained access to basic services. UNHCR's ability 
to access those in need of assistance remains limited by the volatile 
security situation.
    Along with the internally displaced, more than 230,000 Iraqis are 
registered as refugees throughout the region. Of the top 10 
nationalities arriving in Europe as of January 2016, some 14 percent 
were Iraqi.
                                 yemen
    The humanitarian situation in Yemen is dramatic and increasingly 
constrained by the prolonged lack of access, made worse by continued 
airstrikes, ground fighting across the country, and a lack of basic 
goods. The humanitarian community has launched the Yemen Humanitarian 
Response Plan to provide critical and lifesaving assistance to 13.6 
million people across the country.
    An estimated 82 percent of the population of Yemen requires some 
level of humanitarian assistance. Due to the escalated conflict, some 
176,000 persons have fled to Oman, Saudi Arabia, Djibouti, Somalia, 
Ethiopia, and Sudan (as of 4 April). Of those, 48 percent are Third 
Country Nationals and national returnees, 35 percent are Yemenis and 17 
percent are Somalis who had been recognized as refugees on a prima 
facie basis in Yemen. Among the Somalis who had returned to Somalia, 
some moved to other countries in the region, notably Djibouti and 
Ethiopia, where they are hosted as refugees, or have returned to Yemen.
    UNHCR and the International Organization for Migration have jointly 
developed a Yemen Situation Regional Refugee and Migrant Response Plan 
for 2016, which covers the requirements for providing protection and 
assistance to persons fleeing Yemen into the Horn of Africa.
    Yemenis often arrive in other countries after many hours or days on 
the move. They are exhausted after the sea journey and are in urgent 
need of food, water, shelter, and emergency healthcare. UNHCR and 
partners provide basic assistance and support a coordinated approach in 
the region to identify persons in need of protection.
                                somalia
    Terrorist attacks by Al-Shabaab continue in Somalia, and 
confrontations between Al-Shabaab and the African Union Peacekeeping 
Force (AMISOM) continue to generate internal displacement. Humanitarian 
access is still limited due to the volatile security situation.
    Despite the renewed efforts by humanitarian and development actors, 
reintegration in southern Somalia is challenging. UNHCR and partners 
are working with the international community and Somali authorities to 
improve socio-economic conditions inside the country, as well as 
actively pursuing durable solutions for refugees, returnees, and IDPs. 
While 1.1 million people are displaced within Somalia, nearly a million 
registered Somali refugees are in Kenya, Yemen, Ethiopia, Uganda, 
Djibouti, Egypt, Eritrea, and Tanzania. Vulnerable Somalis fleeing 
violence and terror set out on the treacherous and dangerous journey 
for safety and protection--in many cases arriving in countries that are 
experiencing conflicts of their own.
    In October 2015, UNHCR and the European Union launched an 
integrated action plan for sustainable return and reintegration of 
Somali refugees from Kenya. Representatives from more than 40 countries 
and organizations pledged $105 million to support Somali refugees and 
help them to voluntarily return in safety and dignity. Over 12,000 
Somalis have returned home since late 2014, with more than 6,000 so far 
in 2016 alone. Insecurity and lack of services in the areas of origin 
of refugees continue to be the key obstacles to large-scale returns.
                                nigeria
    Violence in northern Nigeria and across the Lake Chad Basin has 
intensified since 2015. Currently, more than 2.2 million Nigerians are 
internally displaced and over 210,000 Nigerians are refugees in the 
neighboring countries of Cameroon, Chad, and Niger. The conflict also 
triggered internal displacement in border areas of neighboring 
countries. Many have fled widespread and indiscriminate attacks on 
civilians, and the spillover of terror and economic instability is 
magnifying the refugee crisis.
    UNHCR's 2015 operations for Nigeria strived to provide protection, 
maintain humanitarian assistance, improve access to basic services, 
support self-reliance, and promote peaceful coexistence and 
environmental protection. The 2016 Nigeria response plan aims to 
provide protection and assistance to Nigerian IDPs, refugees, and 
members of impacted host communities. Among other goals, we seek to 
further the protection of particularly vulnerable populations and to 
strengthen the prevention of and response to sexual and gender-based 
violence. UNHCR continues to battle key challenges to our Nigeria 
operation and is working diligently to maneuver issues with logistical 
constraints, insecurity, restricted movement, and a lack of public 
services and infrastructure.
                              afghanistan
    With 31 out of the 34 provinces inside Afghanistan affected by 
conflict today, the level of new displacement is the highest it has 
been in recent years. The number of those internally displaced 
increased from roughly 800,000 in 2014 to nearly 1.2 million in 2015. 
In addition, it is expected that in 2016, due to the ongoing conflict 
and worsening insecurity, an estimated 500,000 people could be 
displaced.
    The situation in Afghanistan remains highly complex: the continued 
deterioration of security has led to sharp increases in displacement 
and high levels of humanitarian needs. Many refugees who voluntarily 
returned to Afghanistan from Pakistan claimed to have returned largely 
because of the situation in Pakistan, which has seen an increase in 
displacement within its own population. Afghanistan continues to host 
some 200,000 refugees from Pakistan's North Waziristan, many of whom 
have fled insurgency groups or counter insurgency efforts.
    The Afghan Government has made a strong commitment to support the 
return and reintegration of refugees from Pakistan and Iran. UNHCR 
seeks to facilitate voluntary repatriation and reintegration into 
Afghanistan, as well as to pursue community-based, solutions-oriented 
interventions for the most vulnerable refugees. Between January and 
August 2015, more than 50,000 refugees repatriated to Afghanistan 
(although harsh winter weather limited returns for the remainder of the 
year). However, the protracted conflict will continue to increase the 
number of internally displaced individuals throughout the country. In 
2016, UNHCR is working with the Afghan Government to implement the 
national IDP policy and to lead the inter-agency protection and shelter 
response efforts, with an aim to find lasting solutions for these 
populations. Critical funding gaps are likely to remain a challenge, 
jeopardizing sustainable returns and ongoing protection.
    Providing assistance to areas experiencing violence is key to 
maintaining and enhancing stability, which will allow families to 
access safe shelter, food, and healthcare; this in turn will create the 
opportunity for children to attend school and create a better future 
for themselves.
                               conclusion
    The challenges facing the world today, resulting in a historic 
number of people on the move, underscore the importance of the 
principles of international refugee protection and international human 
rights and humanitarian law to keep people safe.
    At a time when many countries are implementing restrictive measures 
designed to make refugees seek safety elsewhere, and when intolerance, 
discrimination, and xenophobia are on the rise in much of the developed 
world, we are reminded of the central importance of fundamental human 
values in our work and our advocacy. The main principles of refugee 
protection, of compassion for the persecuted stranger, are deeply 
anchored in all of the world's major religions and cultures. This is a 
rich source of common understanding that we must draw on, expand, and 
promote through everything we do.
    In our efforts to protect the people for whom we care, strength 
lies in these common human values--tolerance, compassion, humanity, and 
respect for human rights. We must avoid language that equates the 
international obligation to protect refugees with creating safe haven 
for terrorists. UNHCR and the international community remain dedicated 
to ensuring that refugee protection law and practice benefit the 
victims of persecution, and not those who would do us, or refugees, 
harm. Failure to distinguish in our words between refugees and 
terrorists can foster fear, hatred, and discrimination against all 
members of a particular race, nationality, or religion.
    Consistent with its founding, its history, and its status as a 
global leader, the United States can continue to serve as an example in 
reversing this trend.
    Again, UNHCR thanks this subcommittee and applauds the leadership 
of the Senators who comprise it for your interest in tackling these 
fundamental issues. We stand ready to assist in any way possible.
    Thank you.

                            SYRIAN REFUGEES

    Senator Graham. Thank you all very, very much.
    General Jones, I just returned from Turkey. Turkey is no 
longer taking refugees from Syria. Are you aware of that?
    General Jones. Yes, sir, I am.
    Senator Graham. Mr. Blinken, is Jordan taking refugees from 
Syria?
    Mr. Blinken. As a practical matter, very, very few.
    Senator Graham. What about Lebanon?
    Mr. Blinken. Also, it's slowed down. They put requirements 
on admissions that, as a practical matter, make it very 
difficult for people to get in.
    Senator Graham. So I want the committee to know that people 
in Syria are trapped. There is no place to go.
    General Jones, what's going to happen inside of Syria with 
this dynamic militarily, people trapped with no place to go?
    General Jones. I don't have the crystal ball on that, but I 
would say that nothing good is going to happen. I think a 
solution to the humanitarian catastrophe created by the Syrian 
situation is one of the great unanswered questions of our time. 
We, collectively, with the United States providing the 
leadership, I believe, have to do much more to solve this 
problem.
    Senator Graham. Is it fair to say, Mr. Blinken, that Jordan 
really can't take any more refugees and survive?
    Mr. Blinken. The burden on Jordan, the burden on Lebanon, 
the burden on Turkey, as you saw firsthand, Mr. Chairman, is 
extraordinary. And if you equate it, for example, to the United 
States, if you look at Lebanon, somewhere between a quarter and 
a third of the population is now a Syrian refugee. That's as if 
we had taken 50 or 60 million people in the space of just a few 
short years. And the burden on their systems, on their 
infrastructure, on their economies, is, as you've seen, 
dramatic. So the challenge, I think, for us is to devise ways 
to help them, in effect, help refugees.
    Because the two problems that we have are that we are in 
effect pursuing humanitarian emergency solutions to the refugee 
crisis on the one hand, and development on the other. These two 
things need to come together because, as you said, and as 
others have said, these countries are going to be facing these 
challenges for a long time. We have to find ways to create what 
amounts to a win-win solution, that is, the host communities 
have to benefit along with the refugees. That's where we need 
to put our focus.

                                 EGYPT

    Senator Graham. Bono, from your point of view, the whole 
Marshall concept is to deal with that reality. People are in 
Jordan, they're in Lebanon, they're in Turkey, many of them are 
going to be there for a long time. The whole approach is to 
leverage better outcomes and not just to help people with food, 
shelter, water, and clothing, but also deal with the reality 
that you want to make these human beings assets where possible. 
What did you learn on this trip? What was the takeaway for you?
    Bono. A singer should understand microphones. [Laughter.]
    I think the Egypt piece really disturbed me because I just 
saw the scale of this country, and it's fast, it's 
extraordinary, a very sophisticated country, and you could feel 
trouble brewing, and mechanisms that were put into place to 
clamp down on the Islamists and jihadis were now clamping down 
on just anyone who criticized human rights people, Christian 
NGOs, numbers of people disappearing going up, and you could 
see, it's almost a mechanism going on its own momentum, and 
that worried me. And it was just way above my pay grade to 
figure out how you would turn people back.
    But I noticed that President Sisi was very, very concerned 
about the economy, as he should be, because it's on the slide. 
And I thought, well, you know, is there a way that we can make, 
you know, trade agreements and things like that conditional on 
reform and human rights and things like that that would help 
him turn his country back from a precipice? which we need him 
to do. That was the most----
    Senator Graham. Excuse me. One thing we're not talking 
about is writing a check and walking away.
    Bono. No.
    Senator Graham. We're talking about if you do A, then you 
can get a better deal tradewise, and A has to be something that 
will counter extremism. If you do B, you can get loans at a 
lower rate. That's the whole concept. I want the panel to see 
if you agree with this, that we're not just throwing money at a 
problem, we're trying to get better outcomes using some 
resources. Is that the whole theory of the case here?
    Bono. Yes, I think it is. It's leverage, and I really 
think, you know, that you can't underestimate the trade piece, 
you can't underestimate the concessional loans piece, and the 
effect of tackling corruption, because as people have to reform 
to get those concessional loans, they will do the painful work 
of reforming. It's sort of the only stick and carrot we have.

                           REFUGEE ASSISTANCE

    Senator Graham. Ms. Clements, what percentage of refugee 
assistance comes from the American taxpayer in terms of 
worldwide assistance?
    Ms. Clements. About 35 percent of our budget was supported 
last year by the United States Government.
    Senator Graham. You're asking of us for more. Are you going 
to ask other people for more?
    Ms. Clements. We are absolutely doing that, and not only 
governments, and obviously there are a number of traditional 
donors that have been very generous, but also private sector. 
Unfortunately, thanks to the Europe crisis, I'm afraid we 
actually raised almost $300 million from private sector 
supporters, but, of course, that helps to fund critical, life-
saving protection and assistance requirements for our agency 
and the many partners that we support and saves a whole lot of 
lives in the process.
    Senator Graham. Well, for the committee's information, and 
I'm sure the members know this, that this year we're going to 
be 30 percent below the fiscal year 2016 number for 
international disaster assistance. We're cutting 9 percent 
below the fiscal year 2016 enacted levels for migration refugee 
assistance. We've got problems here at home, but these numbers 
are real. What would it mean to you if we enact these cuts?
    Ms. Clements. It would be quite nearly impossible for us to 
meet immediate needs. It's very difficult for us now. We were 
about half funded last year, 50 percent. The United States does 
a tremendous amount to support, $1.3 billion last year, but we 
need a lot more support because we've got about $7 billion in 
requirements in 2016 alone.
    Senator Graham. What if we restored the money with the 
condition that other people have to match what we do?
    Ms. Clements. It's hard to place conditions, Mr. Chairman, 
on support in saving lives, and so we would caution against 
conditions on humanitarian lifesaving assistance. Obviously, 
pushing governments and others to give more absolutely needs to 
be on the table.
    Senator Graham. Okay. Senator Leahy.

                          EUROPE AND REFUGEES

    Senator Leahy. Thank you. The Chairman and I referenced 
Bono earlier, your op-ed piece, and I've read it and reread it, 
and the needs, the emergency needs, of Syrian and other 
refugees in the Middle East and north Africa. I think of a 
country like Jordan, which is so heavily saturated with 
refugees, and you wonder what impact this has in the long-term 
on any country. There's no question we need money, but we can't 
even seem to pass emergency funding in this country to deal 
with the Zika virus, which is spreading to our own country, or 
do some of the things we need here. I say this not because I'm 
opposed to foreign aid. You know my record very well in that 
regard.
    The countries you've talked with in Europe, do they act as 
though they're willing to do more? I listened to what Ms. 
Clements said, and I know her efforts.
    Bono. In short, Senator, you're at present mobilized at the 
level it needs to, but I think that's about to change. I mean, 
what I was trying to do, and I don't know if I can do it just 
by reading, is to dramatize the situation. I'm talking about an 
existential threat to Europe the likes of which we haven't seen 
since the beginning of the 1940s, and really and truly we're 
seeing in Hungary and Poland a movement to the right, it's kind 
of hypernationalism, a sort of localization, hyperlocalization, 
in response to globalization, I guess. We're talking the U.K. 
is talking--is voting on leaving Europe. And this is 
unthinkable stuff. And you should be very nervous in America 
about this.
    And we see the leadership of Chancellor Merkel. I think 
she's an extraordinary leader on this crisis, but, you see, she 
faces criticism in her own party. The German people have shown 
the way here. Actually, they've become the very heart of 
Europe. That's brilliant. And I think she deserves a peace 
prize or something like that. She's done extraordinary things. 
She is the leader, but there is gathering momentum. I spoke 
with David Cameron about gathering around stopping the refugee 
crisis, as he's finding it very difficult politically to take 
in more refugees. I think that's a mistake for the U.K. I think 
all countries need to take in more refugees. My pink friends 
back here will back me up on that. Is that right? Are they 
still here? And----
    Senator Leahy. And I would hope there's a realization in 
those countries that millions of these refugees, no matter what 
happens, they're never going to go back home. We have to help 
these countries absorb the refugees that are there and make a 
life worth living. We can't have permanent refugee camps. 
They're going to be absorbed, so you have to invest in their 
economies, in their institutions, educational, medical, 
everything.
    Bono. But you don't want this to spread. That's really--
that's why I think we're all gathered here, is it's so complex 
to try and solve Syria's problems. The UNHCR know how to help 
with refugees, they just need to get them financed. But I'm 
asking this committee, what would we be asking you to finance 
if this spreads, if this chaos that's going along in the 
region?

                               THE SAHEL

    And, you know, particularly the Sahel, which I understand a 
bit about because I spend a lot of time in Africa. You see this 
phenomenon of three extremes: extreme ideology, extreme 
poverty, and extreme climate, I guess you'd call it. It's a 
parched earth. It's a geological phenomenon, the Sahel, if you 
look at long SAR. In fact, it goes all the way to Afghanistan, 
if you really want to look at it is a geological phenomenon. 
But those three extremes make one holy trinity of an enemy, and 
our foreign policy needs to face in that direction. I know John 
Kerry is, I know Secretary Kerry is, but it's even bigger than 
you think. So whilst we sit here and talk about, you know, 
getting cuts and where are we going to pay for it, and God 
knows I'm in awe of you lawmakers, I've worked with Dick 
Durbin, I've worked with so many of you on making the 
impossible possible, I don't know how you do it, but if you 
don't do it now, it's going to cost a lot more later, I do know 
that.

                                 EGYPT

    Senator Leahy. But you also have to deal with the people 
who are there. We have--you talked about Egypt.
    I would like to ask Secretary Blinken, do you think the 
leadership, President al-Sisi and the leadership, are going to 
allow dissent? Are they going to release political prisoners? I 
mean, some, nobody even knows where they are detained. Is that 
going to change?
    Mr. Blinken. It is a huge challenge, Mr. Ranking Member. 
First, Egypt faces, you know, acute security problems, real 
security problems, including in the Sinai, from terrorism, and 
they're real, and we need to be helping them.
    On the other hand, what we know very well is that in the 
absence of creating space in their society for people to 
express their views, to associate freely, and to come together, 
they are going to sow the seeds of long-term instability, and 
even if it works in the short run, it's not likely to work in 
the long run.
    So they have a profound self-interest in coming to the 
realization that creating space and opening up is actually the 
best path to dealing in a sustainable way with the challenges 
that they face. So we're working on that with them. We're 
deeply engaged in trying to move them in that direction, but I 
have to tell you, we're deeply concerned with the direction 
that we've seen Egypt take in closing down that space, putting 
people in jail for expressing their views, civil society being 
cracked down upon, including many of the partners that we have, 
in trying to implement some of the programs in Egypt.
    Senator Leahy. I agree with all you're saying, I'm just--I 
am worried how if you--so many times repression within a 
country has led to greater extremism, which creates even more 
problems.
    Thank you, Chairman. We'll work together on this.
    Senator Graham. Senator Mikulski. I heard you had to go, so 
we're going to----

                      NEEDS OF WOMEN AND CHILDREN

    Senator Mikulski. Is that okay?
    Thank you very much, Mr. Chairman. Yes, I'm going to an 
Intelligence Committee hearing exactly on violent extremism 
exactly in the region that we're talking about. I want to thank 
you for hosting or organizing this hearing to all the men and 
women at this table who have devoted their lives to making the 
world a better place.
    It's particularly important, Mr. Chairman, that you also 
held this in the month of April. It was in April 2014 that 200 
girls in Nigeria going to school were kidnapped by Boko Haram. 
Those girls have never been found. Many of them are probably 
dead, and some probably wish they were dead.
    And when I look at what we're talking about here, I am 
looking at the impact of really women and children, 
particularly children. According to you, Commissioner Clements, 
globally, women and children continue to comprise 80 percent of 
the uprooted, with more than half being children, uprooted. 
What an incredible, incredible world. And we see what's 
happening to children around the world, not only in the region 
being discussed today, but I believe children are on the move 
and they will constitute a tremendous threat in the future 
unless we show them humanity, compassion, and a way forward. 
Right now, a little girl was shot in her head, or a teenage 
girl, because she wanted to go to school and read. She's wins a 
Nobel Prize for it, but she continues to talk about one book, 
one teacher, one kid.
    Girls are being recruited in sexual slavery and the most 
despicable things. Boys are being recruited as child soldiers 
and into gangs. They're moving not only in Africa, but they're 
moving in Central America, the gangs, the murder rates, et 
cetera. So unless we focus on the children, I believe we are 
going to ride the wind in the future.
    You've said, Mr. Blinken, that the perception of 
discrimination will turn somebody against you. We all remember 
who helped us or who helped our mother and father. We also 
remember who didn't help us and didn't help our mother and 
father.
    So let me tell you where I'm getting, because it is Central 
America. And so how are we going to really focus on this? 
Because I would say right now the children of the world feel 
that they're hated, that they're rejected, that they're pushed 
aside. Their mother and father is either being deported or they 
see the agony of their father, who bribed his way to get to 
Europe, or the desperation of the mother trying to find bread 
for them. What are they going to think about? ``Oh, kumbaya? 
Isn't the West great? Don't we want to go for democratic 
principles and constitutional reform?'' We are sowing the seeds 
of hate and the seeds of desperation.
    So, Mr. Blinken, I'm saying to you, and then also to the 
High Commissioner, what can we do to help? My own NGOs in 
Baltimore, Catholic Relief, Lutheran World Vision, say, ``We 
have to advance the money before we get reimbursed.'' Money 
often goes to the UN. I love the UN, but it often is trickled 
down. So not only are we talking about new money here today, 
we're talking about money being used smartly.
    So, number one, are we really going to focus on the 
children? Number two, are we going to get money out to the 
NGOs, who are truly the ones there, or the money in donor 
countries where they are?
    Mr. Blinken. Thank you, Senator. And I very much share your 
concern. We are at risk of creating a lost generation of 
children, and we know what that means. First, it means, at the 
very least, they will not have the skills and knowledge they 
need to become productive members of society, even the society 
that they let refugees in, or if they're able to return home.
    Or, even worse--that's the best case scenario--even worse, 
we know that absent those skills, absent having an education, 
they are much likely to become prey to crime, to violence, to 
early marriage, to sexual exploitation, and, indeed, to 
extremism and terrorism.
    So what can we do about it? Just focusing on the Syria 
crisis, which is generating so much of the attention, although, 
as you rightly point out, this is a global crisis, and as Kelly 
pointed out, it is truly global in nature. But focusing on 
Syria, I would think of that in terms of concentric circles.
    First, what can we do inside of Syria itself to take away 
some of the drivers that are pushing people out? And, of 
course, the number one driver is violence, and there, of 
course, ending the civil war is job number one. Secretary Kerry 
is working on that 8 days a week. As we know, it is incredibly 
difficult. But even as we do that, working on the cessation of 
hostilities, sustaining that, working on getting more 
humanitarian assistance in, that takes away some of the 
drivers.
    But then once people get to Turkey, Lebanon, or Jordan----
    Senator Mikulski. Don't do that. I mean, I know all the 
concentric circles and so on, and that's my problem, we end up 
going around in circles. So that's the big picture. But right 
now, let's go to what I asked. Right now there are these 
children either trying to get across water with little--maybe a 
life vest on, they're in a raft. Do they have a lifeline? And 
then what are you focusing to get the aid out while we're 
working on these big picture solutions?
    Mr. Blinken. I would say very specifically, Senator, the 
reason I mentioned circles is when you get to the countries of 
first asylum, Turkey, Lebanon, Jordan, we know what is pushing 
people to take that risky journey, to put themselves in the 
hands of smugglers, to put themselves on the high seas, 
jeopardize their lives. It is not the violence, because that's 
gone. It's two things: it's an absence of access to school and 
education for the kids, and it's a lack of access to 
employment, to jobs, for the parents.
    So a big focus of our effort is working with those three 
countries in particular to try and open up both access to 
schools and access to jobs. We're working very closely with the 
United Nations High Commissioner for Refugees, with the United 
Nations Children's Fund (UNICEF), on that. Partly it's a 
question of resources, partly it's a question of these compacts 
that we're talking about. So, for example, on the jobs front, 
it's awful hard if you're a politician in one of these 
countries to say, ``You know what? I'm going to give a job to a 
Syrian refugee even though you, my fellow citizen, don't have 
one.'' So we're looking at innovative solutions to do that.
    The Europeans are looking at creating greater access to 
their markets for products that are produced in special 
enterprise zones where refugees are employed. We're pushing 
these countries to give jobs to people in specific sectors 
where they're not competing with the local citizens.
    On the education front, we've been doubling and tripling 
our efforts in a number of ways. One, we've been building 
schools, we've been building classrooms, so that there is 
capacity to actually educate these kids alongside the locals.
    We've been working to support double and triple shifts for 
teachers so that they can educate Syrian refugee kids in the 
evening even as they educate local children during the day. And 
we're working on things in the informal education sphere so 
that while people are not yet in a formal program, they can 
still be learning and still get a credit. Our Government is 
working with all of those governments to get accreditation for 
informal learning. And all of this we're doing in partnership 
with UNHCR, with UNICEF, and with other organizations.
    Senator Mikulski. My time is up, but----
    Ms. Clements. Maybe very briefly on----
    Senator Mikulski. Mr. Chairman, may Ms. Clements also 
answer part of that?
    Senator Graham. Absolutely.
    Ms. Clements. Very briefly, Senator. On your question 
related to the issues related to education in particular, maybe 
just to note, because we talked in the last round of questions 
significantly about money. It isn't just about money, it's 
about policy changes we actually need from governments to make 
it possible for refugees to work, make it possible for freedom 
of movement, and make it possible for kids to be in school. 
Whether or not those are national systems or even the ability 
for NGOs and international organizations to provide reinforced 
assistance for education, you put your finger on it in terms of 
that being the key from our perspective.

                            CENTRAL AMERICA

    On the issues related to Central America, thank you very 
much for raising it. It's a great concern to us, too. We see a 
looming refugee crisis on the horizon, very much so, with 
regard to unaccompanied children, with regard to women on the 
run. These are issues that are of great concern. And in terms 
of our ability to be able to support, we think we need a 
regional approach in terms of sharing responsibility, we need 
to increase reception capacity, we need to increase direct 
assistance, to people that are very much in need. We'll also 
need the cooperation of those governments to help us do that.
    Thank you.
    Senator Mikulski. Thank you.
    Senator Graham. Senator Boozman.

                      PUBLIC-PRIVATE PARTNERSHIPS

    Senator Boozman. Thank you, Mr. Chairman.
    General Jones, in your testimony, you talk about the 
importance of public-private partnerships to advance our 
foreign policy priorities. This is certainly an issue that many 
of us have also extensively raised, not just for the resources 
that can be leveraged, but for the logistical and technical 
expertise that the private sector brings.
    While I think that the U.S. Government has gotten better at 
creating these partnerships, I often hear from businesses, 
particularly small businesses, that it can be incredibly 
difficult to partner with the Government. Have you heard 
similar concerns? Are there any particular recommendations that 
you can offer that would accelerate and streamline the 
partnership process?
    General Jones. Thank you, Senator. I think the American 
private sector is still among the most admired around the world 
and one that has frankly had to develop itself on its own. I 
think the time is here for increased public and private sector 
partnership as an instrument of our foreign policy. And I still 
do a fair amount of traveling around the world, and I'm always 
asked, particularly in developing countries, ``Where are you? 
Where are the Americans? We have the Chinese here, but where 
are the American companies?'' And many times the answer is, 
``We can't operate here because of corruption,'' and so on and 
so forth.
    But I really believe that there are three pillars to our 
21st century engagement. One is certainly security. I think 
organizations like the North Atlantic Treaty Organization 
(NATO) could do a lot more than they're doing; although I give 
them credit for their presence in Afghanistan. Twenty-five 
years ago this year, I participated in Operation Provide 
Comfort in northern Iraq, which was a refugee operation, a 
humanitarian operation, rescuing almost a million Kurds from a 
human stampede caused by Saddam Hussein, creating the Kurdish 
region. But it was security followed by economic development 
and also, thanks to the international organizations, rule of 
law that created stability. Those three pillars, it seems to 
me, must reinforce one another.
    On the refugee problem, if you think the Middle East is a 
challenge, the entire African continent is at an important 
threshold. There will be 16 national elections in Africa this 
year. Most polls show that young Africans are not looking to 
stay in Africa. They want to go somewhere else because they 
don't believe they have a future at home. So that should 
motivate our European friends to join with us in a partnership 
to promote stability.
    Lastly, I would just like to make a point that on threats, 
that there is an established and growing nexus between 
organized crime and terrorism. Organized crime and terrorism 
have figured out ways to cooperate together. You have extreme 
rise in the illegal trafficking of drugs, cigarettes, people, 
and arms. There is an unholy alliance that provides the funding 
for much of the terrorist challenges that we face today.
    But in answer to your question, I do believe that a closer 
working relationship on the foreign policy level between the 
public and the private sector can show the power of the 
American economic engine and help avoid future conflict in many 
of these countries.

                       PEOPLE'S REPUBLIC OF CHINA

    Senator Boozman. You mentioned just now the presence of 
China in Africa. Bono mentioned it I think earlier as he was 
speaking. Talk to us a little bit about that. Talk to us 
about--you had a good article in the Atlantic Council's ``Task 
Ahead.'' Talk to us a little bit about their motives. Talk to 
us about if that's good for governance. All of those kind of 
things. Human rights----
    General Jones. Yes, sir. The United States was the number 
one trading nation on the African continent. We surrendered 
that position around the closing years in the last century to 
China. And China makes it very easy in many countries. They 
show up with not only a lot of money, but they show up with 
their own workforce. I think it's beginning to dawn on some of 
these countries that when the Chinese engage in big projects, 
they do them with their own colonies of workers. For example, 
in Algeria, they tied up a prison ship full of Chinese 
prisoners to work on projects in that country.
    The American way and European way, is different. What 
American companies do regularly in Africa, and don't get much 
credit for it, at least the United States doesn't, is sponsor 
projects that improve quality of life: electrifying villages, 
building roads, providing schools. And there are many, many 
examples of individual American companies on the continent of 
Africa doing great things, sometimes with NGOs, sometimes not, 
but mostly apart from our Government.
    And what I'd like to see is I'd like to see closer 
cooperation. I'd like to see the United States get credit for 
what American companies are doing. But in order to do that, I 
think we need the Secretary of Commerce, who is doing great 
work and I admire her greatly, at the National Security Council 
table to help figure out how do we do that? How we strengthen 
public-private sector partnership and make it work.
    We executed the Marshall Plan. It would be very hard to do 
today, but something like that has to happen, and it has to 
happen not only on a national scale, but an international 
scale. And as I said, if the Europeans are concerned about 
solving the Syrian refugee problem, beware there's another 
tsunami of refugees coming right behind it if we don't prevent 
it.
    Senator Boozman. Thank you.
    Bono, I want to thank you. One of the great problems that 
we have is that there are lots of people throughout the world, 
but there's not much constituency for them. Lots of people 
verbalize this and that, but as far as a constituency, we have 
that problem in our country, and we're tremendously benevolent 
and are certainly doing our share, but I'm always impressed 
with your young people that come from Arkansas or wherever I 
visit with them, they're knowledgeable, they're passionate, 
just like you are, and it really does make a difference, and 
that's a big deal.
    So thank you very much.
    Bono. Yes, thank you. I'm stunned as well. And people say 
that America is ready to sort of close in on itself, but 
America becomes America when it looks outward. You know, when 
you're a continent behaving like an island, you're not America, 
it's just not who you are, and I think waking up across the 
Nation actually in these very cantankerous times politically, 
there are people actually who think, ``Well, this is one thing 
we can agree on,'' and that's why I'm proud of the ONE 
Campaign.
    In fact, one of the reasons I got interested in this 
refugee crisis is because all the great work that's being done 
by a lot of people on this committee, a lot of people in 
America, in the fight against extreme poverty over the last 10 
years could be undone. We worked together, Senator Durbin, we 
worked on debt cancellation; with Senator Leahy, we worked; 
with Lindsey Graham. I mean, I got to know David Perdue there, 
Senator Perdue, we were traveling around. And I'm thinking, 
who's the Republican and who's the Democrat? And, of course, 
they're talking on other subjects, it's very easy to find out. 
[Laughter.]
    But on this stuff, this is like the one thing you all agree 
on, and it brings out the best in you, I'm sure of that.
    Senator Boozman. Thank you, Mr. Chairman.
    Senator Graham. Senator Shaheen.

                               GOVERNANCE

    Senator Shaheen. Thank you, Mr. Chairman, and thank you all 
very much for being here today and for testifying.
    I certainly agree with all of the comments about the 
importance of aid. It is about our security and the impact of 
what's happening in Europe affecting us in the United States 
because we do have a transatlantic alliance that has been 
absolutely critical to world order.
    We had a hearing this morning in the Foreign Relations 
Committee on ISIS and international terrorism, and one of the 
conclusions that I drew listening to the testimony, and our 
witnesses generally agreed with this, is that we've been good 
in the United States when it comes to military efforts. So we 
were successful in Afghanistan in throwing out the Taliban 
initially, we were successful in Iraq in our military efforts, 
we've been working to try and take back territory from the 
Islamic State of Iraq and the Levant (ISIL) that has been 
successful, but we have been--and we've been successful in 
efforts to support refugees in camps and to make sure that aid 
gets there, but we've been less successful when it comes to 
governance, what many people call nation building, the economic 
and social implications and the ability to improve governance 
in countries that are failing.
    I would like to ask if you all agree with that and the 
extent to which you see the need to address that as being 
critical to countering violent extremism, and therefore, how do 
we do better with what we've been doing in the past? Because so 
far we haven't been as successful in those areas as I think we 
need to be if we're going to address the concerns that we're 
all talking about today in terms of countering violent 
extremism. And I don't know, I see you blinking--or you're 
nodding, Mr. Blinken, would you like to respond to that first? 
[Laughter.]
    Blinking, you can blink, too.
    Bono. I'm the nod, he's the blink.
    Senator Shaheen. Yes. [Laughter.]
    Mr. Blinken. No, I think you're right on the mark, Senator. 
The challenge of actually moving from, in the case of, say, 
Iraq or Syria, from liberating territory to then stabilizing 
it, but then not just stabilizing it, helping people rebuild, 
but then not just rebuilding, actually finding a sustainable 
political accommodation.
    Senator Shaheen. Right.
    Mr. Blinken. That's where the challenge really comes in. 
And I think you have to look at each country in its 
particulars. But unless we're able to get at some of these 
underlying issues, even when we succeed, as we always do, 
militarily it won't be sustainable. So that is very much part 
of the challenge.
    What we're trying to focus on, for example, in dealing with 
the programs to counter violent extremism, where we're working 
not just with national governments but with local governments, 
with community leaders, with municipalities, bringing, for 
example, mayors together to talk about how they're dealing with 
the challenge in their own communities, we're taking these 
programs, but we're also trying to apply metrics and evaluation 
to them to figure out what actually works and what doesn't, and 
when it doesn't work, to change it.
    Let me give you one quick example. We just stood up 
something called the Global Engagement Center, which is our 
effort to message against----

                        GLOBAL ENGAGEMENT CENTER

    Senator Shaheen. Yes, I want to ask about that.
    Mr. Blinken. So maybe just to jump into that, one of the 
critical pieces of the effort against Daesh is to counter the 
narrative that's attracting young people to its cause, and we 
were not satisfied with the effort that we had going. We 
brought in a team of experts, technology experts, from Silicon 
Valley and other places, a so-called sprint team in the jargon 
of Silicon Valley. They spent a month with us and they looked 
at what we were doing, and they made some recommendations, and 
as a result of those recommendations, we reformed what we were 
doing, and that led to the Global Engagement Center. And in a 
nutshell, what we're doing less of now is direct messaging in 
the voice of the United States because we found that actually 
wasn't so effective. We were not the best messenger in this 
space. What we are doing, instead, is trying to identify, 
elevate, and build the capacity of local credible voices.
    Second, instead of playing this Whack-A-Mole game where 
they would put something up on social media, we'd immediately 
try to counter it, we've worked on doing it much more 
thematically, and so, for example, very successfully, we found 
the testimonies of defectors from ISIL or from Daesh, and we 
put those together in a way that's incredibly effective because 
what it says to people is what you think you're signing up for 
is not the reality, and they have much more credibility than we 
do saying that ourselves. So in these ways, we've stood up this 
effort. It was based on trial and error, but it was based on 
figuring out what works and what doesn't work, and we're 
determined to do that across the board.
    Bono. Can I add something to that----
    Mr. Blinken. Sure.
    Bono [continuing]. Which is a little bizarre, just coming 
from observing this culture and how illusive maleness is? We 
forget how illusive maleness is in a world where materialism 
decides your machismo. If you have no access to material 
things, you exaggerate your maleness. I think we have to think 
about young men and think about that.
    And it's funny, don't laugh, but I think comedy should be 
deployed because if you look at national socialism and Daesh 
and ISIL, this is the same thing, we've seen this before, we've 
this before, very vain, they've got all the signs up, really 
it's show business. And the first people that Adolf Hitler 
threw out of Germany were the Dadaists and the surrealists. 
It's like you speak violence, you speak their language, but you 
laugh at them when they're goose-stepping down the street, and 
it takes away their power.
    So I'm suggesting that the Senate send in Amy Schumer and 
Chris Rock and Sacha Baron Cohen.
    Thank you. [Laughter.]
    Senator Shaheen. Actually, that's not the first time I've 
heard experts on how do we counter violent extremism talk about 
that.
    Bono. I'm actually serious, not about three characters.
    Senator Shaheen. No, and it is one of the things that I 
know we're looking at, but it also speaks to the importance of 
empowering women around the world and focusing on human rights 
for women and children and making sure that they--we have the 
same focus on what's happening with them, in particularly 
countries where we're seeing violent extremism the most are 
countries where women have not historically been empowered, and 
so it makes that even more important----
    Bono. Ugly machismo.
    Senator Shaheen [continuing]. And a critical need for our 
foreign policy.
    Thank you, Mr. Chairman.
    Senator Graham. General Jones wanted to----
    General Jones. Senator Shaheen, if I could just add a 
little bit to that. Generally, the practice that we followed 
over the many, many years has been one of reacting to bad 
things. I would suggest that in the years ahead that being 
proactive has a skill set all to itself. First of all, for 
example, on security, you can't do everything everywhere, but 
let's think about what a failing state in Africa the size of 
Nigeria, or the Congo, or pick any other large country, would 
mean.
    So the question is, if you're worried about it now, isn't 
it cheaper and more effective to engage now proactively to fix 
what needs to be fixed. When I say ``security,'' I don't mean 
American forces or NATO forces going in to fight a war, I mean 
to go in and help people learn how to defend themselves. And in 
some cases, you can work at the regional level where multiple 
countries that would benefit from that kind of training. And 
while you're doing that, you can engage through our private 
sector to show people how their lives are better in a 
capitalist system, a free market system. Again, the three 
pillars of security, development, and governance.
    The problem is that we tend to do one very well. And in the 
case of Afghanistan and Iraq, there was no real plan to foster 
stability through all three. I think that's the missing link. 
If you're going to do one, be prepared to do the other things 
that have to be there. But it's much cheaper to be proactive 
than to be reactive, of that, I'm very sure.
    Senator Shaheen. You know, I totally agree with that. I 
think we haven't yet, however, aligned the priorities in our 
spending in a way that supports that. Look at how much we spend 
for humanitarian aid for USAID, for diplomatic efforts, and 
compare that to what we're spending on the military side, and, 
you know, there's a huge disparity. And so we've got to begin 
to realign our priorities so that we're focusing more on 
prevention than we are on reacting to the situation.
    General Jones. We have the benefit of the unified 
geographic commanders in most of the major regions of the 
world. I think that with a little bit of tweaking in the right 
direction, that is, not only to foster security, but economic 
development, rule of law, we can utilize our forward presence 
effectively in regions that we want to affect, and I think 
would be a good way to engage proactively to prevent future 
conflicts.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Graham. Senator Daines.
    Senator Daines. Thank you, Mr. Chairman.
    This is a great panel today. Thank you for being here.
    Americans are the most generous people in the world when it 
comes to humanitarian aid and contributing to relief efforts 
that span the globe. At the same time, this panel today, my 
fellow colleagues, are weighing how best to contribute 
government resources where the needs are overwhelming. You sit 
and listen to the needs of the world today, at the same time, 
having limited resources. How do we counter terrorism? How do 
we provide humanitarian relief? How can we be most effective on 
behalf of the American taxpayer?
    I want to start with General Jones first of all. And I want 
to tell you, thank you for your service to our country. As a 
son of a Marine myself, I got raised right. Thank you for what 
you've done for our Nation and thanks for coming today.

                              PHILIPPINES

    I want to start with a question for you, General. This past 
weekend in the Philippines, at least 18 Filipino soldiers were 
killed in fighting with the ISIS-linked Abu Sayyaf terrorist 
organizations in the southern portion of the country. It's 
clearly indicative of the threat the Islamic State and related 
terror groups pose to not only the Middle East, but Asia 
Pacific, and the entire world.
    The U.S. Special Forces use strict operations doctrine by 
embedding with local forces and building strong partnerships as 
they battle these terrorist organizations on a special task 
force with the Philippines following 9/11. We're starting to 
see the U.S. take this approach now in Operation Inherent 
Resolve. My question for you, somebody who has a lot of 
experience, do you feel this tactic is an effective way to 
counter violent extremism?
    General Jones. The critical ingredient I think that you 
need to have is that wherever we engage, that the people of 
that country and the government of that particular country have 
to want what we're offering. I think imposing our values and 
goals is the long road to perdition usually.
    I've spent quite a few years in the Philippines. The 
Mindanao problem has been with us for a long time, and the 
extremist groups that exist there are problematic. What worries 
me is that, if I understand it correctly, there's an effort at 
appeasement of these violent extremist groups, and personally 
I'm opposed to that because that just gives them an anchor 
point from which they will expand their base of operations.
    So I'm a little bit removed. I defer to Secretary Blinken 
about our current policies, but as a matter of principle, I 
don't favor appeasing extremists. I think you have to root them 
out, stamp them out, and a lot of it depends on the will and 
the capacity of the people. I think we can help them do these 
things, but I don't think we can do it for them.

                               BENCHMARKS

    Senator Daines. Secretary Blinken, notwithstanding natural 
disasters and unforeseeable contingencies, the ostensible goal 
of foreign aid is to assist countries and to get them to attain 
certain humanitarian institutional conditions in which aid is 
no longer required. As you look at your longer term goals, as 
you look at the investment we make in aid, what are some 
measurable benchmarks that might indicate if a country is 
effectively utilizing U.S. assistance to improve governance, 
combat terrorism, and what, if any country, can you maybe pull 
out that could be viewed as a model of success?
    Mr. Blinken. First, just briefly on the previous question. 
I very much agree with General Jones, the point he made. And we 
are trying to work by, with, and through local partners to 
build their capacity, but with them along the way.
    You're exactly right, that ultimately success for the 
foreign assistance business is to get out of that business. We 
want countries to actually get on their own feet to be able to 
be effective and to provide for their own citizens, and, 
indeed, ideally, we would like to channel as much as possible 
to the private sector and have it work that way. But in the 
near term, as we look at these programs, what we are trying to 
do is develop clear measures and metrics of effectiveness.
    And just to give you one example, in the violent extremism 
space, trying to counter that, on the one hand, it's a little 
tough to measure how many people didn't become radicalized. In 
a way, that's unknowable, but what we are trying to do is, 
first of all, have some consistency across the programs. 
Second, we're making sure that we have third parties come in 
and evaluate what we're doing to see if the goals of the 
particular programs are actually being met, and in particular, 
we're trying to look at when we provide assistance or we 
transfer knowledge to a recipient, how are they actually using 
that, and is it making a difference?

                             COUNTRY MODELS

    Senator Daines. Secretary Blinken, if you look at the 
landscape, which country, if you had to kind of stack rank, and 
I realize perfection is never going to be attainable, but 
certainly there are better outcomes than others, what country 
stands out perhaps as a model saying this has been an example 
of success?
    Mr. Blinken. Well, I think you have to look at different 
particular areas. Obviously, there are countries in the past 
that were beneficiaries of our assistance in one form or 
another that now are leading countries around the world. If you 
go no further than South Korea, for example.
    Senator Daines. That's a good example.
    Mr. Blinken. But in the present day, I think it varies very 
much program to program, sector to sector. It would be hard to 
rank order, I think, countries across the board. We've seen, 
for example, Jordan use some of the assistance we provided 
effectively to start to make important macroeconomic changes. 
That's the kind of thing we're looking for. We see in other 
countries that have not made those kind of changes.

                            SYRIAN CHILDREN

    Senator Daines. In the time, just, Bono, a question. We 
were talking about a Syrian humanitarian crisis earlier and 
this potential lost generation of children as these refugee 
camps turn into long durations, often perhaps even much of a 
lifetime. From your perspective, what would you say is the most 
effective way, if you were tell this committee, where we can 
invest American taxpayer dollars to ensure that we don't lose a 
generation of these Syrian children?
    Bono. In short, listen to Ms. Kelly Clements. I think 
they're doing a spectacular job. I'm glad to hear you think 
about that, and I--because I, you know, witnessed--I talked to 
those families and you get to know them. You go in, of course, 
and they're refugees, and you come out, and you got to know 
them.
    Syrians, I will tell you, though, are particularly 
industrious. I would never underestimate them. They are 
definitely worth the investment. I was a friend of--lucky, 
fortunate, to be a friend of Steve Jobs. Now, there was a 
Syrian. He was a son of a Syrian migrant, and, you know, he had 
that industriousness.
    And there's a funny story. In the camp, I think it was 
Za'atari camp, the Dutch people were giving 600 bicycles out to 
the camp, and within--I think within minutes, they had set up a 
bicycle repair shop to deal with the bikes, and then the bikes 
arrived, they had a delivery service for pizza before they had 
the pizza place. [Laughter.]
    So these are the best people in the world. They're 
extraordinary people, and they would be so moved to hear you 
talk about them today.
    Senator Daines. Thank you, Mr. Chairman.
    Senator Graham. Senator Coons.
    Senator Coons. Thank you, Chairman Graham, and thank you 
for the chance to have this hearing and to work with you on 
this important issue.
    To General Jones, it's great to see you again. I think our 
last conversation was in Rwanda, and I'm pleased to see you're 
continuing to pursue the same line of analysis.
    To Deputy Secretary Blinken, thank you for your decades of 
service to our Nation at the highest levels.
    And, Bono, great to be with you again.
    And, Deputy Commissioner Clements, thank you for your 
pointed and constructive proposals.
    One of my own hardest days as a Senator was actually with 
Senator Graham at the Za'atari refugee camp in Jordan, seeing 
both the enormous challenges and the real potential of a 
refugee camp filled with thousands of Syrians of all ages and 
backgrounds.
    And a mentor to me, Tony Lake, who now runs the United 
Nations Children's Fund, who was a professor of mine in 
college, has for some time now been arguing, as I believe many 
of you do, that we need to realign our imagination, reconsider 
the funding that we provide for humanitarian relief in an 
emergency situation and the investments we make in development 
and recognize that millions of refugees are likely to be 
outside their countries of origin for a very long period of 
time, and if we change direction and make investments in a 
wiser and more targeted way in partnership with the private 
sector, in partnership with allies around the world, we can 
make a significant difference, not just in combating violent 
extremism, although that is an essential goal of our 
conversation here today, but also in continuing to build up 
humankind and to relieve suffering.
    And, Bono, I was moved to hear you talk about how the 
American people are genuinely generous and how our investment 
in the Marshall Plan really laid the foundation for a Western 
Europe that's united and stable and free, and your reference to 
the President's Emergency Plan for AIDS Relief, which largely 
through the work of senior Senators on this subcommittee, has 
made possible relief that's touched the lives of 9 million. 
I'll also mention the Ebola crisis in West Africa, one where 
volunteers from around the world joined with the United States 
in turning around the trajectory of a tragic disease.
    So I am encouraged and challenged by your terrific op-ed 
today in the New York Times, by what I've heard from all of you 
about the Sahel and the Levant and the ways in which we ought 
to be working together to craft a more disciplined and 
thoughtful plan.
    General, in your written testimony, you have about as good 
a call to arms as I've heard, and I quote, ``We need a global 
development campaign plan that is as sophisticated, serious, 
and passionate as any fight in our history, designed and 
resourced as if the future depends on it, because it does.''
    General Jones. That's right.

                LARGE-SCALE PLAN FOR FOREIGN ASSISTANCE

    Senator Coons. With the time remaining, I would be grateful 
if each of you would simply speak to, so if Congress were to 
embark on a large-scale plan for foreign assistance that 
combined all of these elements, real investment in human 
development alongside humanitarian relief, partnership with our 
allies, in a sustained way that would prevent fragile states 
from becoming failed states, what would it look like? What 
conditions would you put on our aid? How would you decide which 
countries would come in that arc of attention and care and 
which would be out of it? And how would we tell the American 
people how long this would last and what our goals are?
    General, I would be interested in what role you think 
peacekeeping plays in the stabilization.
    And, Bono, I, of course, would be interested in what role 
you think communications in mass culture plays.
    And, Deputy Secretary Blinken, how far you think we already 
are down the road towards developing and delivering this.
    And then, of course, Deputy Commissioner, how you see the 
plight and role of refugees as being at the center of this.
    So think big and tell us how you would structure it, if you 
would, please.
    General Jones. Thank you, Senator. I'll try to be very 
brief. I am of the opinion that to deal with the challenges and 
the threats that face us and mankind really, we must approach 
it a little bit differently. When I was National Security 
Advisor, we tried to work on more holistic approaches to 
international threats, like cybersecurity, energy security, 
water security, food security, and, of course, the conventional 
definition of security from military threat that we leaned on 
for so many years in the 20th century.
    In the world that we face today, people have choices and 
people know a lot more. People in developing countries have 
access to information that shows them that they don't have to 
live like they do. The battle is on with extremist ideologies 
who say to them, ``The reason that you are not doing better is 
because of these guys,'' and generally they point to us.
    But I'm very optimistic that if we can put together a 
strategic concept to deal with these kinds of problems more 
holistically. This must include the private sector and the 
public sector working together, and to advancing the idea that 
America doesn't have to do this alone. What we can do, I think, 
better than anybody is provide assets and resources, but also 
an organizing principle and operational framework around which 
other countries can rally.
    The North Atlantic Treaty Organization is a good example, I 
think--an international organization of 28 countries that has a 
fantastic history, but what is its future? And if we can't lead 
that organization into the 21st century by being more 
proactive, more preemptive, and more strategic in our thinking, 
which saves money in the long term, then I think we will have a 
difficult time.
    So leadership, U.S. leadership, I think is critical in 
organizing to do these things; to bring international public 
and private sectors together, and to help countries that are on 
the fringe of going one way or the other in terms of democracy. 
Across the developing world people know exactly what they're 
missing and they will not hesitate to move by tens of thousands 
across the Mediterranean from Africa to Europe if they don't 
see hope for the future.
    Security and stability is many things. It's agriculture, 
it's food, it's water, it's physical security. It requires the 
full toolkit--using organizations like the UN, non-governmental 
organizations. We have to find the table where everybody can 
sit together and plan this. It's not as expensive as it looks. 
What's expensive is when you have to go through another Iraq or 
Afghanistan or Libya without a complete toolkit that says, 
``Okay, after the main conflict. Now what?'' The ``Now what?'' 
is what's been missing.
    Thank you.
    Senator Coons. Thank you, General.
    Mr. Chairman, may other members of the panel respond or----
    Senator Graham. Sure.
    Senator Coons. I'm beyond my time.
    Senator Graham. Very briefly so other members might ask a 
question.
    Senator Coons. Deputy Secretary Blinken, briefly, if you 
might, what countries are in and what countries are out?
    Mr. Blinken. Sir, I very much subscribe to what General 
Jones said. Second, in terms of the countries that are in and 
the countries that are out, of course, we have to do an 
assessment of which countries are most at risk, which countries 
matter to us the most in terms of our own interests and 
security, and then which are most likely to actually be willing 
to be partners and to make the changes necessary?
    Conditions you mentioned. We want to make sure that, in 
fact, what we're trying to do is really leverage our assistance 
in different ways. First, leverage it so that the countries in 
question that receive it actually make the changes that we 
think are the right ones to make in terms of having sustainable 
outcomes in all the areas that General Jones just talked about.
    Second, there are ways to leverage our assistance to get 
other countries to put in as well. And one of the things we're 
trying to do, for example, on the refugee crisis is President 
Obama convened a summit meeting on the margins of the UN 
General Assembly in September, and one of the goals of that 
summit meeting is to increase the assistance provided around 
the world by 30 percent to the global refugee crisis. So the 
ante-in to even take part in the summit, to be at the table, is 
to do more, so we can do that, too.
    Third, I think, even as we're thinking about assistance in 
designing such a program, we also just have to be looking at 
innovative solutions that are not necessarily driven by money. 
So, for example, we were talking earlier in the refugee crisis. 
We need to be doing things like ending this divide between the 
way we provide humanitarian assistance and the way we do 
development aid. These things need to be married together both 
in the way we budget and the way we think about problems and 
the way we invest in them.
    Second, we were talking about providing concessional loans 
to middle income countries that don't qualify for them, but 
could use them very effectively, the Jordans and Lebanons of 
this world.
    Third, innovative ideas like creating enterprise zones 
where if companies invest in those zones and countries invest 
in those zones, the products that are produced get preferential 
treatment, the people employed in those zones may well be 
refugees or people who are at risk.
    So ideas of those kind I think are the kind of thinking we 
need to have to make this work more effectively.
    Senator Coons. Those are terrific ideas.
    Bono, you have done an amazing job of leveraging world 
interest in your leadership to provide relief to millions from 
HIV/AIDS. How would we do the same in this unique challenge?
    Bono. I am very humbled to have you ask that question, 
Senator, and to hear you debating with Senator Graham, is one 
of the great thrills of my life in some extraordinary place on 
the far end of the globe, and to hear your passion on these 
subjects.
    I'm not sure exactly what the Marshall Plan looks like. I 
liked that three-tiered approach that I thought Tony brought up 
there. I can speak better about the Sahel because I know it 
better than the Levant, which you all do.
    But I just want to remind people, Africa is really rich, I 
mean, not just in its resources, but its people. It's 
extraordinary. And I think it will be an amazing partner for us 
going forward, I just think for trade, for commerce. Remember, 
the Marshall Plan did really great for the U.S. I keep thinking 
about, I mean, at the time people were saying, ``We can't 
afford it. We can't afford it.'' But actually the 1950s and the 
1960s were born out of these new customers. Can you believe 
we're actually talking about it? But it's true.
    And so I think the biggest problem in the way of that 
growth, any African will tell you, is reform and finding 
corruption, tackling corruption. The Africans are leading this, 
but you make it easier when you make these packages conditional 
on that kind of form. That's what they want. Finance ministers 
say to me all the time, on debt cancellation, you know, ``The 
really key piece of that, Bono, was having our debts canceled. 
We had to reform.''
    So I think it's a fantastic thing to arrive in the region, 
these difficult regions, and you can advise them to reform or 
you can say, ``Look, here's what happens when you do. Here's 
the club. You want to be in this club? Because it's a great 
club.'' And so I think that's the way I'm seeing it.
    And just to end, just to say I think we need an America 
that is strong, like the General describes, but also an America 
that's smart. You're strong and smart when you talk like this. 
And I'm just amazed. I'm actually cast back listening to you 
all today. I'm sort of having a pinch myself thing and going, 
wow, people really get this thing and they're talking about, 
you know, asking the American people to go further. And that 
hurts you politically, but that's real leadership--isn't it?--
when you do the right thing and it costs you.
    Senator Coons. Thank you.
    Ms. Clements. It's really easy to come after these three 
gentlemen because obviously the concepts are inspirational, but 
also very concrete. Just a couple of things to add. We talk 
about this arc of crisis from southwest Asia and Middle East 
through the Horn of Africa and the Lake Chad Basin. In terms of 
that being the stretch of where people are being disrooted, 
that would probably be where to focus in terms of a so-called 
Marshall Plan redux.
    Second, don't forget the political. It's tremendously 
important. We're talking a lot about humanitarian development, 
we're talking about failed states, governance issues, and so 
on. Obviously, all that's important. If we can get the--when we 
do have those crises solved, it would make a tremendous 
difference. Syria, Iraq, and Somalia, those three crises alone 
are responsible for almost half of the uprooted people we were 
talking about earlier, so that needs to be part of the overall 
equation.
    And then I couldn't agree more in terms of marrying the 
humanitarian development approaches in a real concrete way. We 
have a moment now that we haven't had in decades in terms of 
political attention, including of this subcommittee.
    Thank you.
    Senator Coons. I would like to thank Senator Leahy and 
Senator Graham for your tremendous leadership of this 
subcommittee and the entire panel for what you've done to raise 
our eyes and to challenge us to confront this moment of both 
opportunity and real difficulty for millions of people around 
the world.
    Thank you.
    Senator Graham. Senator Merkley.

                      COUNTERING VIOLENT EXTREMISM

    Senator Merkley. Thank you very much, Mr. Chair.
    And I appreciate all of your testimony very much.
    And, General Jones and Bono, it's great to connect with you 
all again. Senator Coons led a delegation and we were able to 
meet in Rwanda and to be in the field discussing the 
challenges. It's a wonderful complement to being here in 
Washington, DC, and discussing the challenges.
    Mercy Corps is an organization headquartered in my home 
State of Oregon, and I connected with them about what they 
would recommend in terms of countering violent extremism. And 
I'll just share with you all the points that they made.
    They said in siloed, single sector programming, insert 
multi-sector, multi-year programs to create systems within 
which youth can thrive. Second, target the most vulnerable 
youth. Be vigilant about ensuring you don't simply reach 
privileged youth in urban centers. Third, shape the future of 
CVE countering violent extremist strategies through rigorous 
iterative analysis of the political, social, and economic 
factors that drive youth to support violence. And, fourth, 
increase investments in two track governance programs, connect 
youth voices with meaningful reforms on the issues of 
corruption, predatory justice systems, and exclusive governance 
structures.
    I just wanted to mention those and see if you all would 
find those things to fit with your own experience or if you 
would like to take issue with them. Anyone.
    Yes. Thank you.
    Ms. Clements. Thank you. Maybe I can just start this time 
in terms of obviously Mercy Corps is a tremendous partner of 
UNHCR and others and does tremendous work around the world. One 
thing to mention, it's the issue of integration. Nothing is 
more powerful in averting radicalization and preventing violent 
extremism than having hosts and refugees live side by side, as 
friends and neighbors. I have to say in terms of the U.S. being 
a leader on refugee resettlement, one of the reasons it has 
been so successful historically, we see the same thing north in 
Canada, and in Australia, is that there's a real integration. 
So in terms of preventing that kind of extremism, welcoming 
people into the community is definitely the first and the 
strongest step.
    Thanks.
    Senator Merkley. Thank you. Anyone else?
    Yes, Deputy Secretary Blinken.
    Mr. Blinken. Just, Senator, I think the points that Mercy 
Corps makes are on the money and, in fact, consistent with the 
way that we're looking at the problem. In particular, I think 
exactly as they said, the multi-sector programming is vitally 
important. We have to have these interconnections, and that's 
exactly what we're trying to do.
    For example, in trying to bring together what we're doing 
on counterterrorism with what we're doing on countering violent 
extremism, that is, what we're doing before the problem becomes 
a problem and then what we're doing afterward, we can actually 
create much greater coordination of efforts.
    So, for example, if you are training a law enforcement 
organization to deal with terrorism, but you're also helping it 
understand what the drivers are of terrorism, it may be able to 
be more effective in getting at the problem before it starts. 
So bringing these things together is vitally important.
    Second, I think you're exactly right about targeting the 
most vulnerable, and, indeed, we're trying to think about our 
assistance programs and the work that we're doing, focused on 
the communities most susceptible to creating or having people 
in their midst become radicalized. And it goes as far as our 
exchange programs, for example, to make sure that the people 
we're bringing over represent those communities and benefit 
from the work that we're doing.
    And then exactly right as well, that we need to be 
elevating their voices, not so much ours, but their voices, 
because ultimately the most effective messengers, the people 
who have the most credibility, are people who are speaking to 
their own. So that fits in very much with what we're trying to 
do.
    Senator Merkley. Thank you. I was particularly struck by 
the emphasis on the rigorous, iterative analysis because we 
have to continuously test different strategies and then see 
what's working, and what's working in one part of the world may 
be very different than what's working elsewhere.
    Bono, I join my colleagues in thanking you so much for the 
work of the ONE Campaign and (RED). My daughter, Brynne, is 
enjoying interning with your organization and is moved by the 
mission, as so many Americans are.

                    IMPORTANCE OF FOREIGN ASSISTANCE

    You mentioned a number of things I want to particularly 
stress. First, that aid is not charity, it is national 
security. So often I have asked my colleagues, if we had 
another dollar, do we do more for security in the world through 
these types of programs than we do through procuring another 
weapon, if you will? And I think that the balance still is too 
much on the weapon and force side and not enough on this side. 
And certainly that ties in with the notion that I think the way 
you put it was it's more cost effective to invest in stability 
today than to address crises later.
    You also noted that it's important to connect, if you will, 
humanitarian aid and development efforts, and I think that's an 
immediate short-term and longer term strategy. And would you 
like to just expand on that?
    Bono. Yes, sure. Just on the military piece, the 
extraordinary thing about General Jones is 10 years ago he was 
talking about the reimagining of the military. I went to the 
Atlantic--is that what it's called?--the big military 
gathering.
    General Jones. Atlantic Council.
    Bono. Yes, Atlantic Council. And there were all these 
Ph.D.'s standing up, and they're all generals, and I'm like, 
wow, this is a--they're so cerebral and they're so 
philosophical, and you realize that the military is ahead of 
the politicians on this one. I mean, they really understand 
what has to be done. And I'm amazed by that. In an asymmetrical 
conflict, you just can't use the old strategies, and there are 
new weapons needed, and sometimes those weapons are education, 
you know, fighting disease, and it's really cheap.
    And I remember with the AIDS stuff that we did, I remember 
telling President Bush, ``Paint those antiretroviral drugs red, 
white, and blue, Mr. President, because they're the best 
advertisement for America you're ever going to see,'' and he 
was like laughing except now when he arrives in Africa, 
everyone is applauding the dude. [Clapping.]
    And America polls very well. It's amazing.
    So, and then on the long-term versus the short-term, the 
humanitarian aid and the long-term develop, they are coming 
together now. And you can't care about development and poverty 
and not care about conflict because 50 percent of the poor come 
out of fragile, conflict-prone areas.
    So I'm learning, you see, from Kelly, and she's learning 
from other people smarter than me, but it is coming together. 
It used to be two separate silos, and I'm glad to say that it's 
coming together.

                                 RWANDA

    And I also just--it wasn't your question, Senator Merkley, 
but because we were in Rwanda together, I think Rwanda is an 
example of a country that came out of conflict that took our 
investment in aid and actually has done quite an incredible 
job. And I know it's frustrating for some of us that President 
Kagame went on for a third term. He's absolutely convicted. His 
security, the security of his country, was the right--he was 
doing it for the security of his country. But aside from that, 
he's doing a spectacular job, and he is an example, I think, of 
how to do this right.
    Senator Merkley. One of the things that tremendously struck 
me there was the government's emphasis on no longer talking and 
identifying as tribal entities, but as Rwandans, and yet it's a 
fragile moment still. And one of the concerns he expressed was 
that campaigns will cause people to immediately, either 
directly or indirectly, reach back out to their tribal roots, 
and the memories are so painful. It's a situation we have a 
hard time fully comprehending, given what passed in Rwanda.
    I'll just close with noting I appreciate the emphasis on 
corruption. There has been mention of the Global Anti-
Corruption Summit in London, and that the U.S. will back an 
ambitious set of proposals. I would love to hear more about 
that, but I am out of time.
    Senator Graham. Senator Durbin.
    Senator Durbin. Thanks, Mr. Chairman, for this hearing, and 
thank you for your suggestion on the Marshall Plan. At the risk 
of ruining your political reputation, I respect you very much. 
[Laughter.]
    Senator Graham. Just keep it to yourself. [Laughter.]
    Senator Durbin. Thanks to this panel.
    History tells us that World War II was a learning 
experience for the United States. We were not open to refugees. 
We turned them away, the refugees from Europe, the refugees, 
Jewish refugees, coming in trying to escape the Holocaust. And 
after the war, we tried to change that policy and point in a 
new direction, and for the most part, we've done it. Now we're 
faced with the humanitarian crisis of our time, the refugee 
crisis of our time, coming out of Syria and Afghanistan and so 
many other places.
    Bono, I can remember the first time we ever sat down to 
talk. It was about HIV/AIDS, and I remember my first reaction, 
and the reaction of most, to this issue and this crisis was 
fear: ``What does this mean? Am I going to die? How many people 
are going to die? Is there any way to stop it?''

                             REFUGEE CRISIS

    The reaction to this refugee crisis, the first reaction, 
fear: ``How many of these people are coming? What--are they 
going to threaten us?''
    So it's not unusual for us to face new challenges with the 
first reaction in fear. And I hope that we have--we certainly 
have grown out of it when it comes to HIV/AIDS. We're much more 
knowledgeable and thoughtful and know what we can achieve. The 
question is, will we get back on the right track when it comes 
to refugees? We've got to get beyond this pause thinking around 
here and get back to the reality of a lot of deserving people.
    I was on the island of Lesbos, and I saw them coming in on 
these leaky rubber plastic boats with little babies with water 
wings that we put on them in wading pools. That's all they had 
to protect them as they came across the straits. And I thought 
how desperate these people must be to risk their lives and the 
lives of their children to bring only what they can carry.
    And I guess my question comes down to this. It's more of a 
general question. I think the genuine concern in Europe and 
other places is about the uncertainty of when this is going to 
end. Is there going to be an end to this flow of refugees? Is 
there a finite number that we have to contemplate in terms of 
absorbing into Germany, absorbing into Sweden? How many? The 
uncertainty of that is certainly understandable because, as you 
have said, speaking of your experience in Africa, this is not 
confined to the Middle East, and I remember when an ambassador 
from Italy told us Syrians rank third in the number in the 
country sending us refugees into Italy. Two first are coming 
out of Africa.
    So my question to you is this, If this humanitarian crisis 
is not abnormal, but the new normal, in our world, where people 
are living longer because of public health, surviving, where we 
see, as you ticked it off, the extreme ideology, extreme 
poverty, extreme climate, can we engage our friends of the 
world of like mind to make investments to allow these people to 
stay in place rather than to strike out in desperation to find 
some refuge, some opportunity?
    Bono. Yeah, it's a giant challenge, but it's kind of an 
American one. And I think if you get your best and brightest 
focused on it, as I'm listening to you today, you can see that 
we're going to get somewhere. But in the private sector, I 
mean, you see there are marks of the work, they're trying to 
bring access to the Internet to people who can't afford it. 
I've had a conversation with Larry Page at Google, even amongst 
lots of people, your tech people, they're determined, 
incredible parts of your society. Bill Gates, we couldn't do 
anything in the ONE Campaign or indeed (RED) without Bill and 
Melinda Gates. So you have Warren Buffett. I mean, it's the 
whole country that's showing the way, not just--it's not just 
the public sector, it's the private sector, and it's going to 
do it. You can do it. Because, strangely enough, they've done 
studies on bringing, you know, the Internet to developing 
countries, and it's transformative. And that's just one thing.
    So electricity, you know, your innovations in solar. It's 
incredible, present, as an initiative to bring power to Africa. 
It's really good. And these are transformative.
    The only thing I worry about, and I'm really guilty of 
this, is I'm great at raising the alarm, and there's a serious 
crisis, and we really need to attend to it, but I don't want to 
drag down the vision of this as away from what it could be 
because it could be your greatest chapter.

                       PEOPLE'S REPUBLIC OF CHINA

    You were talking about China, seeding influence to China. 
In 50 years' time, I will tell you this, in 50 years' time, if 
the United States walks away from the continent of Africa I'm 
speaking about, and just seeds all that influence to China, it 
will be seen as the worst foreign policy mistake of the start 
of the 21st century, it's that big.
    And why would you? These are people, they love you. They're 
entrepreneurs, they're smart, they're coming to your 
universities. And great that China is, you know, competing with 
that, too, and I hope to see China--I would like to see--I 
think President Xi, one thing about him is he's very, very big 
on tackling corruption, both in China and now want to see that 
in Africa, and if he starts to tackle corruption in Africa, it 
would be transformative. And I'm not sure he's watching C-SPAN 
at the minute, but I would to have that conversation. 
[Laughter.]
    Senator Durbin. Mr. Chairman, thank you very much for this 
hearing.
    Thank you all.
    Bono. Thank you. Thank you, Dick.
    Senator Graham. Thank you all very much. Just to wrap it 
up, a couple observations. We're trying to be proactive. The 
whole goal of this hearing is to focus on the problem. It's 
going to get worse if somebody doesn't deal with it now. It's 
better to invest now or you're going to pay later. Losing 
Jordan would be--I don't think that's going to happen, but 
we've got to get a grip on this refugee crisis. It's just not 
providing food, shelter, and clothing, it's providing a way to 
integrate them into countries over there so they don't come 
here. It is designed to undercut radical extremism, which is a 
hopeful life versus a glorious death.
    Ten years ago, when you first tackled the AIDS crisis, no 
one could ever have imagined in their wildest dreams how 
successful it would have been, and we still have got a ways to 
go. But I can tell you, mother-to-child AIDS transmission has 
been reduced by 75 percent. There are five countries that are 
inside the 20-yard line that could be self-sufficient when it 
comes to dealing with their AIDS problem, South Africa leading 
the charge.
    Millions of people are alive today because of what we did 
10 years ago, and to the American people, if I thought there 
was a way to do this differently, I would choose it. I don't 
want soldiers to go over there unless they have to go, and I 
can't find a way, General Jones, to provide security over there 
without some of us being there helping in that endeavor. I 
cannot find a way in my own mind to deal with countering 
violent extremism without some kind of international plan of 
which we'll be a part to change the economies of these regions 
to give people hope. The more education a child has, the better 
off we'll do.
    And I'll end on a positive note. After 37 visits to Iraq 
and Afghanistan, I can assure the American people that they're 
not buying what these crazy people are selling. They don't want 
to go down that road, they don't want to turn their daughters 
over to ISIL, they being the mothers and the fathers. And I can 
promise, you are safer here when we are helping people over 
there. This whole concept of coming up with a Marshall Plan for 
the 21st century, call it what you like, is long overdue.
    We've spent a lot of money, but the most important thing 
we've done is spend 6,000-plus lives and thousands of people 
have had their lives disrupted, legs blown off, and traumatic 
brain injury, I can go on and on and on. I would like to make 
the next 10 years more successful, and the only way I know to 
do that is to have something outside the military solution to 
complement security once you achieve it, because once you 
achieve security, you will lose it if you do not do the things 
we've talked about.
    So with that, I want to thank you all.
    And, Senator Leahy, if you want to say anything, we'll wrap 
it up.
    Senator Leahy. No. At the risk of damaging your career back 
home, I agree with you. [Laughter.]
    And for the people who are here, people that we've known 
for a long, long time.
    Senator Graham. You made an enormous difference today, and 
you will look back on this hearing, I hope, and say, ``That's 
when it began to change.''
    Senator Leahy. It gives us, it gives Senator Graham and I--
we have to bring members of both parties together to vote for 
this bill. You know, the way the public is, ``Why are we giving 
25 percent of our budget to foreign aid?'' Of course, it's a 
fraction, it's a fraction of 1 percent, and the return, pay for 
it now or pay many, many, many, many times more later on. And 
what you've given us is a lot of ammunition to work with both 
Republicans and Democrats. So I thank you.
    Senator Graham. Thank you. Yes, sir. I ask that the 
testimony submitted by today's witnesses, as well as the 
testimony provided by USAID, the United States Institute of 
Peace, the World Food Program USA, and Mercy Corps be included 
in the record. Any questions for the record should be submitted 
by Friday, April 15.

    [Clerk's note: The testimony provided by USAID, the United 
States Institute of Peace, the World Food Program USA, and 
Mercy Corps appear in the section titled ``Materials Submitted 
for the Record'' at the end of the hearing.]

                     ADDITIONAL COMMITTEE QUESTIONS

    [The following questions were not asked at the hearing, but 
were submitted to the witnesses for response subsequent to the 
hearing:]
             Questions Submitted to Hon. Antony J. Blinken
              Questions Submitted by Senator Steve Daines
    Question. U.S. Special Forces used strict Special Operations 
doctrine by embedding with local forces and building strong 
partnerships as they battled these terrorist organizations on a special 
task force with the Philippines after 9/11. We are starting to see the 
U.S. take this approach now in Operation Inherent Resolve--do you feel 
this tactic is the most cost effective way to counter violent 
extremism?
    Answer. I defer to the Department of Defense on any efforts to 
embed Special Forces, but as we work to counter ISIL and other 
terrorist groups, military efforts alone are insufficient. As we deal 
with the evolving threat environment, the success of our 
counterterrorism efforts increasingly depends upon capable and 
responsible civilian partners: police, prosecutors, judges, prison 
officials, and community leaders, who can help address terrorism within 
a sustainable and rule of law framework that respects human rights.
    To prevent the emergence of new violent extremists, we must address 
the ideology and tactics these groups employ to attract new recruits, 
and the underlying conditions that fuel radicalization to violence. 
State continues to pursue a range of efforts to build resilient 
communities, enhance community-security sector relationships, and build 
a ``whole of society'' global approach to address the drivers of 
violent extremism, both in the context of addressing ISIL and other 
existing terrorist threats. More specifically, we work with governments 
across the region, and in partnership with civil society, by addressing 
specific societal dynamics and drivers of radicalization to violence, 
and counter the ideology, messaging, and recruitment methods that 
extremist groups and propagandists employ to attract new recruits and 
foment violence.
    Question. Do you feel a stronger partnership with the Philippines 
in countering the violent extremism will help promote stability in the 
region and show our commitment to overall security in the Asia Pacific?
    Answer. Governments across the region, including the Philippines, 
actively seek to address threats and degrade the ability of terrorist 
groups to operate in the region. In partnership with host governments, 
we work to strengthen counterterrorism legal frameworks, improve prison 
institutions, build partner capacity to investigate and prosecute 
terrorism cases, increase regional cooperation and information sharing, 
and address critical border and aviation security gaps.
    A stronger partnership with the Philippines to counter violent 
extremism (CVE) can help promote stability in the region and show our 
commitment to overall security in the Asia Pacific. State's CVE efforts 
help to prevent the emergence of new violent extremists, and we 
continue to pursue a range of efforts to build resilient communities, 
enhance community-security sector relationships, and build a ``whole of 
society'' global approach to address the drivers of violent extremism, 
both in the context of addressing ISIL and other existing terrorist 
threats.
    We also prevent and counter violent extremism, in partnership with 
civil society and host governments, by addressing specific societal 
dynamics and drivers of radicalization to violence, and counter the 
ideology, messaging, and recruitment methods that extremist groups and 
propagandists employ to attract new recruits and foment violence. We 
will continue to devote resources to areas where there is mutual 
interest and sustainable results.
    Question. The Philippines is currently under consideration to be 
given expedited foreign arms sales, like Israel and many of our other 
allies, do you feel this will help the Philippines?
    Answer. The Philippines, a close ally and trusted partner, already 
benefits from priority delivery of Excess Defense Articles, and is the 
largest recipient of security assistance in the region. However, the 
Philippines has only made one Foreign Military Sale in the past 6 years 
that triggers the Congressional Notification threshold for non-NATO+5 
countries. Therefore, this designation will have no tangible benefit 
for the Philippines and would serve as a symbolic gesture of goodwill. 
Our focus is on helping the Philippines modernize platforms and improve 
maintenance and support systems while also identifying and providing 
selected new systems that it is able to effectively absorb. The 
Philippines does not have the same logistical wherewithal and 
absorptive capacity as Israel.
    Question. What efforts can be increased to ensure these supplies, 
and aid more broadly, are not slipping into the hands of terrorists?
    Answer. We have trust and confidence that our supplies and security 
assistance are going to its intended end users. Pursuant to the Arms 
Export Control Act (AECA), we are required to carry out comprehensive 
end use monitoring programs for arms sales and transfers authorized by 
the AECA and the Foreign Assistance Act (FAA) to verify with reasonable 
assurance that a recipient is in compliance with USG export controls.
    The Department of State, through our embassies overseas, 
administers the ``Blue Lantern'' end-use monitoring program for defense 
articles and services exported through Direct Commercial Sales (DCS) to 
ensure these articles are used for their intended purposes by their 
intended end-users. Blue Lantern is required under section 40(A) of the 
Arms Export Control Act. Blue Lantern is designed to verify the bona 
fides of foreign parties, confirm the legitimacy of transactions, and 
provide reasonable assurance that defense articles and services are 
being used for the purpose approved under State Department licenses. 
The Blue Lantern program involves all our allies and partners around 
the world and is an important confidence building measure.
    The end use monitoring program for defense articles and services 
sold through FMS is called ``Golden Sentry'' and is also required under 
section 40(A) of the AECA and is run by the Department of Defense 
(DOD). Golden Sentry is designed to provide reasonable assurance that 
the recipient is complying with the requirements imposed by the USG 
with respect to the use, transfer, and security of defense articles and 
defense services. It also provides for the end-use verification of 
defense articles and services that incorporate sensitive technology, 
and/or are particularly vulnerable to diversion or other misuse, or 
whose diversion or other misuse could have significant consequences.
    Question. What mechanisms are in place to ensure that the millions 
of dollars given to Iran under the Joint Comprehensive Plan of Action 
construct are not going to support the Islamic State or other terrorist 
organizations and create more instability in Syria and throughout the 
region?
    Answer. Iran is currently fighting the Islamic State in Iraq and 
the Levant (ISIL) directly and via its proxies; it does not support 
ISIL. Over the past three decades, however, Iran has used some of its 
resources to support terrorism. Iran has continued its support for 
Lebanese Hizballah, Palestinian terrorist groups in Gaza, and Shia 
militant groups in Iraq, including as part of an effort to fight ISIL 
and to bolster the Assad regime in Syria. As a result of its support 
for terrorist groups, Iran remains a designated State Sponsor of 
Terrorism. This is one reason why our non-nuclear related sanctions on 
Iran remain in place, and why we will continue to work with our 
partners in the region to counter Iran's malign activities.
    On January 16, the International Atomic Energy Agency (IAEA) 
verified that Iran had met key nuclear-related commitments as specified 
in the Joint Comprehensive Plan of Action (JCPOA), and the United 
States lifted nuclear-related sanctions on Iran, marking Implementation 
Day of the JCPOA. As part of the lifting of these sanctions, foreign 
financial institutions holding funds owed to Iran in accounts outside 
of the United States can release such funds to the Central Bank of Iran 
without being subject to U.S. secondary sanctions. We estimate that, as 
a result, Iran now has access to approximately $50 billion of its own 
funds.
    Iran's ongoing economic difficulties make it harder for Iran to 
divert large portions of the funds it gained access to from sanctions 
relief away from its domestic economy and toward its malign regional 
activities. For example, we estimate that Iran needs about half a 
trillion dollars to meet pressing investment needs and government 
obligations.
    We have numerous domestic authorities--including sanctions--to 
counter Iran's support for terrorism and other destabilizing 
activities. We will continue to enforce aggressively our sanctions 
related to Iran's support for terrorism, ballistic missile activities, 
regional destabilization, and human rights abuses.
    Question. Now that the President claims that Iran has fulfilled its 
commitments under the Joint Comprehensive Plan of Action, what is this 
administration's strategic outlook on the role of Iran in the Middle 
East?
    Answer. The purpose of the JCPOA was to address the international 
community's concerns with Iran's nuclear program. An Iran armed with a 
nuclear weapon would be able to project even more power in the region 
and would risk setting off a regional arms race. This is one of the 
reasons we worked so hard on a diplomatic solution to the nuclear 
issue. Full implementation of the JCPOA will ensure that Iran's nuclear 
program remains exclusively peaceful, and is a step in the right 
direction to begin addressing the other very serious concerns we have 
about Iran's malign regional activities.
    We continue to be deeply concerned about Iran's destabilizing 
activities in the region, which are a threat to us and our allies. We 
work intensively with our partners in the region, including the Gulf 
Cooperation Council (GCC) and Israel, to deter and disrupt Iranian 
threats. Examples of such cooperation include diplomatic and sanctions 
pressure on Islamic Revolutionary Guard Corps--Quds Force (IRGC-QF), 
sanctions on a range of Iranian entities for actions in Syria, military 
and diplomatic efforts to prevent an IRGC naval flotilla from docking 
in Yemen in April 2015 and the seizure of four dhows carrying weapons 
from Iran to Yemen since September 2015.
    Finding an effective political transition in Syria requires having 
a conversation with all stakeholders, including Iran. Iran has a 
relationship with the Asad regime and relationships inside Syria, so 
they need to be part of the conversation. That does not mean we 
overlook the negative aspects of that relationship. Iran continues to 
prop up the Asad regime, and it continues its support for terrorist 
organizations like Hizballah. As the President has said, after so much 
bloodshed and so much carnage, there cannot be a return to the pre-war 
status quo.
    While we continue to have strong disagreements with Iran and seek 
to counter its destabilizing activity, we also see that diplomacy with 
Iran can work. We have engaged with Iran in a humanitarian dialogue 
regarding consular issues. This resulted in the release of four dual 
U.S.-Iranian nationals held there unjustly. Additionally, our 
diplomatic engagement with Iran helped secure the quick release of 10 
detained sailors earlier this year, and prevented further escalation.
    This engagement is clearly in our interest. But it is up to Iran to 
decide whether or not to continue to pursue more constructive relations 
not just with the United States but with the rest of the world. If Iran 
chooses to build on the constructive outcomes of both the nuclear deal 
and the important humanitarian gestures taken by each of our countries 
in January, it would lead to a better future for the Iranian people.
    Question. With a change in administration next year, what advice 
would you provide to the next individual that will inherit the 
fractures and shambles of an America strategy for Middle East 
stability?
    Answer. The United States has been, is, and will remain deeply 
engaged in the Middle East and North Africa. We continue to be a strong 
force in the region, utilizing all elements of our national power in 
pursuit of our national interests of security and stability, economic 
growth, and advancement of democracy and human rights.
    We will continue to advance America's vital interests through 
diplomacy, dialogue, development programs, foreign assistance, trade, 
investment, and work with our allies. We must pursue our objectives 
with thought and consideration to advance our national interests and 
achieve sustainable regional security. We are deeply engaged in 
supporting diplomatic efforts by our partners in the international 
community to bring stability to the region, address the root causes of 
instability with job growth and economic liberalization, and promoting 
more open societies and democracies in the region.
    We cannot and should not impose our own unilateral agenda to solve 
regional instability. We have many tools to shape outcomes, but 
ultimately the decision to make the hard choices and compromises 
necessary to resolve conflicts rests with the governments of the 
region. With our partners' cooperation, we will build sustainable 
security that is in our long term interest and in the best interest of 
the region.
    Question. In the past year, what has the Department of State done 
and what will yet be done in the remaining 10 months of this 
administration, to promote in China the universal value of the right to 
life--a right that our own Declaration of Independence calls 
``inalienable''?
    Answer. We understand this question to arise primarily in relation 
to China's coercive birth limitation policies, which the Department has 
strongly and consistently opposed. We continue to promote the basic 
right of all couples and individuals to decide freely and responsibly, 
free from discrimination, coercion, or violence, the number, spacing, 
and timing of their children. In the Annual Human Rights Report 
released on April 13, the State Department found that China's birth-
limitation policies retained harshly coercive elements in law and 
practice, including in some cases, forced abortion and forced 
sterilization. Such restrictions are contrary to the universal human 
right of every man and every woman to found a family without any 
limitation, as enshrined in the Universal Declaration of Human Rights.
    In addition to documenting these human rights abuses and advocating 
for reform, the Department continues to focus on holding individual 
officials who are directly involved in establishing or enforcing these 
policies accountable under the provisions of fiscal year 2001-2002 
Foreign Relations Authorization Act, Section 801, Title VIII, Subtitle 
A, codified at 8 U.S.C. 1182e. This law, among other things, restricts 
the issuance of visas, with some exceptions, to foreign nationals who 
have been directly involved in the establishment or enforcement of 
population control policies forcing a woman to undergo an abortion or 
forcing a man or a woman to undergo sterilization.
    Although Chinese authorities announced an easing of the birth 
planning and population policy in October 2015 to allow all married 
couples to have two children, we look forward to the day when China 
abandons birth limitation policies altogether. In the meantime, we will 
continue to urge China and all countries to end coercive population 
policies, including the practice of forced abortion and forced 
sterilization.
    Question. The efficacy of institutional norms to temper the 
brinkmanship policies of nation-states is on public trial through 
competing international claims to disputed territories. Specifically, 
China is provoking an arms race in waters surrounding the Senkaku 
Islands and other parts of the South China Sea.
    Russia is staking claims to the North Pole through its continental 
shelf. These claims are based on the intent to secure exclusive 
economic zones, energy resources and fishing rights.
    Meanwhile, if the President's fiscal year 2017 State Department 
budget were to be implemented as requested, it would slash support to 
our Asia Pacific allies by $32 million dollars and degrade support to 
fishery initiatives by 10 percent.
    What is the State Department doing to address the root causes of 
competition and roll back the incentives to land grabs rather than 
concede to Russia and China's power projections?
    Answer. Our strategy is aimed at shaping the overall strategic 
environment in such a way that our and our allies and partners 
fundamental interests are upheld and that no claimant has a free hand 
to impose its will through coercion or the use of force.
    On the Senkaku islands in the East China Sea, the long standing 
U.S. position is that we do not take a position on the question of 
ultimate sovereignty over the islands. The Senkaku Islands have been 
under Japanese administration since the reversion of Okinawa in 1972; 
as such, they fall within the scope of Article 5 of the U.S.-Japan 
Treaty of Mutual Cooperation and Security. We have made it clear that 
we oppose unilateral attempts to undermine Japan's administration of 
the Islands.
    Overlapping continental shelves are inevitable in the Arctic Ocean, 
as elsewhere. In making its submission to the Commission on the Limits 
of the Continental Shelf (CLCS), Russia, like other Arctic coastal 
States, is following the appropriate procedure under the Law of the Sea 
Convention to determine the outer limits of its continental shelf.
    The question is whether countries in East Asia are being coerced or 
silenced into accepting unreasonable outcomes. With respect to the 
South China Sea, Southeast Asian claimants have continued to push back 
against provocative actions and claims including through the use of 
legal mechanisms and strengthening their law enforcement and military 
capabilities.
    We have played a vital role in shaping a regional environment that 
allows claimants to stand up against coercion, including through our 
diplomatic efforts and commitment to regional security. The United 
States will continue to stand up for international law and for a rules-
based international order.
    Question. In 2010 the administration announced a plan to refocus 
American attention to East Asia, in what would come to be known as the 
Asia Pivot. What are the tangible results of such a shift, if there are 
indeed any? And can you lay out our short- and long-term strategies on 
East Asia?

    Answer.
Accomplishments
    Since 2010, the administration has been reinforcing and expanding 
our efforts in the Asia-Pacific region with visible results. We have 
expanded our treaty alliances with Australia, Japan, the Republic of 
Korea (ROK), and the Philippines, while maintaining our long-standing 
alliance with Thailand. This includes the establishment of a U.S.-
Japan-ROK Ministerial dialogue, which contributed to a Japan and ROK 
resolution of the long standing ``comfort women'' issue on December 28, 
2015. We have enhanced our defense posture in the region and 
prioritized Asia for our most advanced military capabilities, and this 
includes the signing of the Enhanced Defense Cooperation Agreement 
(EDCA) with the Philippines in April 2014, the Force Posture Agreement 
(FPA) with Australia in June 2014, and updated Guidelines for U.S.-
Japan Defense Cooperation in April 2015. We have promoted stronger 
trade and investment links through our engagement in APEC, including 
delivering on a robust agenda as APEC host in 2011, and, using APEC to 
press for liberalization of services and guarantees of unfettered 
digital trade. In addition, the new, high-standard Trans-Pacific 
Partnership (TPP) with eleven other Asia-Pacific countries will deepen 
economic integration and establish regional rules-of-the-road through 
unprecedented environmental and labor standards. TPP will eliminate 
tariffs that impede trade, establish strong rules for intellectual 
property protection, crack down on wildlife trafficking, and promote a 
free and open Internet. We have deepened partnerships with Indonesia, 
Malaysia, Singapore, Vietnam, and New Zealand, and strengthened our 
unofficial relationship with the people of Taiwan. We fostered a more 
durable and productive relationship with China, defined by expanded 
areas of practical cooperation on global challenges such as climate 
change and DPRK, and constructive management of differences. 
Cooperation with China has produced tangible results, including China's 
UNSC vote to sanction DPRK this March. We have strengthened the 
region's institutional architecture to reinforce a rules-based order, 
including through joining the East Asia Summit (EAS) and sending the 
first resident U.S. Ambassador to ASEAN. We are helping the region 
build capable and accountable institutions while also promoting 
democratic practices, access to information, transparent and responsive 
governance, and more inclusive participation by marginalized groups in 
politics and government. We are supporting Burma's ongoing transition 
to democracy including the first ever democratic election in November 
2015. We have advanced people-to-people ties, through programs such as 
the Young Southeast Asian Leaders Initiative (YSEALI), facilitating 
hundreds of new exchanges, and thousands of new interactions, annually.
Short-term Goals
    In the short-term, we are focused on several achievable goals which 
will increase stability and foster economic prosperity. The Trans-
Pacific Partnership (TPP) is a concrete manifestation of our rebalance 
toward Asia. We are focused on ratification of TPP, which will include 
40 percent of global GDP and, according to the Peterson Institute, 
could provide real income benefits to the United States of $77 billion 
per year and eliminate over 18,000 taxes on U.S. exports. We will 
strengthen our partnerships and alliances, and build maritime domain 
awareness (MDA) and law enforcement capacity in Southeast Asia. We are 
working to manage flashpoints while seeking new opportunities to deepen 
cooperation on areas such as climate change, global public health, 
human rights, counter terrorism, nonproliferation, and other security 
challenges.
Long-term Goals
    For the longer term we are taking actions to help shape the Asia-
Pacific in ways that bolster U.S. allies and partners, bring more 
security and prosperity to the region, and create opportunities for 
increased trade and investment with the United States. To that end we 
seek to preserve and enhance a stable and diversified security order in 
which countries pursue their national objectives peacefully and in 
accordance with international law and shared norms and principles, 
including: the peaceful resolution of disputes; an open economic order 
that promotes strong, sustainable, balanced and inclusive growth 
through a level, competitive playing field; and a liberal political 
order that promotes peace and human dignity, based on human rights and 
the rule of law.
    We are strengthening cooperation among our partners in the region, 
leveraging their significant and growing capabilities to build a 
network of like-minded states that sustains and strengthens a rules-
based regional order and addresses regional and global challenges.
    We are working to raise the level of confidence of our allies and 
partners in the United States' commitment to the region, and engaging 
China as a partner in many areas. We are working to ensure that the 
region's multilateral political and security architecture remains 
ASEAN-centric and inclusive of the United States. We are also working 
to implement U.S.-bilateral defense agreements, and denuclearize North 
Korea.
    We are promoting increased prosperity for the region, seeking to 
ensure that Asia-Pacific countries adopt high standards, and 
transparent trade and investment practices that enable U.S. companies 
to compete on a level playing field in accordance with U.S. values. We 
also are taking actions to help ensure that Asia-Pacific economies 
adopt economic policies that support strong and sustainable economic 
growth, innovation, infrastructure development, and expanded trade and 
investment opportunities--and that the benefits of the economic growth 
in the region reach all members of society, including women and youth.
    We are promoting democracy and good governance across the Asia-
Pacific region by improving mechanisms for participation, and promoting 
respect for human rights.
                                 ______
                                 
                Questions Submitted to Kelly T. Clements
              Questions Submitted by Senator Steve Daines
    Question. Since the ceasefire in Syria took effect on February 27, 
what reports is United Nations High Commissioner for Refugees (UNHCR) 
getting back from the field on Russia's cooperation or hindrance to the 
humanitarian relief efforts on the ground?
    Answer. Speaking from its own direct operational experience and 
observation based on the delivery, both cross-line and cross-border, of 
protection and assistance to persons of concern in Syria, UNHCR does 
not have any reports specific to the facilitation role played by 
Russia.
    Question. What has proven to be the biggest obstacle in ensuring 
that humanitarian assistance gets to areas of highest need in Syria?
    Answer. As lead agency for three significant sectors, Protection, 
Emergency Shelter, and Core Relief Items, UNHCR is engaged in direct 
delivery as well as the coordination of the consolidated efforts of a 
range of international and national humanitarian partners. Our 
principal interlocutors in-country are national authorities, sister UN 
agencies, international and national Non-Governmental Organizations 
(NGOs), and civil society organizations.
    The main obstacle to the delivery of humanitarian assistance inside 
Syria it is the ongoing conflict and fighting which is once again 
increasing in many parts of the country. Ad-hoc security points, delays 
and restrictions of movement due to security and military activities 
are common. Some 408,200 people live in areas categorized as besieged 
and 4.1 million in areas categorised as hard-to-reach. Accessing people 
in need in besieged areas entails lengthy bilateral negotiations to 
obtain the required facilitation letters. There are often delays and 
inconsistencies in convoy approval procedures. The removal of medicine, 
health and nutrition materials (especially surgical kits) from convoys 
is an ongoing issue which has meant some life-saving medical assistance 
to some of those in need has not been provided.
    Following the cessation of hostilities taking effect on 27 February 
2016, humanitarian access to besieged and hard-to-reach areas improved 
and the number of inter-agency convoys (IACs) delivering assistance 
significantly increased. There were 21 IACs in March reaching the 
``Four Towns'' (Foah, Kafraya, Madaya and Zabadani), Al Waer and 
multiple locations in Rural Damascus. This improved trend continued in 
April, with 31 IACs reaching Afrin, Azaz, Deir-ez-Zor, Homs city and 
governorate, Rural Damascus, and the Four Towns. This compares to only 
8 operations in January and a few operations in the last months of 
2015. However, even with the achievements in the period March-April 
2016, the shortfall in reaching and sustaining predictable access to 
all civilians in need of humanitarian assistance continues to be very 
large and unacceptable.
    The Government of Syria (GoS) has simplified the procedures for 
approval of IACs, working in response to advance planning on a monthly 
basis to increase the number and predictability of IACs. Responses 
however continue to fall short of the stated commitment and capacity of 
the United Nations and partners to prioritize the most urgent 
humanitarian needs of all civilians. The United Nations continues to 
push for approvals for all locations submitted in monthly plans and 
advocates for approvals for all medical items, including surgical and 
mental health items, as part of the convoys.
    As a result of the ongoing conflict the areas where IDPs are able 
to move to are shrinking, particularly in areas such as northern 
Aleppo. The movement of civilians out of cities such as Aleppo is also 
hampered by roads being cut off or dangerous due to fighting.
    Many traditional supply routes have also been closed (temporarily 
or longer-term), which is a significant hindrance to the delivery of 
humanitarian assistance. For example, the closure of Nusaybein border 
crossing point which used to be a major supply route for UNHCR and the 
U.N. in the north-Syria led to the isolation of Qamyshli and Hassakeh, 
where stocks are now running low and can be replenished only through 
airlifts. The first of six airlifts planned for May by UNHCR Damascus 
was tentatively planned to commence on 14 May, however approval from 
MoFA has not yet been received. The airlifts will deliver the items 
which are now run out of stock in UNHCR's warehouse in Qamyshli, namely 
high-thermal blankets, plastic sheets and kitchen sets.
    Notwithstanding the challenges, as at 11 May interagency operations 
from inside Syria have reached 781,425 people in need (255,250 in 
besieged locations, 476,175 in hard-to-reach locations and 50,000 in 
priority cross-line areas) since the beginning of the year. Many of 
these people were reached more than once, and assistance has included 
food, health assistance, non-food items, nutrition supplies, water and 
sanitation support and education supplies.
    In terms of cross-border assistance, the United Nations and its 
implementing partners have so far this year (to the end of April) sent 
75 convoys from Turkey and Jordan to the Syrian Arab Republic under the 
terms of resolutions 2165 (2014), 2191 (2014) and 2258 (2015), 
benefiting millions of people. From July 2014 to the end of April 2016, 
more than 7 million people have been reached with assistance via cross-
border operations.
    Facing numerous access restrictions in the delivery of effective 
protection interventions UNHCR's focus is on community-based protection 
and outreach, the establishment/expansion of protection monitoring 
systems, civil documentation programming, and IDP tracking mechanisms. 
Thirty-nine UNHCR community centres in 10 governorates offer integrated 
protection services ranging from legal aid, education and livelihood 
support to psycho-social support, prevention and response to sexual and 
gender-based violence, and child protection interventions. Subject to 
humanitarian access and sufficient funding, UNHCR is planning to expand 
the network of community centres to 100, and its network of outreach 
volunteers' to 2,000 in the course of 2016, aiming to prioritize 
coverage in the locations with the largest presence of IDPs in 11 out 
of the 14 Syrian governorates.

                         CONCLUSION OF HEARINGS

    Senator Graham. The hearing is adjourned.
    [Whereupon, at 4:14 p.m., Tuesday, April 12, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]
                   MATERIALS SUBMITTED FOR THE RECORD

                              ----------                              


                  Submitted by Senator Lindsey Graham

 Prepared Statement of Susan Reichle, Counselor, United States Agency 
                     for International Development
    Mr. Chairman, members of the subcommittee, thank you for the 
opportunity to provide a written statement on behalf of the United 
States Agency for International Development (USAID) on the role of 
development in preventing violent extremism. It is a privilege to be 
able to inform the current debate on an issue the development community 
has discussed for decades. There are few issues more important to our 
national security than countering the rapidly growing scourge of 
violence perpetrated on innocent civilians by terrorist organizations.
    Violent extremism is not necessarily tied to a particular religion, 
ideology, or set of political beliefs, although there is consistency in 
the extreme ideology propagated and exploited by various terrorist 
organizations including Daesh to justify their violence. What has 
emerged in recent years is a movement of followers adhering to beliefs 
of intolerance and disregard for life, attracting new followers whose 
numbers are growing each year.
    Just as we have faced other global threats with defense, diplomacy 
and development, so, too, must we use these tools to prevent violent 
extremism. Understanding the underlying ``drivers'' and identifying 
effective responses to address the root causes of the spread of violent 
extremism is critical.
    USAID is in a unique position as the United States Government's 
lead development agency to address these underlying drivers. It is not 
an ``either'' ``or'' question of which tool to use, but rather a matter 
of effectively utilizing all of the elements of what we know to work. 
With that said, USAID's efforts are essential but not sufficient. We 
must engage in a comprehensive approach in order to defeat this growing 
threat.
                       the international response
    The international community is galvanizing around the importance of 
prevention as a critical element in this sequenced approach. Just last 
week in Geneva, policymakers gathered to discuss the United Nations 
Plan of Action on preventing violent extremism. Participants noted that 
while military force is highly effective when it comes to defeating an 
individual or an army, we cannot militarily defeat an idea. For that, 
we have to expand how we are looking at the problems driving the 
underlying issues.
    USAID is working with international partners, including the World 
Bank, the United Nations Development Program, the European Union, and 
the United Kingdom, to establish and expand the network of donors 
focused on countering violent extremism and coordinating prevention 
programming. This forum to create a Community of Practice will allow 
donor organizations to learn from each other and to better coordinate 
programs. We also expect to develop voluntary guidelines for the 
implementation of countering violent extremism programs. While 
initially comprised of donors, we expect civil society and other 
partners to join as well. The Community of Practice will become an 
informal body for coordination for the donors and practitioners of 
countering violent extremism.
    USAID is also engaged in regular discussions with the European 
Union's Development Commission on coordinating programming in Africa 
and the Middle East. Through regular visits and coordination at the 
headquarters level, we are promoting greater cooperation at the country 
level.
                         usaid policy approach
    USAID is first and foremost a development Agency. Our teams are 
well placed in host countries to analyze local dynamics, assess 
potential partners, and develop and implement programs to address 
development challenges. USAID has been engaged in prevention-oriented 
CVE programming for approximately a decade. Our approach is rooted in 
analytical tools that identify drivers of violent extremism and 
elements of resilience in communities, and the design of evidence-based 
programming. USAID implements programs aimed at increasing access to 
opportunity, improving local and national governance, promoting 
dialogue and social cohesion, and mitigating conflict so as to improve 
the conditions and reduce the vulnerability of local communities to 
extremists.
    Countering violent extremism refers to proactive actions to counter 
efforts by violent extremists to radicalize, recruit, and mobilize 
followers to violence and to address specific factors that facilitate 
violent extremist recruitment and radicalization to violence. This 
includes both disrupting the tactics used by violent extremists to 
attract new recruits to violence and building specific alternatives, 
narratives, capabilities, and resiliencies in targeted communities and 
populations to reduce the risk of radicalization and recruitment to 
violence.
    USAID's work has evolved over the past decade, and continues to 
adapt to the rapidly changing environment. We have learned that 
successful programs need to be part of a broad, comprehensive effort, 
coordinated with the State Department, other donors, and most 
importantly, with local actors on the ground. While our primary mission 
is to partner to end extreme poverty, promote inclusive growth, and 
foster resilient democratic societies, we clearly recognize many of 
these underlying drivers of violent extremism can be addressed through 
an integrated approach.
    To further our efforts, as called for in the second Quadrennial 
Diplomacy and Development Review (QDDR), USAID is establishing a 
Secretariat for Countering Violent Extremism. The Secretariat will be 
an executive level body with reporting responsibilities to the 
Assistant Administrator for Democracy, Conflict, and Humanitarian 
Assistance (DCHA) and to the Agency Counselor to ensure front office 
involvement. The Secretariat will work to elevate the efforts of the 
technical-level Countering Violent Extremism Steering Committee, which 
was established in 2011. The Secretariat will work with bureaus and 
USAID Missions around the globe to be a resource on best practices and 
to support in the development and execution of programs in USAID 
Missions.
    In 2011, USAID issued a policy, The Development Response to Violent 
Extremism, informed by years of programming and analysis, and 
continually refined based on additional research. The policy 
categorized drivers of violent extremism generally as ``push'' and 
``pull'' factors to better tailor USAID's interventions.
    Push factors create the opportunities for violent extremists to 
gain traction. They can emanate from institutional and societal 
failures, such as systematic and gross human rights violations, 
ungoverned or poorly governed spaces, political, economic or social 
marginalization, or endemic corruption and impunity. Such deficits--
whether real or perceived, experienced directly or witnessed from 
afar--can make individuals or entire communities vulnerable to adopting 
violent extremist ideology or aligning with violent extremist groups. 
Pull factors, in contrast, help explain how adherents to violent 
extremism are able to attract recruits, appealing to people's 
individual aspirations, such as those for material resources, economic 
and/or social status, spiritual guidance and purpose, adventure, 
friendship, or ideology, including through the use of the Internet and 
social media.
    While the combination of factors is often specific to countries or 
even individual communities, we have learned that a whole-of-society 
approach is essential--in line with the conclusion of the White House 
Summit on Countering Violent Extremism 1 year ago. All parts of society 
must be engaged, including local governments, local NGOs, faith based 
leaders, the private sector and parents--frequently mothers--who are 
often the first to recognize signs of extremist behavior. The Summit 
also emphasized the need to focus on local solutions, which has been 
the approach taken by USAID for years.
    Gender is also a critical element in addressing violent extremism. 
We must move beyond generalized assumptions about men and women based 
on common gender stereotypes, recognizing that gender norms for men and 
women manifest differently in various social, political, and economic 
contexts. For example, women are not only victims of violent extremism 
but can be both perpetrators and critical to prevention. As such, a 
nuanced and context-specific understanding of gender is needed to 
accurately diagnose the push and pull factors that drive both men and 
women to participate in violent extremism, a space which has been 
largely unaddressed in the research.
    At the grassroots level, USAID-funded case study research on gender 
and countering violent extremism at the national level are underway--
including two in depth assessments in the Middle East and two in North 
Africa. The research seeks to understand women's participation in, 
motivations for, and roles in violent extremist organizations; the 
analysis will include broad recommendations on how policymakers might 
work to decrease women's involvement in violent extremist organizations 
across the regions through programmatic interventions.
         usaid's prevention response--analysis and programming
    USAID aims to prevent the spread of violent extremism through 
targeted efforts to promote good governance and the rule of law, 
respect for human rights, and sustainable, inclusive development, among 
other programs. Together with State, USAID is bringing its development 
expertise and more than a decade of experience in countering violent 
extremism programming to bear in precisely these environments--
harnessing the full range of analytic tools to design, support, and 
measure programs that reduce the vulnerabilities of communities and 
build local capacity to resist extremist groups. This is an essential 
element of the Agency's integrated approach, which begins with 
prevention.
    We have developed the first-ever joint USAID and State Department 
strategy on preventing and countering violent extremism which embraces 
the principles and approaches in USAID's CVE policy. This joint 
strategy addresses five key areas: (1) deepening international 
understanding of the drivers of violent extremism and mobilizing 
effective multilateral interventions; (2) assisting partner governments 
to adopt more effective policies and approaches to prevent the spread 
of violent extremism; (3) analyzing and designing development programs 
to reduce specific political and/or economic factors that contribute to 
community support for violent extremism in identifiable areas; (4) 
empowering and amplifying credible local voices that can change the 
perception of violent extremist groups; and (5) strengthening the 
capabilities of government and non-government actors to isolate, 
intervene and promote the rehabilitation and reintegration of 
individuals caught in the cycle of radicalization.
    As an example of this collaboration, together with the Bureau for 
Conflict and Stabilization Operations (CSO) at the State Department, we 
recently launched the Researching Solutions for Violent Extremism 
(RESOLVE) network. With an emphasis on supporting the work of local 
research, RESOLVE will engage policymakers, practitioners, and 
researchers to develop a better understanding of local drivers and 
effective responses.

    Through work with CSO, we have identified several drivers of 
extremism:

  --State sponsored violence is highly correlated with the emergence of 
        violent extremist organizations. Countries with above average 
        levels of state sponsored terror double their risk of 
        terrorists groups emerging. Additionally, low levels of 
        political rights and civil liberties, constitute a significant 
        predictor of increased levels of state-sponsored violence.
  --Survey data suggests that terrorists are no more likely to be poor 
        or unemployed or come from poorer backgrounds. In fact, those 
        who are extremely poor are significantly less likely to support 
        violent extremism than those who are not extremely poor. In 
        some cases, however, a negative outlook regarding personal 
        economic conditions is associated with extremist violence.

    USAID sponsored a series of CVE studies looking at the risk of 
home-grown threats by violent extremist groups in Central Asia and the 
role of Central Asians in supporting violent extremist organizations in 
Iraq and Syria. The latter study helped identify the radicalization of 
Central Asian labor migrants working in Russia as the key contributing 
factor. USAID is responding to this problem in several ways. In the 
Kyrgyz Republic and Tajikistan, USAID supports potential labor migrants 
by providing pre-departure orientations on legal rights and 
responsibilities in an effort to avoid potential legal problems, and by 
linking them with support networks in destination countries that 
provide services to isolated and disenchanted migrants at risk of 
radicalization. The program will also provide legal assistance, 
counseling, and job-referral services to returning migrants, 
particularly those whom Russia has banned for re-entry and are a key 
target of extremist recruitment. In Uzbekistan, which has the largest 
number of migrants in Russia, USAID mitigates the pull toward extremism 
and radicalization by providing key populations with agriculture-
related employment opportunities, and provides returning migrants with 
reintegration services, legal support, counseling and referral 
services, vocational training, and linking them with potential 
employers.
    Where the U.S. Government has invested in diplomatic and 
developmental efforts to mitigate violence, we have seen success in 
reducing support for political violence and facilitating sustainable 
peace that is one of the key requirements to build community resilience 
and create conditions to address underlying drivers.
    In Niger, the USAID Peace through Development II project has 
reached 40 communities across the regions of Agadez, Diffa, Maradi, 
Tahoua, Tillaberri, Zinder and the capital district of Niamey. By 
producing and delivering original radio content aimed at countering 
extremist narratives that was broadcast across 33 partner stations, the 
program has reached over 1.7 million people from groups at-risk of 
violent extremism. The program has directly engaged nearly 100,000 
people through civic education, moderate voice promotion and youth 
empowerment?themed events.
    In Mali, where the rate of recruitment was particularly high during 
occupation by violent extremists in 2012, USAID conducted an assessment 
and piloted a program to reduce the isolation and marginalization of 
target communities. After fostering trust by responding to basic needs, 
the program quickly pivoted to activities that built ties between 
communities through things like soccer tournaments, dialogues, youth 
conferences. A social network analysis conducted during the program 
found that community integration had already increased by 11 percent 
and led, in particular, to more tolerant views on the rights and role 
of women in society and decreased favorable perceptions of armed 
groups, including al Qaeda-linked group MUJAO. So these programs can be 
effective, and we've seen it on the ground.
    In Iraq, new Mercy Corps research provides evidence that civil 
society building programs contributed to reduced support for ISIL and 
other extremist groups where citizens have an improved perception of 
the prospect of government efficacy.\1\
---------------------------------------------------------------------------
    \1\ https://www.mercycorps.org/research-resources/investing-iraqs-
peace-how-good-governance-can-diminish-support-violent-extremism.
---------------------------------------------------------------------------
    In Nigeria, community-led anti-recruitment narratives that expose 
the lies and hypocrisies of Boko Haram's promises are successfully 
preventing youth from joining.\2\ The messengers of these counter 
recruitment campaigns are local youth themselves, community religious 
and traditional leaders, teachers, mothers, and local authorities.
---------------------------------------------------------------------------
    \2\ https://www.mercycorps.org/research-resources/motivations-and-
empty-promises-voices-former-boko-haram-combatants-and-nigerian.
---------------------------------------------------------------------------
    USAID is operating similar programs in more than a dozen countries. 
Each program is targeted to address specific drivers of violent 
extremism. We are seeing incremental progress, but more robust efforts 
are needed. With the additional funding requested in fiscal year 2017, 
USAID can expand the current portfolio of programs to better address 
drivers, and initiate new programs as the needs emerge.
                               conclusion
    While development programming alone cannot defeat violent 
extremism, it can have a decisive impact, especially when it is part of 
an integrated approach along with defense and diplomacy, informed by 
deep analysis of the root causes of extremism, and uses best practices 
to address these root causes. USAID is grateful for the strong 
bipartisan support and engagement of this subcommittee, its staff, and 
other congressional leaders. We are pleased to address any concerns or 
questions you may have. Thank you very much.
                                 ______
                                 
  Prepared Statement of Richard Leach, President and CEO of the World 
                            Food Program USA
    Chairman Graham, Ranking Member Leahy, and members of the 
subcommittee, thank you for convening this hearing on violent extremism 
and the role of foreign assistance. As you know, the World Food 
Programme has a long history of success in fighting hunger and food 
insecurity on a global scale. We at WFPUSA recognize that food 
assistance is an important element in overall humanitarian relief 
efforts and are concerned that the scale of need is rapidly outpacing 
the ability of the international community to cope with the unfolding 
human tragedy and historic challenges to security.
    In that context, on 12 April, WFPUSA together with partners CARE, 
International Rescue Committee, Mercy Corps, Oxfam America, Save the 
Children, U.S., the U.S. Fund for UNICEF, and the U.S. Institute for 
Peace released a report entitled ``A World at Risk: Humanitarian 
Response at a Crossroads'', which I believe speaks directly to the 
subject of this hearing. I would like to present an overview of that 
report.
    The humanitarian system is struggling to keep pace with the 
seemingly ever-growing demands placed on it. Today there are more than 
60 million refugees, asylum-seekers and internally displaced persons 
worldwide as a result of conflict and persecution--the most since World 
War II. At the same time, the human and economic costs of disasters 
caused by natural hazards have also been steadily escalating. Since 
2008, nearly 175 million people who live in developing countries have 
been displaced by natural disasters.
    The growth in humanitarian crises and the associated financial 
needs has been dramatic. At the time of its launch, the 2016 Global 
Humanitarian Appeal requested an unprecedented $20 billion to assist 
more than 87 million people in 37 countries. Despite the generosity 
demonstrated by increased support from donors over the years, huge gaps 
between appeal requirements and confirmed contributions continue. Just 
54 percent of the needs outlined in the 2015 appeal were funded. These 
shortfalls in resourcing translate into cuts of basic assistance and 
services to vulnerable populations, the majority of whom are women and 
children.
    Despite the protracted nature of many of the world's conflict-
related crises, humanitarian assistance has been overwhelmingly focused 
on immediate life-saving actions. Addressing the needs of the 
increasing numbers of people affected by crises is, however, not only a 
concern and responsibility for the humanitarian community. It is a 
development challenge as well. Given that the average length of 
displacement for a refugee today is 17 years, it is clear that 
strategies for assistance should no longer be framed with a short-term 
lens. Further, they must be defined by greater alignment of the 
capacities of both relief and development partners.
    Political leaders, policy makers and the public must understand 
that in addition to our moral obligation to our fellow men, women and 
children affected by crises, there are important issues of public 
interest at stake. Conflict, natural disasters and public health 
emergencies do not respect national borders. Countries hosting 
refugees, often middle-income and developing countries themselves, are 
on the front-lines of providing assistance and protection. Among them 
are Jordan, Lebanon, Turkey, Ethiopia and Kenya. They must be 
recognized as providing a global public good and should be supported by 
the international community to ensure they are able to meet both the 
needs of refugees as well as their own vulnerable populations.
    An estimated 1.4 billion people today live in fragile countries, a 
third of which are conflict-affected. By 2030--just 14 years from now--
two thirds of the world's poor are likely to be living in nations 
classified as fragile. With the current humanitarian system under 
tremendous strain and the achievement of the Sustainable Development 
Agenda in jeopardy, urgent action is needed. National governments, 
donors, humanitarian and development organizations, the International 
Financial Institutions, private sector and affected communities must 
step up to ensure the needs of conflict-affected populations are met 
with no one left behind.

    The report makes a number of key recommendations:

    We need better financing with:

  --More predictable, timely, multi-year and flexible resources from an 
        expanded donor base;
  --Immediate life-saving funding complemented by resources in support 
        of preparedness, disaster risk reduction, recovery and 
        resilience-building;
  --Greater engagement of the International Financial Institutions in 
        helping crisis-affected and refugee-hosting countries to access 
        development financing;
  --The resources, skills and capacities of the private sector being 
        more fully leveraged.

    We must overcome the Humanitarian/Development Divide with:

  --More integrated planning and programming at the country level;
  --Greater collaboration in joint needs analyses and risk assessments;
  --Combined efforts to strengthen national and local capacities in 
        disaster preparedness and risk reduction, emergency response 
        and recovery, and resilience building;
  --Strengthened partnerships in support of national safety net systems 
        in fragile, conflict-affected and refugee-hosting countries.

    We need to increase accountability with:

  --Humanitarian organizations renewing commitments to ensure 
        efficiency, cost-effectiveness and transparency in their 
        operations;
  --Women being empowered to realize their rights to assistance and 
        protection, including from gender-based violence, and to be 
        leaders in crisis response and recovery;
  --Children having access to basic assistance and protection, 
        including comprehensive services that prevent and respond to 
        all forms of child abuse, exploitation and neglect;
  --Crisis-affected populations having a greater voice and more control 
        over resources.

    It must always be remembered that although the humanitarian 
community is committed to meeting the needs of those affected by 
crisis, wherever in the world they reside, humanitarian action can 
never serve as a substitute for the political will and action needed to 
address the root causes of conflict and to reach sustainable peace 
agreements.
    I would like to thank you again for the opportunity to provide this 
statement and to share an abbreviated account of our report. I also 
want to thank you for recognition of these serious issues and your 
dedication to working toward lasting solutions to this global crisis.
                                 ______
                                 
    Prepared Statement of Nancy Lindborg, President, United States 
                           Institute of Peace
                              introduction
    Chairman Graham, Ranking Member Leahy, and members of the 
subcommittee, thank you for the opportunity to submit testimony on the 
causes and consequences of violent extremism and the role of foreign 
assistance. Your attention on this issue is urgently needed and very 
much appreciated.
    I testify before you today as the president of the United States 
Institute of Peace (USIP), although the views expressed here are my 
own. USIP was established by Congress over 30 years ago as an 
independent, national institute dedicated to the proposition that peace 
is possible, practical and essential to our national and global 
security. It engages directly in conflict zones and provide tools, 
analysis, training, education and resources to those working for peace. 
In our world today, one of the most pressing challenges to peace is the 
expanding reach and destabilizing impact of violent extremism.
    Violent extremism in today's globalized and technology-driven world 
is not confined by borders. While the dynamics around groups such as 
ISIS, Boko Haram, al-Shabab and the Taliban are interrelated and 
certainly influenced by geo-politics, the reasons these groups emerged 
and the reasons individuals join their campaigns are complex, distinct, 
and locally unique. Recently, the tragedies in Brussels, Paris and 
Turkey demonstrate the global reach of violent extremists. Yet, the 
majority (over 80 percent) of those who die from terrorist attacks are 
in only three regions of the world: Iraq/Syria, Afghanistan/Pakistan, 
and Nigeria.
    These are places where violent extremist groups have harnessed 
their global agendas to local conflict dynamics and structural 
challenges, enabling them to exploit the grievances of individuals and 
communities. These are also countries where USIP has focused on work to 
build the capacity of governments and civil society to help create 
safe, peaceful and resilient communities that are able to resist the 
lure of violent extremist ideologies.
    USIP's approach to the problem of violent extremism is to 
investigate and advance a nuanced understanding of what drives violent 
extremism, locally and globally. USIP then develops and implements 
solutions that address root causes of this violence. Already it's 
known, through empirical research,\1\ that violent extremism is caused 
in large part by grievances tied to social marginalization, political 
exclusion, lack of access to justice or resources, and repression or 
abuse by state and security services in these counties. A well-
documented example is the condition of the 2 million-plus ethnic 
Somalis living in Kenya, and the growth among them of al-Shabab.
---------------------------------------------------------------------------
    \1\ USAID, Guide to the Drivers of Extremism (2009). http://
pdf.usaid.gov/pdf_docs/Pnadt978.pdf.
---------------------------------------------------------------------------
    The United States needs urgently to provide assistance to these 
countries to strengthen the rule of law, human rights, and inclusive 
political processes, as well as build the capacity of local communities 
to identify and develop non-violent and practical solutions to address 
these problems. This approach must be measured and rigorous. To this 
end, I offer three priorities for foreign assistance:
    (1)  understand and communicate that local context is the key to 
                          effective solutions
    Violent extremism is a global and interrelated trend but the 
reasons why a female suicide bomber in Nigeria supports Boko Haram, 
ethnic Moroccans in Brussels join ISIS, or Kenya Somalis join Al Shabab 
are all different. Understanding these differences and unique contexts 
are key to developing sustainable responses and approaches to prevent 
radicalization. USIP is leading efforts, notably with State Department 
cooperation, to advance research on the local causes and effective 
solutions to violent extremism through the launch and support of the 
RESOLVE network, an initiative launched by the White House in 2015. 
This global knowledge platform is designed to catalyze and disseminate 
local-level research to help inform policy makers and practitioners in 
designing interventions that are impactful and grounded in an 
understanding of local realities. USIP has begun the launch of the Web 
site and is now assembling the research network for this initiative.
  (2) responsible and just law enforcement and security responses are 
                                crucial
    Violent extremist groups often seek to provoke overreaction by 
states with the expectation that repressive responses will add to the 
justification for their violence and galvanize recruitment. Those 
countries faced with significant threats of violent extremism need the 
capacity to deliver a measured and proportionate law enforcement and 
security response to attacks and any ongoing threats by violent 
extremists. Heavy-handed tactics, extra-legal and ``special'' measures, 
especially those that abrogate civil rights and liberties, may 
temporarily reassure a scared public but often serve to fuel the 
grievances that motivate the violence and advance the agenda of 
extremists. Countries where terror attacks are concentrated are highly 
correlated with those where the state commits gross human rights 
abuses, such as extra-judicial killings, according to research 
underpinning the annual Global Terrorism Index.\2\ In countries facing 
violent extremism, USIP dedicates significant resources to promoting 
the rule of law and training security services to address the 
challenges of terrorism and other significant security threats in just 
and sustainable ways. USIP has trained hundreds of police officers, 
judges, corrections and border officials from conflict-prone countries 
around the world in democratic policing and the rule of law, and helped 
support their ability to work with communities in viable and productive 
ways. From this training, police and judicial officials from countries 
such as Tunisia and Lebanon have launched their own projects to improve 
their local security services.
---------------------------------------------------------------------------
    \2\ Institute for Economics and Peace, Global Terrorism Index 2014 
(2014). http://www.visionofhumanity.org/sites/default/files/
Global%20Terrorism%20Index%20Report%202014_
0.pdf.
---------------------------------------------------------------------------
 (3) efforts to prevent violent extremism must move beyond a security 
 response to focus on empowering and enabling civil society/communities
    Early prevention of violent extremism and radicalization is not 
achievable by the state and security services alone. Families and 
community leaders are best positioned to identify early those at risk 
of radicalization and helping them move in a different direction by 
promoting values of peace and respect for diversity and non-violence. 
The grievances that fuel radicalization often are exacerbated by an 
absence of social, peer and family support, as well as a lack of skills 
or ability to identify and develop non-violent, practical solutions to 
these problems. USIP helps provide community leaders with the 
knowledge, skills and resources needed to do this, and works 
specifically with youth, women and religious leaders to build their 
ability to steer their communities to more positive alternatives. A 
series of USIP-led training and dialogues in Nigeria helped galvanize 
the first women-led community town hall series in Jos, Plateau state, 
bringing together hundreds of community members--including civil 
society leaders and police--to jointly address the increasing threat of 
Boko Haram in their community. USIP facilitated dialogues and projects 
in Afghanistan and Pakistan have brought together more than 250 secular 
(university and high school) and madrassa students to help reduce 
prejudice towards those outside their own traditions and foster mutual 
respect and trust--and in this way, build resilience to the influence 
of extremism.
Recommendations:
    There is urgency to develop a clear evidence-based strategy to 
prevent the spread and growth of violent extremism; a strategy that 
addresses the root causes of violent extremism in each unique context. 
In order to move beyond a disparate set of approaches to the problem, I 
recommend the following:

    Invest in local research and testing what works. The more we 
understand about the local causes and dynamics of violent extremism and 
evaluating what works to mitigate it, the more effective we will be in 
addressing this challenge.
    Match military and law enforcement support with a commitment to 
reform. Those countries the U.S. is equipping to fight terrorism also 
run the risk of creating more terrorists and exacerbating the problem 
if this support is not coupled with a parallel commitment to developing 
their capacity to pursue democratic and rights-based approaches.
    Prioritize support to build inclusive, tolerant and resilient 
communities. Promoting, supporting and protecting the role of 
communities to address the challenges of violent extremism is critical. 
Empowering the role of women, engaging youth and faith leaders, and 
creating safe spaces for communities to develop authentic and local 
solutions to the problem of violent extremism is essential.

    --The views expressed in this testimony are those of the author and 
not the U.S. Institute of Peace.
                                 ______
                                 
    Prepared Statement of Andrea Koppel, Vice President for Global 
                   Engagement and Policy, Mercy Corps
    Chairman Graham, Ranking Member Leahy, and members of the 
subcommittee, thank you for convening this timely and important hearing 
on the causes and consequences of violent extremism on and the role of 
foreign assistance. Mercy Corps had the honor of hosting Chairman 
Senator Graham and Bono in Turkey just days before the arranging of 
this hearing.
    As you know, Mercy Corps is a global humanitarian and development 
organization working in over 40 crisis affected countries around to 
help communities break cycles of chronic vulnerability, suffering, and 
oppression by building productive, secure and just communities. We 
believe helping communities break cycles of violence and promote 
peaceful change is at the heart of Mercy Corps' mandate. Since the late 
1990s, we have implemented over 100 peacebuilding programs in over 30 
countries and regions, making us a leader in the field of conflict 
reduction. We currently implement over 30 peacebuilding programs worth 
$54 million in 16 countries including Iraq, Afghanistan, Pakistan, 
Nigeria, Yemen, Jordan, Colombia, Somalia, Central African Republic, 
and Kenya.
    For too long, the humanitarian and development communities have 
failed to focus our energies and tools on addressing the drivers of 
violence. At the same time, geopolitics and hard security foreign 
policy approaches often fuel the types of violence they allegedly seek 
to reduce. To help solve these problems, Mercy Corps has committed 
extensive resources towards generating and applying new evidence to 
better understand the drivers and effects of political violence and 
violent extremism in fragile states. We now have a rich body of 
evidence on conflict trends and drivers that we apply to both improving 
the contributions of our programming on stability and advancing 
effective conflict reduction policies.
What do we know about political violence and violent extremism?
    In the 1990s and early 2000s, our understanding of ``why youth 
fight'' revolved around the idea that unemployment and poverty were the 
primary drivers of political violence and by extension violent 
extremism. Particularly in the post-9/11 era, major foreign aid donors 
pushed out large sums of aid to improve employment or reduce poverty 
among ``target populations''--often under short timeframes and with the 
intention to ``complement'' military ``counter-terrorism'' operations--
assuming that improved economic outcomes would reduce support for armed 
violence.
    However, Mercy Corps' research, as well as that of other 
researchers and organizations, has found very little evidence that 
employment and other economic factors are the primary drivers of 
violence among youth. For example our analysis of survey data across 13 
SSA countries found that employment status very rarely predicted 
support or participation in political violence. Similarly an impact 
evaluation of our vocational training program in Helmand Afghanistan, 
showed that the program had no effect on shifting attitudes about the 
Taliban, even though it successful increased employment amongst youth. 
This is not to say that investing in programs that create jobs for 
youth is not important, nor that in some cases, frustrations over 
unemployment cannot lead some youth to take up arms.
    Similarly, our research increasingly shows that ideology or 
religion is also overplayed as a driver of violent extremism (VE). From 
Nigeria to Jordan, many former fighters who we have interviewed have 
told us that they were not especially religious before joining a 
violent extremist organization (VEO). Rather it is often the way in 
which armed groups package and offer the revolutionary nature of 
radical Islam and violence that appeals to disillusioned youth seeking 
recognition, a sense of meaning, or the opportunity to right an 
injustice. As Olivier Roy put it, we are seeing it is not the 
``Radicalization of Islam'' we are seeing but rather the ``Islamization 
of radicalism.''

    So what factors are more frequently associated with political 
violence and violent extremism?

    1.  Our core research, including a 3 country study of youth and 
violence in Somalia, Afghanistan and Columbia, argues that the 
principal drivers of political violence are rooted not in poverty but 
in experiences of injustice: perceptions of discrimination, corruption 
and abuse by government security forces. Injustice--whether experienced 
as an individual or through the ``collective shaming'' of one's group--
brews hopelessness, disenfranchisement and marginalization and is often 
a precursor to violent behavior.
    2.  A second critical factor we confirm as a driver of VE is 
exposure to violence. According to a study we carried out in 
Afghanistan, exposure to violence perpetrated by government forces was 
a key predictor of support for the Taliban. Similarly Mercy Corps 
research, examining attitudes towards political violence across Sub-
Saharan Africa, also found that being a victim of violence was the most 
consistent predictor of support or participation in political violence.
    3.  Thirdly, in addition to perceived injustice and exposure to 
violence, unmet or frustrated expectations also play prominently in 
radicalization and propensity towards violence. Our recent study of 
former Boko Haram fighters found that many of the young men who support 
or join had struggled to meet their society's expectations of adulthood 
and manhood including financial independence and marriage. Thus 
conceptions of masculinity, respect and status for many youth factored 
significantly into decisions about whether or not to join violent 
extremist organizations (VEOs), which in many cases offer young people 
opportunities to realize their ambitions.
How is violent extremism affecting the humanitarian and development 
        landscape?
    We broadly endorse the position of the International Crisis Group 
that violent extremism is caused by violent conflict more than violent 
extremism causes violent conflict. It is a vital distinction for policy 
consideration. We urge governments, including the United States, to 
prioritize foreign policy frameworks rooted in principles of conflict 
reduction and development over ``counter-terrorism'' or ``counter-
violent extremism'' frameworks. Policy frameworks that set conflict 
reduction, good governance, and development as their end goals are more 
likely than reactive ``countering'' frameworks to create the incentive 
structures within societies in which a person will choose to reject 
armed violence, including VE.
    That being said, we see actions by VEOs devastating the communities 
we serve daily--from Syria to Iraq, Tunisia to Mali, and Nigeria across 
the Sahel to Somalia. Actions by VEOs are increasing the global 
humanitarian caseload and making humanitarian operations higher risk. 
We are seeing an increasing number of youth engaging in political 
violence, including violent extremism. And, we see many scenarios 
across fragile states today not yet ``in conflict'' where support for 
political violence could increase in the years ahead.
    The rising influence of VEOs could not come at a worse time for 
civilians trapped in conflict, poverty and fragility. Today's 
humanitarian system is stretched to the brink: with more than 60 
million refugees, asylum-seekers and internally displaced persons 
worldwide as a result of conflict and persecution, we are struggling to 
keep pace in responding to competing human needs. Tragically, this 
soaring displacement is being met with rising anti-migrant sentiment 
and anti-migrant policies that place already victimized and traumatized 
civilians into exploitative, isolating circumstances.
    For these reasons, Mercy Corps endorses political efforts to reform 
policies in support of and focus more aid resources on conflict 
prevention and reduction, including political violence and violent 
extremism.
Recommendations for the Senate Appropriations Subcommittee on State, 
        Foreign Operations, and Related Programs
    In addition to ongoing wars and failing governance, we believe the 
rising influence of VEOs is due, in part, to inadequate investments in 
conflict prevention. Given today's exploding humanitarian landscape, we 
need an fiscal year 2017 SFOPS bill that supports the highest levels of 
core humanitarian and fragile states accounts and increases front-line 
conflict prevention accounts.

    We specifically urge:

    1.  $2.8 billion for International Development Assistance (IDA). 
Robust and effective humanitarian responses are vital to protecting 
civilians from exposure to violence, promoting social cohesion between 
communities against difficult odds, and providing youth with reasons to 
hope and fight for a better tomorrow. As concerns over VE are occurring 
against a background of the largest refugee and displacement crisis the 
world has experienced since WWII--with 60 million people displaced 
worldwide due to conflict and persecution--we must not avert dollars 
away from pure, foundational humanitarian accounts.
    2.  6.08 billion for Economic Support Funds (ESF). ESF funds are 
among the most flexible aid dollars in the budget that allow groups 
like Mercy Corps to do integrated programming in complex environments 
that combines lifesaving, development, and peacebuilding programming. 
Mercy Corps therefore urges Congress appropriate $6.08 billion for ESF 
to countries of strategic importance to the United States (and equal to 
the President's request).
    3.  $100 million for the Complex Crises Fund (CCF). The CCF is one 
of the only pure conflict reduction funding streams in USAID's budget. 
The account enables USAID Missions, in consultation with the State 
Department and USAID in Washington DC, to support quick, agile and 
community-led stabilization efforts to prevent crises from escalating 
and scale pockets of peace. For an example of impact of the CCF, see 
``Congress Has Saved Lives Before and Can Do It Again'' (The Hill, 
March 24, 2016).
    4.  $186.7 million for Countering Violent Extremism programs, 
including in particular the Development Assistance $29.4 million and 
Economic Support Fund $145.3 million requests. We support the 
Department of State and USAID's argument to the Congress that this 
appropriation represents an overdue investment in dedicated human 
resources and overseas programs to proactively focus on the prevention 
of political violence, including VE.

    In addition to accounts, we would urge the fiscal year 17 bill to:

  --Require a U.S. definition of violent extremism, and require the 
        Departments of State and USAID to explain the ways in which the 
        United States will hold partner governments accountable for 
        definitions of VE that risk legalizing discrimination, 
        marginalization, imprisonment, or abuse against populations and 
        thereby undermining options for effectively resolving drivers 
        of VE;
  --Require the administration to create, and report back on, a 
        baseline on how much it spends on dedicated conflict prevention 
        programs. This will force the administration to qualify what 
        counts, and does not count, as prevention, and help us 
        empirically assess the efficacy of those programs and 
        relativity of investments compared to other aid and security 
        expenditures.
  --Require the administration to explain how much of the $187.7 
        million for CVE will go to preventive efforts. Civil society is 
        concerned that too many of these efforts will focus on reactive 
        and punitive criminal justice approaches rather than community-
        led prevention.

    Finally, we would urge Members of the Senate Appropriations 
Subcommittee on State, Foreign Operations, and Related Programs to 
engage with your counterparts on the Senate Armed Services Committee 
who are working diligently and creatively to align U.S. military 
resources in support of State Department led C/PVE strategies.
    Thank you again for the opportunity to provide this statement and 
for your ongoing dedication and leadership of these critical issues.
                 Submitted by Senator Patrick J. Leahy


                 [From Politico, Apr. 7, 2016]<greek-l>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                     Don't Shortchange Foreign Aid

The military can't do it alone. Agencies like USAID and the Peace Corps 
are vital to keep American safe.

                 (By James Stavridis and Anthony Zinni)

    Never before have we seen the complex convergence of global crises 
that our Nation is facing today. From Russian aggression to the rise of 
ISIS to new pandemics, our Nation cannot afford to shrink back from the 
challenges we face abroad. Yet we fear that Congress may do just that 
in the coming days.
    As a retired general and admiral, we are the first to say that the 
military alone cannot keep our Nation safe, and that strategic 
investments in development and diplomacy are equally critical. Working 
together with the military, our civilian agencies--including USAID, the 
Peace Corps, the Millennium Challenge Corporation--are essential to 
preventing conflict and keeping our men and women in uniform out of 
harm's way unless absolutely necessary.
    Yet these civilian tools are underfunded and undermanned. Since 
2010, our Nation's international affairs programs have been reduced by 
12 percent, when adjusted for inflation. As Congress moves ahead with 
the appropriations process, it is in our country's vital national 
security interest that these programs see no further cuts. It is 
misguided to think that we can combat 2016 problems with a 2010 budget.
    Six years ago, the world looked very different. Since then, we have 
witnessed the Syrian war, the rise of ISIS, children fleeing en masse 
from Central America, Ebola, and now Zika.
    And it is not just the headlines like ISIS and North Korea that are 
concerning. Across the globe, 60 million people have been forced to 
flee their homes--the most since World War II. In the last decade, the 
number of armed conflicts worldwide has tripled and the number of 
people requiring humanitarian assistance has almost doubled to 125 
million. In Africa, Boko Haram threatens much of Nigeria and 
surrounding countries, while South Sudan continues to be embroiled in 
conflict, Burundi is in the midst of a political upheaval, and the 
Central African Republic has seen years of brutal violence. And these 
are just the most notable hot spots.
    Yet despite the escalating needs, we've increasingly seen resources 
stripped from the International Affairs Budget in recent years--which 
makes up just a mere 1 percent of the entire Federal budget. While our 
military is the strongest and most skilled in the world, we must always 
be prepared for the next danger on the horizon. This means we must 
strengthen our strategic investments in America's development and 
diplomatic programs in order to confront the challenges we face and 
prevent crises before they happen.
    America spends so little to accomplish so much--and it is troubling 
to see these limited funds decrease year after year for our diplomats 
and development professionals. Without foreign assistance, our military 
would face increased deployments and greater threats that could have 
been averted. From promoting stability and the rule of law in Central 
America to public health programs that prevent the next Ebola outbreak, 
these critical investments help keep our servicemen and women out of 
harm's way.
    Throughout our careers, we have seen these tools work time and 
again. A little over a decade ago, Colombia was besieged by a 
narcoterrorism crisis that threatened our entire hemisphere. After 
American investments in the ``Plan Colombia'' initiative, the country 
was transformed into a thriving market for our products and became a 
key ally in counter-narcotics. Plan Colombia's military and economic 
assistance helped the country move from a cartel-ridden state to a 
strategic ally and one of our biggest trading partners in South 
America--all without a single American casualty.
    The effectiveness, transparency, and accountability of our overseas 
programs are unmatched. And we are setting the global model for 
providing a hand-up--not a hand-out--to countries and communities 
through our assistance. From sustainable agriculture training in Latin 
America to HIV and AIDS relief in Africa, the return on investment for 
our economy and advancing our values around the world is unequaled 
across the Federal budget.
    As the former Commander-in-Chief of U.S. Central Command and former 
NATO Supreme Allied Commander, we relied every single day on the 
dedicated men and women who make up our diplomatic corps and NGOs. For 
example, when State Department experts had long-standing relationships 
with a past opposition leader who joined a new government--this was 
essential to advancing our interests. We both know from Afghanistan, 
Iraq, the wider Middle East, and across Eastern Europe that we could 
not have done our jobs without our civilian counterparts, who provided 
an invaluable resource for our country and our security.
    Here's the choice before us: We can attempt to ignore the crises we 
face and turn inward or we can embrace our role as the world's 
indispensable leader. While we know that we cannot solve every problem, 
isolating ourselves simply is not an option because we will not like 
who fills the void if we pull back.
    As the budget process moves forward on Capitol Hill, we urge 
lawmakers to honor the service and sacrifice of all our public servants 
abroad: our diplomats and development professionals alongside our men 
and women in uniform. And while we are no stranger to the highly 
constrained budget environment faced by policymakers, we believe the 
International Affairs Budget is absolutely critical to keep pace with 
the growing global challenges and numerous humanitarian crises 
confronting the world.
    Our country cannot afford to cut these strategic investments. 
Congress must provide strong funding for the International Affairs 
Budget and no less than current spending for these programs. We fear 
anything less would be dangerous for our national security and 
maintaining American global leadership.
                                 ______
                                 
  Letter From the U.S. Global Leadership Coalition in Support of the 
                      International Affairs Budget
                                                    March 17, 2016.

 
 
 
The Honorable Thad Cochran           The Honorable Barbara Mikulski
Chairman                             Vice Chairwoman
Senate Appropriations Committee      Senate Appropriations Committee
Washington, DC 20510                 Washington, DC 20510
 
The Honorable Hal Rogers             The Honorable Nita Lowey
Chairman                             Ranking Member
House Appropriations Committee       House Appropriations Committee
Washington, DC 20515                 Washington, DC 20515
 


    Dear Chairman Cochran, Vice Chairwoman Mikulski, Chairman Rogers, 
and Ranking Member Lowey:

    As Co-Chairs of the U.S. Global Leadership Coalition's (USGLC) 
National Security Advisory Council, a group of more than 160 retired 
three- and four-star flag and general officers, we write to you to 
express our support for the International Affairs Budget and urge you 
to ensure a strong 302(b) allocation for the State-Foreign Operations 
Appropriations bill.
    We believe that strategic investments in development and diplomacy, 
alongside a strong defense, are critical to keeping America safe, 
preventing conflict, and avoiding having to put our men and women in 
uniform in harm's way. We know from our decades of military experience 
that with so many crises facing the world--from the rise of ISIS in the 
Middle East and North Africa, to Russia's annexation of Crimea and 
aggression in Eastern Europe, to growing concern over pandemic 
threats--now is not the time for America to pull back from the world.
    Even with the constrained budget environment, we believe 
International Affairs programs are critical to our national security, 
and our country cannot afford to cut these vital programs. Total 
spending for International Affairs has dropped 12 percent since fiscal 
year 2010 when adjusted for inflation, and non-war related ``base'' 
programs have been reduced nearly 30 percent over the same period of 
time. We fear these cuts hamper our ability to keep pace with growing 
global challenges and respond to the numerous humanitarian crises 
confronting the world.
    We urge you to consider the growing threats facing the United 
States and the need for a strong International Affairs Budget to 
confront these challenges when finalizing the fiscal year 2017 302(b) 
allocations. Thank you for your consideration.

            Sincerely,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            

CC: The Honorable Lindsey Graham
    The Honorable Patrick Leahy
    The Honorable Kay Granger
                                 ______
                                 
  Letter From Senators in Support of the International Affairs Budget
                                                     April 4, 2016.

 
 
 
The Honorable Thad Cochran           The Honorable Barbara Mikulski
Chairman                             Vice Chairwoman
Appropriations Committee             Appropriations Committee
United States Senate                 United States Senate
Washington, DC 20510                 Washington, DC 20510
 
The Honorable Lindsey Graham         The Honorable Patrick Leahy
Chairman                             Vice Chairman
State-Foreign Operations             State-Foreign Operations
 Subcommittee                         Subcommittee
United States Senate                 United States Senate
Washington, DC 20510                 Washington, DC 20510
 


    Dear Chairman Cochran, Vice Chairwoman Mikulski, Chairman Graham, 
and Vice Chairman Leahy:

    As former colleagues, we write to relay our support for the 
International Affairs Budget and the important role development and 
diplomacy programs play in confronting the growing global challenges 
and advancing our interests throughout the world.
    We appreciate the enormous decisions currently facing the Senate 
and understand that you continue to work under a constrained budget 
environment. However, today America faces unprecedented global 
challenges, including rapidly increasing humanitarian crises, while 
funding for International Affairs has been cut by 12 percent since 
fiscal year 2010 when adjusted for inflation, and base funding has 
declined 30 percent in that same period.
    Over the last 6 years, the world has changed dramatically--from the 
rise of ISIS and the historic refugee crisis in the Middle East, to 
Russia's annexation of Crimea and aggression in Eastern Europe, to 
growing concerns of pandemic threats. We fear the United States is not 
keeping pace with these growing challenges and further cuts to 
International Affairs would only make it more difficult to respond to 
world events.
    Strategic investments in development and diplomacy are crucial to 
advancing our national security and economic interests while ensuring a 
more secure and stable world. For just 1 percent of the Federal budget, 
these programs are cost-effective investments that enable the United 
States to support allies like Israel and Jordan, respond to 
humanitarian crises, and promote U.S. interests abroad. To that end, we 
believe strongly that the International Affairs Budget is a critical 
component to our overall national security strategy and urge you to 
protect these programs from further cuts.
    Thank you for your leadership in the Senate and your continued 
support for strategic investments in development and diplomacy 
programs.

            Sincerely,

            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            

 
 
 
The Honorable George Allen           The Honorable Bill Bradley
United States Senate                 United States Senate
(January 2001 - January 2007)        (January 1979 - January 1997)
 


                                     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                     

 
 
 
The Honorable Norm Coleman           The Honorable Gary Hart
United States Senate                 United States Senate
(January 2003 - January 2009)        (January 1975 - January 1987)
 


                                     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                     

 
 
 
The Honorable Kay Bailey Hutchison   The Honorable Robert W. Kasten, Jr.
United States Senate                 United States Senate
(June 1993 - January 2013)           (January 1981 - January 1993)
 


                                     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                     

 
 
 
The Honorable Richard G. Lugar       The Honorable Connie Mack
United States Senate                 United States Senate
(January 1977 - January 2013)        (January 1989 - January 2001)
 


                                     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                     

 
 
 
The Honorable Mel Martinez           The Honorable E. Benjamin Nelson
United States Senate                 United States Senate
(January 2005 - September 2009)      (January 2001 - January 2013)
 


                                     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                     

 
 
 
The Honorable Sam Nunn               The Honorable Charles S. Robb
United States Senate                 United States Senate
(January 1973 - January 1997)        (January 1989 - January 2001)
 

                                     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                     

 
 
 
The Honorable Jim Sasser             The Honorable Gordon Smith
United States Senate                 United States Senate
(January 1977 - January 1995)        (January 1997 - January 2009)
 


                                     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                     

 
 
 
The Honorable John Warner            The Honorable Timothy E. Wirth
United States Senate                 United States Senate
(January 1979 - January 2009)        (January 1987 - January 1993)
 


CC: The Honorable Mitch McConnell, Majority Leader
    The Honorable Harry Reid, Minority Leader
                                 ______
                                 

               [From the New York Times, April 12, 2016]

Bono visited refugee families and camps in Kenya, Jordan and Turkey to 
highlight the universal nature of this crisis.

 
           KENYA                        JORDAN                      JORDAN                      TURKEY
 
The Permanent                A Home, but Not              Tensions at                 Refugees in ISIS'
Temporary                    Home                         the Syrian                  Shadow
Solution                                                  Border
 

          BONO: TIME TO THINK BIGGER ABOUT THE REFUGEE CRISIS

                               (By Bono)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    I've recently returned from the Middle East and East Africa, where 
I visited a number of refugee camps--car parks of humanity. I went as 
an activist and as a European. Because Europeans have come to realize--
quite painfully in the past year or two--that the mass exodus from 
collapsed countries like Syria is not just a Middle Eastern or African 
problem, it's a European problem. It's an American one, too. It affects 
us all.
    My countryman Peter Sutherland, a senior United Nations official 
for international migration, has made clear that we're living through 
the worst crisis of forced displacement since World War II. In 2010, 
some 10,000 people worldwide fled their homes every day, on average. 
Which sounds like a lot--until you consider that 4 years later, that 
number had quadrupled. And when people are driven out of their homes by 
violence, poverty and instability, they take themselves and their 
despair elsewhere. And ``elsewhere'' can be anywhere.
    But with their despair some of them also have hope. It seems insane 
or naive to speak of hope in this context, and I may be both of these 
things. But in most of the places where refugees live, hope has not 
left the building: hope to go home someday, hope to find work and a 
better life. I left Kenya, Jordan and Turkey feeling a little hopeful 
myself. For as hard as it is to truly imagine what life as a refugee is 
like, we have a chance to reimagine that reality--and reinvent our 
relationship with the people and countries consumed now by conflict, or 
hosting those who have fled it.
    That needs to start, as it has for me, by parting with a couple of 
wrong ideas about the refugee crisis. One is that the Syrian refugees 
are concentrated in camps. They aren't. These arid encampments are so 
huge that it's hard to fathom that only a small percentage of those 
refugees actually live in one; in many places, a majority live in the 
communities of their host countries. In Jordan and Lebanon, for 
example, most refugees are in urban centers rather than in camps. This 
is a problem that knows no perimeter.
    Another fallacy is that the crisis is temporary. I guess it depends 
on your definition of ``temporary,'' but I didn't meet many refugees, 
some of whom have been displaced for decades, who felt that they were 
just passing through. Some families have spent two generations--and 
some young people their entire lives--as refugees. They have been 
exiled by their home countries only to face a second exile in the 
countries that have accepted their presence but not their right to move 
or to work. You hear the term ``permanent temporary solution'' thrown 
around by officials, but not with the irony you'd think it deserves.
    Those understandings should shape our response. The United States 
and other developed nations have a chance to act smarter, think bigger 
and move faster in addressing this crisis and preventing the next one. 
Having talked with refugees, and having talked to countless officials 
and representatives of civil society along the way, I see three areas 
where the world should act.
    First, the refugees, and the countries where they're living, need 
more humanitarian support. You see this most vividly in a place like 
the Dadaab complex in Kenya, near the border of Somalia, a place 
patched together (or not) with sticks and plastic sheets. The Office of 
the United Nations High Commissioner for Refugees is doing noble and 
exceedingly hard work. But it can't do everything it needs to do when 
it is chronically underfunded by the very governments that expect it to 
handle this global problem.
    Second, we can help host countries see refugees not just as a 
burden, but as a benefit. The international community could be doing 
much more, through development assistance and trade deals, to encourage 
businesses and states hosting refugees to see the upside of people's 
hands being occupied and not idle (the World Bank and the Scriptures 
agree on this). The refugees want to work. They were shopkeepers, 
teachers and musicians at home, and want to be these things again, or 
maybe become new things--if they can get education, training and access 
to the labor market.
    In other words, they need development. Development that invests in 
them and empowers them--that treats them not as passive recipients but 
as leaders and partners. The world tends to give humanitarian efforts 
and development efforts their own separate bureaucracies and unlisted 
phone numbers, as if they're wholly separate concerns. But to be 
effective they need to be better coordinated; we have to link the two 
and fund them both. Refugees living in camps need food and shelter 
right away, but they also need the long-term benefits of education, 
training, jobs and financial security.
    Third, the world needs to shore up the development assistance it 
gives to those countries that have not collapsed but are racked by 
conflict, corruption and weak governance. These countries may yet 
spiral into anarchy. Lately some Western governments have been cutting 
overseas aid to spend money instead on asylum-seekers within their 
borders. But it is less expensive to invest in stability than to 
confront instability. Transparency, respect for rule of law, and a free 
and independent media are also crucial to the survival of countries on 
the periphery of chaos. Because chaos, as we know all too well, is 
contagious.
    What we don't want and can't afford is to have important countries 
in the Sahel, the band of countries just south of the Sahara, going the 
same way as Syria. If Nigeria, a country many times larger than Syria, 
were to fracture as a result of groups like Boko Haram, we are going to 
wish we had been thinking bigger before the storm.
    Actually, some people are thinking bigger. I keep hearing calls 
from a real gathering of forces--Africans and Europeans, army generals 
and World Bank and International Monetary Fund officials--to emulate 
that most genius of American ideas, the Marshall Plan. That plan 
delivered trade and development in service of security--in places where 
institutions were broken and hope had been lost. Well, hope is not lost 
in the Middle East and North Africa, not yet, not even where it's held 
together by string. But hope is getting impatient. We should be, too.

                                 KENYA

                    The Permanent Temporary Solution

    Words . . . I love words and phrases, maybe because I'm a 
songwriter. Absurdities are a personal favorite. Today I will always 
remember as the day of ``permanent temporary solutions.''
    The Dadaab refugee complex near the border of Somalia is the 
largest in the world. It is home to 345,000 people, nearly a third born 
in the camp, which has now been going almost a quarter of a century. 
Yet they still call it temporary.
    After particularly brutal attacks in Kenya by the Somalia-based 
jihadist group the Shabab, the government's first instinct was to 
shutter Dadaab. Instead they chose to ban permanent structures at this 
``temporary'' home, which has a population larger than Pittsburgh's. 
But it is fiction to think the people here are going anywhere soon.
    The same goes for another gigantic Kenyan camp, Kakuma, home to 
nearly 200,000 refugees near the border with South Sudan. Together, 
Kakuma and Dadaab are painful symbols of the world's halting and often 
confused efforts to cope with mass migrations caused by war and famine, 
particularly in Northern Africa and the Middle East.
    Just over 5 years ago, some 10,000 people were forced from their 
homes every day. By 2015, that average had quadrupled. This is the 
worst crisis of forced displacement since World War II. Millions are 
moving their families across dangerous terrain and troubled waters to 
flee conflict.
    Many of us are familiar with the Syrian refugee crisis. Not so many 
are acquainted with the crisis in South Sudan or Somalia. Yet 5 of the 
top 10 host nations for refugees are in sub-Saharan Africa. Six of the 
top 10 source nations of refugees are in sub-Saharan Africa. And guess 
what, for the first time, this African problem has become a European 
problem. The best border of Europe is no longer the Mediterranean, it 
is a safer Sahel, the band of countries south of the Sahara, and 
Levant, the countries of the eastern Mediterranean. If Africa fails, 
Europe cannot succeed.
    Today, I met invisible people. People who don't feel they exist. 
Some who don't even have a memory of another home because they were 
born in this camp.
    They have been exiled twice. First from their country of origin, 
then from the country where they now reside in giant carparks of 
despair. I met a child named Atong, a beautiful South Sudanese girl 
with defiant eyes, only adoring of her mother. I asked her mother what 
Atong meant. ``War,'' she replied.
    ``I was born in war,'' she said. ``I was raised in a war without 
parents, and gave birth in war.''

                                 JORDAN

                          A Home, but Not Home

    I arrived in Jordan, a country where about one in five people is a 
refugee. The Jordanian Government's figure is 1.2 million refugees, 
mostly Iraqis and Syrians--and the true number is probably larger. When 
we think of refugees at all, most of us think of people living in 
camps. But here in Jordan a vast majority of these transitory souls are 
living in the community.
    I was able to spend some time with a Syrian family who moved from a 
camp into housing in Amman. Abu Emad and his wife welcomed us into 
their home. Their 10-year-old son, Qusai, has the wisdom of the ages in 
his eyes, which is heightened by his professorial spectacles. Qusai 
told us that if he one day becomes a politician, he will try to put his 
people's safety before anything else.
    Abu Emad told me that he loved his hometown, Homs, more than his 
own eyes and that he dreamed constantly of returning there. He told us 
the details about the spice market that he ran, the employees he seemed 
to cherish and the relaxed nature of the neighborhood they lived in. It 
was clear that they are still shellshocked. Their daughter, Layla, whom 
we didn't meet, was 5 when they left. The shelling made her incontinent 
and left her with post-traumatic stress so bad that she can't be left 
alone.
    Though heavily in debt from medical care for Abu Emad's diabetes, 
the family offered us lunch and poured freshly made coffee. The family 
was expecting cash assistance from the Office of the United Nations 
High Commissioner for Refugees, which has developed a biometric-
triggered system for distributing funds. As part of the registration 
process, all incoming refugees receive an iris scan, which serves as a 
digital identity card and also acts as a ``pin code'' at A.T.M.s in the 
camp, allowing them to withdraw cash once a month for what they need 
most. It's a way of increasing refugees' autonomy, as well as the local 
economy. Most refugees don't have work permits, so the cash assistance 
is critically needed.
    The family said the Jordanian camp they left was ``seven star'' 
because they were treated so well. But the neighborhood they live in 
now has brought them to their knees in gratitude. Christian and Muslim 
neighbors welcomed them, brought supplies of gas, beds and pillows, and 
constantly check up on Abu Emad and his health.
    If you ever lose hope in our fundamental humanity when faced with 
the daily acts of barbarity in Syria, here in this little neighborhood 
of Amman, you're reminded what it's all about--what we're all about--
which is, in the end, one another.

                                 JORDAN

                     Tensions at the Syrian Border
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



    Today we traveled along the Syrian border to a security checkpoint 
with King Abdullah II and some of his military advisers. Jordan has 
many borders, all potentially porous: 365 kilometers (about 227 miles) 
facing Syria, 180 kilometers (about 110 miles) facing Iraq, and the 
rest facing Saudi Arabia, Israel and the Palestinian territories. Their 
vulnerabilities are clear and visible from the air. But the Jordanian 
military is vigilant, using very sophisticated surveillance equipment 
and poring over digital video feeds in real time to spot problems.
    There are constantly, even now, people who make a break from Syria 
to the safety of Jordan only to find they are being shot at by their 
own troops. Shot in the back or, if captured, beaten. I saw recorded 
video of both. So upsetting was this for the Jordanian troops and their 
commander in chief that the king gave his soldiers permission to return 
fire to protect these people, even when they are still on Syrian soil.
    These young Jordanian soldiers hiding out in foxholes, defending 
their positions, often end up spending time with refugees who have 
arrived in the line of fire. According to the king, the refugees 
wouldn't have had water or food for a couple of days, and so the troops 
would share their own meager rations with the unexpected company.
    Along the Iraqi border, the king told us, Jordanian troops have 
discovered a tunnel for smugglers of weaponry and drugs. Jordanian 
troops have confiscated millions of tabs of Captagon, an amphetamine 
manufactured, used and sold by Islamic State forces. It would appear 
that this conflict is fueled by these addictive drugs, which bring the 
hypothalamus to a place where you can commit horrendous acts and feel 
euphoric about it.
    At the northeastern corner of Jordan, where it borders both Syria 
and Iraq, the Rukban camp houses about 12,000 refugees. The Jordanians 
are trying to convince the international community that they need extra 
resources to handle these refugees. And from what I can see, they are 
right. Unrest among refugees here could not only endanger Jordanian 
citizens, but it would also play into fear-mongering about refugees' 
being dangerous when, in fact, they are usually the ones in danger.

                                 TURKEY

                        Refugees in ISIS' Shadow

    Turkey is the largest host country of refugees, with about 3 
million people who have fled conflicts in Syria, Iraq, Afghanistan and 
elsewhere. But what is striking here in ``old Anatolia,'' where the 
prime minister says Irish people have their ancestry, is that while the 
Turkish people in and around the refugee camp I visited seemed 
incredibly welcoming of their neighbors, there was also a sense that 
something was not quite right.
    The well-run camps were full to bursting; their schools were 
brimming with refugee children. Yet without permits, their parents 
can't work legally, and the nation's resources, and patience, are being 
stretched. This is the front line of the migrant crisis, the place that 
poses the hard question: Can Europe manage this crisis humanely?
    A new agreement between Turkey and the European Union has been 
reached to bring an end to the boats carrying refugees from Turkey to 
the Greek islands. In return, the Turks will receive billions in aid. 
But strong concerns are already being raised about the agreement's 
legality. It feels more like an agreement than a solution.
    And alarmingly, Amnesty International has reported that since 
January the Turkish Government has been forcibly returning thousands of 
Syrian refugees to their country, an allegation that Turkey has denied. 
Such collective deportations, without regard to the individual rights 
of those who claim to be refugees, are illegal under international law, 
which requires their rights to be absolutely protected in the countries 
to which they are deported.
    The camp we visited in southern Turkey was very impressive and well 
organized. Officials with the government's refugee coordinator 
explained that these guests had access to free healthcare and claimed 
the refugees had access to the local labor market, though we learned 
that not many work permits have been granted. When I asked if this had 
caused any tension with local residents, I was told categorically no--
although one official was candid enough to admit that if the situation 
were to continue for another 5 years, the drain on the country's 
resources and good will would most likely become manifest.
    In Nizip, I visited one of the overcrowded camp schools for refugee 
children and found myself surrounded by 5-year-olds--and too easily 
became 5 myself. I allowed myself to sing a ``Sesame Street'' song with 
a twist, ``A Rock Star Is a Person in Your Neighborhood,'' knowing 
these kids didn't have a clue what I was talking about. If there were 
any rock stars around that day, it was them. It was a light moment, and 
I was quite pleased that the teacher didn't find it funny that the kids 
laughed their heads off. In the sewing school we visited, I was 
reminded that my mother made garments in our house in Dublin to bring 
in extra income to our family. I asked the girls if they wanted to go 
to high school or college. Oddly, none of them said yes.
    I'm with a group of Republican United States Senators: Lindsey 
Graham of South Carolina, David Perdue of Georgia and Thom Tillis of 
North Carolina. They are clearly concerned that the refugee crisis 
threatens the bonds of the European Union and could even undermine 
NATO. Should another Middle Eastern or African country collapse like 
Syria has--hello, Libya; hello, Egypt; hello, Nigeria--Europe could 
face yet another tidal wave of refugees. Like Chancellor Angela Merkel 
of Germany, these Senators see an existential threat to Europe, and 
they are encouraging talk of a Marshall-type plan to stabilize the 
Middle East and North Africa.
    At a dinner with the Senators, the very professorial and soft-
spoken prime minister of Turkey, Ahmet Davutoglu, asked whether U2 
would consider playing the global humanitarian summit Turkey is hosting 
in Istanbul in May. In an attempt at a comedic turn, I explained that 
U2 is a democracy with all the challenges that come with that. Nobody 
laughed.
                  Submitted by General James L. Jones

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                       PARTNERSHIP FOR PROSPERITY

                        A New Global Engagement

              Co-founders: General James L. Jones and ____

                                                        April 2016.

  What do a four-star U.S. General and a renowned global development 
                         leader have in common?

    They know that the interdependence of security, economic 
development, and good governance is the trinity of global prosperity 
and stability.
    . . . and they share a driving passion to translate this belief 
into more effective methods of making the world safer and more 
prosperous.

    Why does it matter? Without security and development catalyzed by 
good governance, extreme poverty will continue to rob hundreds of 
millions of our fellow global citizens of their dignity and the 
opportunity for a better life. Fragile areas of the world will grow 
weaker fueling insurgency, radical ideology, and conflict that threaten 
us all. Better living conditions in these zones--located in Africa, the 
Middle East, Asia and elsewhere--are essential to counter the despair 
that feeds conflict and instability felt globally in today's highly 
integrated world.

    What's the problem?

  --Outdated approaches. The mechanisms and methods of U.S. and allied 
        global engagement are ill-organized and improperly geared for 
        today's security landscape. Our approaches remain mired in the 
        20th Century, relying too heavily on military intervention to 
        respond to crises rather than graduating to the well-
        integrated, whole of government, whole of society framework 
        needed to prevent them.
    --U.S. foreign assistance programs, trade and commercial policies, 
            security initiatives, and alliances remain un-coordinated 
            and incapable of achieving desired end states abroad.
    --Our security strategies still fail to grasp the interconnectivity 
            of security, development, and good governance, and the 
            importance of integrating them to build stability in 
            emerging hot-spots.
    --The U.S. public and private sectors do not work together 
            effectively, even though harnessing their complementary 
            capabilities is essential to drive sustainable prosperity 
            in the developing world; and by doing so promote 
            international stability.
    --Too many citizens of the developing world are denied a path out 
            of poverty and an opportunity to define their own destiny 
            by the lack security, development and strong governance in 
            the countries and communities where they live.
  --Inaction. Despite years of official rhetoric about fostering 
        public-private partnerships and achieving a more integrated 
        approach to U.S. engagement abroad, the United States lags 
        badly in making this vision a reality.

    What are the consequences? We are losing significant and difficult 
to recover geopolitical and economic leadership and influence. Human 
capital is being squandered. Would-be markets remain potential conflict 
zones.

    What do we need? Action . . . driven by a more modern and 
comprehensive model of U.S. and allied global engagement capable of 
replacing poverty, insecurity, and conflict with prosperity in fragile, 
strategically critical regions around the globe.

    What are a four-star U.S. General and a world-renowned development 
leader doing about it?

    Partnering for prosperity.

                                Our Work

    Partnership for Prosperity (P4P) is a 501(c)(3) cofounded by 
General James L. Jones and [Global development leader] that will 
inspire a more effective form of U.S. and allied global engagement 
based on the partnership of government, the private sector, and NGOs to 
build stability in the developing world.

    P4P will employ three core lines of operation to accomplish this 
goal:

    1.  Advocacy: Promote support for modernizing and expanding global 
engagement tools with a focus on public-private sector partnership and 
the coordination of security, economic development, and good governance 
initiatives to create global prosperity and stability.
    2.  Strategic development: Create the intellectual capital, 
relationships, policies, and practices required for the new model of 
engagement to succeed.
    3.  Operations: Model the strategy by deploying engagement teams 
composed of government, industry, and NGOs to implement joint, 
complementary initiatives across the three domains in strategically 
vital and fragile countries.

    P4P will draw upon the most senior and respected figures in the 
public and private sectors, producing a powerful network that harnesses 
world-class experience, convening authority, know-how, passion, and 
credibility.
    Mission success will be measured by improved quality of life and 
stability in the target country, social conditions that are resistant 
to radicalism and insurgency, and positive attitudes about America and 
our allies.
    P4P's success will create a template for broader and larger 
engagement efforts upon which our government and society can build.
    To make this necessity a reality, P4P is seeking an initial funding 
of $4 million to put this new strategy of global engagement into 
action.

    A full business plan is available upon request.

                      Case Study: West Bank, 2008

    As Special Envoy for Middle East Regional Security, General Jones 
was asked to help foster the conditions and arrangements necessary to 
advance a two-state solution to the Israeli-Palestinian conflict.
    In assessing the full spectrum of U.S. and international programs 
at work in the West Bank to promote peace, development, and trust-
building between the parties, it was clear that the pieces of the 
effort were uncoordinated and producing very limited results.
    In one area of the West Bank, the U.S. was training Palestinian 
security forces while European sponsors were training police elsewhere. 
While the U.S. Agency for International Development was administering 
development and governance building programs targeted at one location, 
allies were implementing what should have been complementary 
initiatives in other locales. And the U.S. private sector, which has 
enormous power, resources, and know-how to bear, was generally ignored. 
The result was a lot of diffuse effort, expenditures, frustration, and 
lost opportunities, but not much in the way of peace, progress, and 
conflict resolution.
    Over the ensuing months General Jones worked to coordinate and 
integrate U.S. security, development, and governance assistance 
programs--to synch them as mutually supporting elements of an 
overarching strategic objective: building peace, prosperity, and trust 
. . . and to do it by fostering home-grown capabilities (not just 
administering programs and providing hand-outs).
    The more comprehensive and better harmonized effort was focused on 
the Jenin area in the West Bank. Benefiting from a holistic public-
private sector approach, Jenin, once a hotbed of insurgency, rapidly 
stabilized and became a model of development and Israeli-Palestinian 
trust-building. Shops opened. Children returned to school. Life 
improved; and so did Israeli-Palestinian relations. What became known 
as ``The Jenin Initiative'' became hailed as one of the few examples of 
legitimate progress and hope in this troubled area.
    The progress made in Jenin was not sustained and expanded, in part 
because this type of coordination is as foreign to the U.S. and allied 
governments as it is to those in the developing world. Without General 
Jones or kindred figures marshaling the effort and forcing inter-
departmental and international coordination, the ingrained habits of 
bureaucratic turf protection, programmatic stove-pipes, and general 
lack of strategic and operational coordination reasserted themselves.
    The failure to sustain and capitalize on the Jenin Initiative to 
improve conditions in this troubled and influential area of the world 
remains extremely costly not just to the Israelis and Palestinians, but 
to the United States and the cause of global security. Still today, not 
just in the Middle East but around the world, the United States and our 
allies remain uncoordinated in our engagement efforts, and remain more 
geared for conflict and emergency response than crisis prevention.
    The West Bank experience spotlights the necessity of modernizing 
U.S. global engagement. (1) By adopting a prevention strategy and (2) 
by synching public and private sector initiatives to build peace, 
prosperity, and markets abroad in the only way that's possible: melding 
security, economic development, and good governance rooted in the rule 
of law. This new approach doesn't necessarily require us to spend more. 
It requires us to apply our resources more wisely.
    If the U.S. and our allies in global security do not act 
proactively and apply our unique resources comprehensively, we will be 
required to respond to crisis and instability with our troops and arms.

             P4P in Action--Engagement Mission Phase Chart

Phase 1: Planning
    Country/zone selection: Identify the engagement mission target area 
(in consultation with appropriate officials, experts, and stakeholders) 
using merit-based criteria such as the country's critical needs and 
opportunities, level of instability, strategic importance, and host 
government support and cooperation.
    Country analysis: Consult with U.S. and allied country teams 
(Ambassadors, geographic combatant commanders, etc.) and the host 
government authorities to assess needs and identify partnering 
opportunities across the three domains.

    Hypothetically, the candidate country may cite needs as follows:

  --Security: Improve community policing tactics.
  --Economic and development: Identify the extent of its mineral wealth 
        and agricultural potential and improve its emergency food 
        distribution system.
  --Good governance and rule of law: Improve the efficiency of its 
        court system.
Phase 2: Initiative Development
    Team and initiative development: P4P will establish a public-
private sector engagement team having interests, assistance 
capabilities, and assets aligned with identified needs and 
opportunities.

    In this example the hypothetical team would be drawn from:

  --USG: NSC Country Director; representatives from the State 
        Department, Department of Justice, Bureau of Justice 
        Assistance, Department of Energy, Department of Homeland 
        Security, and USAID; former personnel from the U.S. military 
        and National Guard; and former police chiefs.
  --Private sector: security companies, mining and exploration 
        companies, agribusiness firms, and law firms.
  --NGOs: Major Cities Chiefs Police Association, St. Mary's Food Bank, 
        World Food Programme, CARE International, Mercy Corps, World 
        Bank, Transparency International, Lawyers Without Borders.

    Engagement plan: In coordination with the engagement team and host 
country stakeholders, P4P will develop an engagement plan of potential 
joint initiatives and projects and a project plan for their 
implementation.
Phase 3: Execution
    Engagement mission: The engagement team will be deployed to the 
host country. Based on in-person discussions, a comprehensive project 
plan will be established that sets forth objectives, benchmarks, and 
needed partnerships and resources to carry out agreed-upon projects and 
initiatives.
    Implementation: P4P will track progress and marshal follow through 
to ensure that all engagement commitments are fulfilled and assist in 
eliminating impediments to project/program fulfillment.
Phase 4: Evaluation
    Evaluation: P4P will track and regularly report the status of all 
projects and initiatives carried out under the engagement plan; 
evaluate success in achieving objectives; and document lessons learned.

                             In Their Words

``Promoting and operationalizing the joint deployment of government 
officials, business leaders, and NGO representatives abroad, through 
`engagement missions' that will enable these individuals to reinforce 
their unique capabilities and value proposition. No other country is 
better suited to provide holistic approaches to comprehensive economic, 
political, and social problems than the United States. It is among our 
most potent comparative advantages and we must harness it.''
            --General James L. Jones, USMC (Ret.)

``The challenges we face in America and around the world are 
increasingly complex, and neither the private nor the public sector can 
solve them alone. Public-private partnerships were a hallmark of Mike 
Bloomberg's approach as Mayor of New York City. Bloomberg 
Philanthropies takes a similar approach, bringing together people, 
ideas and resources from across sectors toward a common purpose and 
amplifying their impact.''
            --Bloomberg Philanthropies

``What we need is an independent unit--made up of people from 
governments, the private sector and civil society--to track pledges and 
progress, not just on aid but also on trade, governance, investment . . 
.  The promise we made at the start of this century was not to 
perpetuate the old relationships between donors and recipients, but to 
create new ones, with true partners accountable to each other and above 
all to the citizens these systems are supposed to work for. Strikes me 
as the right sort of arrangement for an age of austerity as well as 
interdependence.''
            --Bono

``The United States' interagency tool kit is still a hodgepodge of 
jury-rigged arrangements constrained by a dated and complex patchwork 
of authorities, persistent shortfalls in resources, and unwieldy 
processes.''
            --Robert M. Gates, former Secretary of Defense

``Person-to-person diplomacy in today's world is as important as what 
we do in official meeting in national capitals across the globe. It 
can't be achieved, though, just by our government asserting it. It can 
only be achieved by the kind of public-private partnerships that the 
United States is uniquely known for . . . people and groups working 
across sectors, industries; working together with persistence and 
creativity to fulfill that promise of a new beginning and translate it 
into positive benefit.''
            --Hillary Rodham Clinton, former Secretary of State

``One of the more promising developments in recent years has been the 
increasing use of private-public partnerships to provide foreign 
assistance in more effective and creative ways.''
            --Bill Gates
``Private sector and civil society exhibit enormous ingenuity and 
innovation . . . And we must tap [this] ingenuity . . . through 
strategic partnerships with the private sector, nongovernmental 
organizations, foundations, and community-based organizations. Such 
partnerships are critical to U.S. success at home and abroad, and we 
will support them through enhanced opportunities for engagement, 
coordination, transparency, and information sharing.''
            --National Security Strategy, May 2010
                                 ______
                                 

               [From the Atlantic Council, May 24, 2012]

          ECONOMIC COMPETITIVENESS AND U.S. NATIONAL SECURITY

                    (By General James L. Jones, Jr.)

The United States must bolster the presence of America's highly capable 
but underdeployed private sector in strategically key regions of the 
world in order to enhance diplomacy, improve foreign relations and, in 
turn, safeguard U.S. national security.

    As America considers its global strategy in this still young and 
opportunity-filled century, we have the chance to deploy a potent but 
under-utilized asset. This is our Nation's vast and highly capable 
private sector. U.S. businesses and NGOs can help to enhance diplomacy 
and improve foreign relations, filling the vacuum as our uniformed 
presence is readjusted after a decade of military and civil 
reconstruction in Iraq and Afghanistan.
    In `pivoting' ourselves to better face emerging global trends and 
an evolving security environment, it is logical to attempt to increase 
America's influence by capitalizing on the enormous potential of our 
private sector. Doing so is imperative in this era of global economic 
integration in which prosperity and security are inseparable. Today, 
entrepreneurs, investors and innovators are as instrumental as 
diplomats, generals and politicians in winning friends and influencing 
attitudes at the all-important grass-roots level of the global 
community.
                               background
    Many allies, friends and influential parties in strategically vital 
regions of the world (the Middle East, South Asia and Africa) remain 
eager for economic engagement with the United States. More often, 
however, they find the Chinese knocking at their door. China's `go-out' 
strategy is increasing its global influence and competitiveness in up-
and-coming regions while America's economic engagement in many of these 
areas is slipping behind. Increasingly, leaders in these regions are 
asking: ``Where is America?''
    President Barzani of Iraq's Kurdistan region gave powerful 
expression to the dynamic recently, noting that ``four American 
companies (in Kurdistan) are worth two Army divisions'' when it comes 
to building goodwill and sustaining influence. Yet he remains 
frustrated by the relative absence of the U.S. private sector and by 
obsolete U.S. policies that impede greater American business engagement 
in a region which has been defined by many as ``the next Dubai.''
    Partly, the absence of America's private sector from less-developed 
but strategically key areas is the result of market factors and a high 
level of risk aversion on the part of mature enterprises. The problem, 
however, is deepened significantly by 20th century impediments erected 
by the Federal Government for a world that no longer exists. These 
range from specific policies, such as over-restrictive travel 
restrictions that discourage economic interaction, to more general and 
pervasive problems such as the reflexive distrust and adversarial 
approach that government too frequently adopts in dealing with the 
private sector.
    In today's global economy and complex security environment, our 
public and private sectors must work together to advance U.S. interests 
and values abroad. This memo suggests strategic areas where we should 
focus on bolstering U.S. private-sector presence and identifies steps 
that we can take to foster better positioning.
    Kurdistan: the people of Iraq's Kurdish region love America. 
Kurdistan is a stable, secure and flourishing semi-autonomous region 
that possesses significant natural resources. America has a long 
history with the Kurds dating back to Operation Provide Comfort in 
1991, when a U.S.-led international military mission rescued the 
Kurdish population from possible genocide at the hands of Saddam 
Hussein. The Kurdish Regional Government, now the governing authority 
in Kurdistan, very much desires the investment and presence of U.S. 
companies. But with only a few exceptions the response has been 
disappointing.
    In pulling our troops out of Iraq, where we have sacrificed so 
much, without a comprehensive strategy to fill the vacuum of influence 
that is left, we would suffer a monumental loss of face. The vacuum 
would be filled by those who are in opposition to our interests. This 
would be a grave strategic error.
    Our interests in the Middle East are today more significant than 
ever. The Arab Spring can change the region in a positive way for a 
long time to come. The potential benefits, however, bump up against 
numerous dangers, including those posed by Iran's nuclear ambitions, 
threats to the flow of oil from the Persian Gulf, and the abject 
failure of the Middle East Peace Process to date.
    It is in America's national security interest to obtain influence 
on every front possible in this strategically consequential region--
from Kurdistan to Arab Spring countries such as Libya and most 
certainly in Syria when the ruling tyrant is forced to depart. The 
engagement of our private sector with Middle East countries and regions 
hungry for economic partnership with the United States can help to 
increase our influence by building relationships at the grass-roots 
level where they are most enduring and conducive to international 
harmony. The risk lies in not having a strategy to deal with each 
instance as it happens.
    Security, economic development, and a rule of law that reflects the 
will of those that led these revolutions are the three pillars upon 
which long-term success must be built. The United States has a great 
opportunity to lead an international effort that can rapidly respond to 
the demands of the people and avoid the Arab Spring upheavals being 
captured by radical elements that happen to be better organized, but do 
not represent the will of the people.
                          african opportunity
    In the case of Kurdistan, fears that the engagement of American-
owned companies will undermine America's `One Iraq Policy' are ill-
founded. On the contrary, the ability of the Kurdistan Regional 
Government to demonstrate what is possible when government and society 
create a safe, stable and welcoming environment for domestic enterprise 
and foreign partners will serve as an instructive and inspirational 
model for the whole of Iraq. At the very least, it represents an 
opportunity to send a strong message to the Maliki regime that its 
flirtations with Iran and support of Syria are not what we had in mind 
when we liberated Iraq from Saddam Hussein.
    Africa: The strategic importance of Africa is clearly on the rise. 
The region is rich in human capital and natural resources, and offers 
unmatched potential. Recognizing these realities, the Chinese, in 
particular, are highly active diplomatically and economically on the 
continent. While China applies a full-court press for influence and 
economic engagement, we are perceived as content to adopt a relatively 
passive posture with regard to competing on the continent. As President 
Kagame of Rwanda commented recently, ``It's interesting to note that as 
America pivots towards Asia, Asia is pivoting toward Africa.'' If 
America ignores the staggering opportunity in Africa, others will fill 
the void. The consequences of our inertia will be felt in still more 
losses of American jobs, an increasing absence of strategic 
relationships, and the erosion of goodwill that could otherwise be 
within our grasp. Let there be no mistake: Africa wants the United 
States to be ``present and not absent.''
    This is a pivotal time for Africa. It is an enormous continent that 
can be influenced either by China offering a troublesome model of state 
capitalism and the subordination of human rights to political 
objectives, or by the United States and Europe, possibly offering a 
better future based on free enterprise, competitive markets and 
fundamental human rights. The decision to establish the U.S. Africa 
Command (USAFRICOM) was based on an understanding of the continent's 
strategic importance and the need for us to engage more rigorously at 
both the civilian and military levels. If this engagement is to be 
successful, it must include the energetic participation of the U.S. 
private sector, which is uniquely suited to bring beneficial 
investment, trade and economic development to the table.
    Africa, every bit as much as Asia, represents the competitive 
battleground of the future. The sooner we realize this fact, the sooner 
we can adjust our global strategy to commit the full weight of our 
national influence to this continent.
    Eastern Europe: NATO has welcomed into its fold new members from 
Eastern Europe, countries that love freedom, respect America and are 
eager to participate in the global economy and embrace modernity. The 
United States has enormous national interests at stake in fostering the 
maturation of these countries and solidifying our political and 
economic ties with each of them. The nations of the former Soviet Bloc 
have wide-ranging needs and offer tremendous opportunities as their 
people continue their journey from oppression and poverty to freedom 
and prosperity. Again, our private sector can play an instrumental role 
in facilitating this journey, developing closer strategic ties and 
winning for America greater influence that will pay dividends for many 
years to come.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The U.S. Government has the need, the opportunity and the 
capability to foster greater private-sector engagement in strategically 
vital areas around the globe. Here are some specific steps the U.S. 
Government can take to facilitate economic diplomacy as an enabler of 
national influence and foundation for goodwill abroad:

  --Better integrate the private sector into diplomatic strategic 
        planning, programs, priorities and operations;
  --Ensure that the private sector has a forum for providing input and 
        support to combatant commands and U.S. country teams;
  --Bolster State Department efforts to identify market opportunities 
        and partnership for the U.S. private sector in key strategic 
        areas abroad;
  --Improve the Commerce Department's process for approving 
        ambassadorial advocacy for firms seeking work and contracts 
        overseas;
  --Sponsor regional trade and investment fairs at home and abroad with 
        an emphasis on areas where the U.S. private sector is 
        underrepresented and our strategic interests are significant;
  --Increase the tempo of U.S. trade missions to key strategic areas;
  --Vigorously pursue trade promotion, market access, and investment 
        liberalization arrangements between the U.S. and strategically 
        vital countries;
  --Improve the agility and resourcing of our export promotion and 
        financing effort to expand economic engagement abroad 
        energetically, appropriately and sustainably;
  --Exercise presidential leadership to set a tone strongly supportive 
        of government's legitimate and important role in promoting the 
        U.S. private sector's interests and engagements 
        internationally;
  --Embark on a complete overhaul of our Export Control laws and 
        policies to enhance American companies' ability to compete with 
        the globalized world.
                               conclusion
    In sharp contrast to the 20th century, we now live in a multi-polar 
world, one which we largely created as a result of the enormous 
sacrifice of two World Wars and the vision that ensued. With the demise 
of the Soviet Union, the 20th century world has disappeared. We now 
face new challenges to our accustomed role, but these do not mean that 
we cannot be just as successful in this new century as we were in the 
last. It will take work, discipline, tenacity and vision by all of us. 
For those upon whose shoulders falls the mantle of leadership, more 
will be asked. The Nation will demand that our leaders make decisions 
for the common good and that they set the example by how those 
decisions are made. There is no doubt that the world still wants and 
needs America; the question today is whether America is able to rise to 
that challenge. The answer will be determined by our elected leaders 
and by the courage that they demonstrate in tackling issues that all 
Americans know must be addressed.
    When a nation cannot bring itself to take on the issues it knows it 
must address for its own good, then surely that is the first true sign 
of decline. We should never let that happen.
----------
General James L. Jones, Jr. is chairman-designate of the Scowcroft 
Center on International Security at the Atlantic Council. He most 
recently served as national security advisor to President Barack Obama. 
General Jones was also supreme allied commander Europe and commandant 
of the Marine Corps.
                                 ______
                                 

                [From the New York Times, Oct. 17, 2009]

                           REBRANDING AMERICA

                               (By Bono)

    A FEW years ago, I accepted a Golden Globe award by barking out an 
expletive.
    One imagines President Obama did the same when he heard about his 
Nobel, and not out of excitement.
    When Mr. Obama takes the stage at Oslo City Hall this December, he 
won't be the first sitting President to receive the peace prize, but he 
might be the most controversial. There's a sense in some quarters of 
these not-so-United States that Norway, Europe and the World haven't a 
clue about the real President Obama; instead, they fixate on a fantasy 
version of the President, a projection of what they hope and wish he 
is, and what they wish America to be.
    Well, I happen to be European, and I can project with the best of 
them. So here's why I think the virtual Obama is the real Obama, and 
why I think the man might deserve the hype. It starts with a quotation 
from a speech he gave at the United Nations last month:

        ``We will support the Millennium Development Goals, and 
        approach next year's summit with a global plan to make them a 
        reality. And we will set our sights on the eradication of 
        extreme poverty in our time.''

    They're not my words, they're your President's. If they're not 
familiar, it's because they didn't make many headlines. But for me, 
these 36 words are why I believe Mr. Obama could well be a force for 
peace and prosperity--if the words signal action.
    The millennium goals, for those of you who don't know, are a 
persistent nag of a noble, global compact. They're a set of commitments 
we all made 9 years ago whose goal is to halve extreme poverty by 2015. 
Barack Obama wasn't there in 2000, but he's there now. Indeed he's gone 
further--all the way, in fact. Halve it, he says, then end it.
    Many have spoken about the need for a rebranding of America. 
Rebrand, restart, reboot. In my view these 36 words, alongside the 
administration's approach to fighting nuclear proliferation and climate 
change, improving relations in the Middle East and, by the way, 
creating jobs and providing healthcare at home, are rebranding in 
action.
    These new steps--and those 36 words--remind the world that America 
is not just a country but an idea, a great idea about opportunity for 
all and responsibility to your fellow man.
    All right . . . I don't speak for the rest of the world. Sometimes 
I think I do--but as my bandmates will quickly (and loudly) point out, 
I don't even speak for one small group of four musicians. But I will 
venture to say that in the farthest corners of the globe, the 
President's words are more than a pop song people want to hear on the 
radio. They are lifelines.
    In dangerous, clangorous times, the idea of America rings like a 
bell (see King, M. L., Jr., and Dylan, Bob). It hits a high note and 
sustains it without wearing on your nerves. (If only we all could.) 
This was the melody line of the Marshall Plan and it's resonating 
again. Why? Because the world sees that America might just hold the 
keys to solving the three greatest threats we face on this planet: 
extreme poverty, extreme ideology and extreme climate change. The world 
senses that America, with renewed global support, might be better 
placed to defeat this axis of extremism with a new model of foreign 
policy.
    It is a strangely unsettling feeling to realize that the largest 
Navy, the fastest Air Force, the fittest strike force, cannot fully 
protect us from the ghost that is terrorism. . . . Asymmetry is the key 
word from Kabul to Gaza. . . . Might is not right.
    I think back to a phone call I got a couple of years ago from Gen. 
James Jones. At the time, he was retiring from the top job at NATO; the 
idea of a President Obama was a wild flight of the imagination.
    General Jones was curious about the work many of us were doing in 
economic development, and how smarter aid--embodied in initiatives like 
President George W. Bush's Emergency Program for AIDS Relief and the 
Millennium Challenge Corporation--was beginning to save lives and 
change the game for many countries. Remember, this was a moment when 
America couldn't get its cigarette lighted in polite European nations 
like Norway; but even then, in the developing world, the United States 
was still seen as a positive, even transformative, presence.
    The general and I also found ourselves talking about what can 
happen when the three extremes--poverty, ideology and climate--come 
together. We found ourselves discussing the stretch of land that runs 
across the continent of Africa, just along the creeping sands of the 
Sahara--an area that includes Sudan and northern Nigeria. He also 
agreed that many people didn't see that the Horn of Africa--the 
troubled region that encompasses Somalia and Ethiopia--is a classic 
case of the three extremes becoming an unholy trinity (I'm 
paraphrasing) and threatening peace and stability around the world.
    The military man also offered me an equation. Stability = security 
+ development.
    In an asymmetrical war, he said, the emphasis had to be on making 
American foreign policy conform to that formula.
    Enter Barack Obama.
    If that last line still seems like a joke to you . . . it may not 
for long.
    Mr. Obama has put together a team of people who believe in this 
equation. That includes the general himself, now at the National 
Security Council; the Vice President, a former chairman of the Senate 
Foreign Relations Committee; the Republican defense secretary; and a 
secretary of state, someone with a long record of championing the cause 
of women and girls living in poverty, who is now determined to 
revolutionize health and agriculture for the world's poor. And it looks 
like the bipartisan coalition in Congress that accomplished so much in 
global development over the past 8 years is still holding amid rancor 
on pretty much everything else. From a development perspective, you 
couldn't dream up a better dream team to pursue peace in this way, to 
rebrand America.
    The President said that he considered the peace prize a call to 
action. And in the fight against extreme poverty, it's action, not 
intentions, that counts. That stirring sentence he uttered last month 
will ring hollow unless he returns to next year's United Nations summit 
meeting with a meaningful, inclusive plan, one that gets results for 
the billion or more people living on less than $1 a day. Difficult. 
Very difficult. But doable.
    The Nobel Peace Prize is the rest of the world saying, ``Don't blow 
it.''
    But that's not just directed at Mr. Obama. It's directed at all of 
us. What the President promised was a ``global plan,'' not an American 
plan. The same is true on all the other issues that the Nobel committee 
cited, from nuclear disarmament to climate change--none of these things 
will yield to unilateral approaches. They'll take international 
cooperation and American leadership.
    The President has set himself, and the rest of us, no small task.
    That's why America shouldn't turn up its national nose at 
popularity contests. In the same week that Mr. Obama won the Nobel, the 
United States was ranked as the most admired country in the world, 
leapfrogging from seventh to the top of the Nation Brands Index 
survey--the biggest jump any country has ever made. Like the Nobel, 
this can be written off as meaningless . . . a measure of Mr. Obama's 
celebrity (and we know what people think of celebrities).
    But an America that's tired of being the world's policeman, and is 
too pinched to be the world's philanthropist, could still be the 
world's partner. And you can't do that without being, well, loved. Here 
come the letters to the editor, but let me just say it: Americans are 
like singers--we just a little bit, kind of like to be loved. The 
British want to be admired; the Russians, feared; the French, envied. 
(The Irish, we just want to be listened to.) But the idea of America, 
from the very start, was supposed to be contagious enough to sweep up 
and enthrall the world.
    And it is. The world wants to believe in America again because the 
world needs to believe in America again. We need your ideas--your 
idea--at a time when the rest of the world is running out of them.
                                 ______
                                 

                  [Remarks of General James L. Jones]

                         U.S. WATER PARTNERSHIP

                             March 22, 2016

   ``Importance of Elevating Water as a National Security Priority''

Thanks/Introduction
    Thank you Maria for allowing me to share this time with such a 
superb group . . . 
    My deepest gratitude to Paula Dobriansky and the U.S. Water 
Partnership for the very kind invitation . . . and to Ambassador Taylor 
and USIP for hosting us today . . .
    I would also like to thank Barry Pavel and the Atlantic Council, 
General Gordon Sullivan, former Chief of Staff of the U.S. Army, and 
the Association of the United States Army, which he leads so capably . 
. . as well as Tom Harvey and Monica Ellis of ``Global Water 
Challenges'' for convening this important event.
    . . . And to each of you for your passionate service to a future-
defining cause for our country and our planet.
    America owes each of you an enormous debt of gratitude for such 
faithful service--one I strongly suspect will be amplified as current 
trends and realities take their course, commanding the Nation's 
attention . . . and the world's.
    Like many of us in this room, I came of age during the Cold War. 
During the bulk of my military service, U.S. national security was 
defined by the long twilight struggle against communism and the Soviet 
military threat.
    Security was expressed in the calculus of comparative troop 
strength, weapons count, and nuclear throw-weight.
    But today's threats are exponentially more diverse and complex than 
they were in the world we left behind in the 20th century . . . in ways 
I'm not sure we yet fully comprehend . . . as we witness today's 
savagery in Brussels, Belgium.
    But, I'm not just referring to the more obvious features of the 
current security landscape. YES we must bolster national resilience to 
an evolving set of kinetic threats. ABSOLUTELY we must come to grips 
with the evolution of violent non-state actors, asymmetric warfare, and 
the vast new domain of cyberspace. OF COURSE we must maintain our 
capability to defeat any adversary on the battlefield. Those are all 
givens . . . at least I very much hope that they still are!
    But, the modern age of WMD, universal connectivity, and global 
economic integration demands a far richer conception of national and 
international security--one less reliant on reaction and far more 
focused on anticipation and prevention--one that centers on disarming 
the root causes and major multipliers of conflict and instability.
    Viewed from that lens what comes into sharp relief is that the 
premiere strategic threat to global security, and our own, is not a 
particular country, ideology, or weapon. It's HUMAN WANTS AND NEEDS--
for the unsatisfied necessities for life-basics, to include food, 
energy, water, and even dignity.
    It's said that, ``Water is life!'' As we speak, 1.8 billion human 
beings have no access to clean water. The bulk of this population 
clings to life in the most unstable, violence-torn regions on Earth 
where terrorist enterprises are working their hardest to capture 
operating space and followers.
    Such deprivation is a tragedy. It is NOT, however, one of human 
development alone. The growing imbalance in global water supply and 
demand is evolving into THE most toxic threat to world peace, and 
international and U.S. national security.
    This reality must be an important wake-up call for our country and 
nations the world over, on which inspires a far more urgent response if 
civilization is to achieve the hopeful world order we envisioned at the 
outset of this century.
    That the world faces enormous water scarcity challenges capable of 
driving the global security dynamic--is a matter of scientific fact, 
not political alarmism. And it's solvable if we get moving, but we need 
to get moving quickly . . . this is really urgent!
    The pressure to do so is building apace with the rapid growth of a 
global population that will reach 11 billion people by the end of the 
century.
    The bulk of this growth will take place in the world's most arid 
and inherently unstable regions. Predictions are that by mid-century 40 
percent of the world's population will live in a stressed water basin.
    Adding to this toxic imbalance are the anticipated effects of a 
changing climate expected by most experts to diminish crop yields, 
while triggering drought and other destructive weather extremes.
    Yet in the face of these obstacles, mankind must figure out a way 
to produce 50 percent more food and double energy production--
activities requiring massive water resources--if we are to meet human 
needs by mid-century.
    For our Intelligence Community the brutal math points to an 
inescapable fact. The DNI reports that major deficits in fresh water 
availability, ``will (emphasis on the ``will;'' not ``maybe'')--will 
contribute to instability in states important to U.S. national security 
interests.''
    Amid the sweeping security implications we see the potential for 
nation-states clashing over access to arable land and water . . . of 
terrorists targeting water and food supply . . . and of water 
insecurity multiplying the risk of social unrest, state failure, and 
mass migration.
    As we come to grips with the many implications, a compelling fact 
seems to be eluding our focus. Water scarcity's role in weakening 
societies . . . in fomenting failed states . . . in catalyzing 
disruptive mass migration . . . and in ripening populations for 
exploitation and conflict is not some abstract, distant danger. It's 
happening today . . . and the trends are chilling.
Middle East
    The phenomenon is manifesting itself across the globe. In the 
Middle East and North Africa, the violence and instability of the Arab 
Spring wasn't simply a matter of oppressed populations finding their 
political voice and delivering a long-awaited come-uppance to the 
region's rulers. It was the product of social and economic upheaval 
catalyzed by a spike in the price of wheat and food resulting from the 
Central European drought.
    The crisis and conflict that has been raging in Yemen was stoked by 
a severe, life-disrupting water shortage. The same is the case with 
Syria's race to the abyss.
    When the country's sinking water table reached critical levels it 
displaced over a million and a half farmers. Environmental refugees 
flooded into the cities, and the resulting social turmoil burst into 
civil war. A Syrian observer noted ``the war and the drought are the 
same thing.''
    We are getting an alarming peek at the future of warfare in the 
tactics of Syrian factions stealing wheat reserves; employing food as a 
weapon against a vulnerable population.
    To Syria's south sits Jordan, a critical U.S. ally and linchpin in 
Middle East security. It also happens to be among the most water-
insecure places on Earth. From a Jordanian General, one is much more 
likely to hear dire warnings about the destabilizing strain created by 
the country's water crisis, worsened by the swelling refugee 
population, than about ISIS infiltration.
    As if the regional challenges weren't daunting enough, the Middle 
East is faced with a game-changing climatic coefficient. Scientists 
report that greenhouse effects are likely to enlarge a drought-inducing 
cell situated over the Eastern Mediterranean, in what could be the 
socio-environmental equivalent of the detonation of a nuclear weapon.
    Considering these trends, our announced ``pivot to Asia'' is not 
looking quite as strategic or prescient as it may have seemed at its 
inception.
    In articulating the pivot as a national policy, we failed to 
appreciate that when a national pivot towards one particular region is 
declared, it also signals, however unintentionally, a pivot away from 
other regions. For a global power, that wasn't a particularly good 
signal to the global flashpoint of the Middle East, among other regions 
who also took the news badly. We have since rephrased our intent, 
thankfully.
Africa
    Asian pivots do not square with global security realities given the 
central role that Africa will play in global security and economics in 
the decades ahead.
    Africa already faces many of the world's most extreme water 
challenges. Nearly half of the continental population currently lives 
in a water-stressed environment. With that in mind, consider the 
following:

  --Africa's population is rising nearly three times faster than the 
        rest of civilization, and will triple or quadruple by the end 
        of this century to somewhere between 3 billion and 6 billion 
        people by the end of the century.
  --The population of Lagos, Nigeria will rise from 11 million to 40 
        million; and Kinshasha, the capital of the Democratic Republic 
        of Congo, will grow from 8.4 to 31 million people by mid-
        century.
  --Nearly half of the continent's population are teenagers or children 
        . . . 
  --. . . And, as many as 37 percent of young adults in Sub-Saharan 
        Africa aspire to move to another country.

    The implications here are staggering!
India and Asia
    Equally so are trends in India--a country with nuclear weapons and 
a population of 1.2 billion people that by mid-century will overtake 
China as the world's most populated nation. Yet, India's groundwater is 
expected to reach critical levels within two decades. Today, 140 
million people in India and other areas of Asia are consuming arsenic-
laden water, drawn from deep and tainted reaches of depleting aquifers.
    While the human promise and economic opportunity offered by Africa, 
South Asia and the entire developing world is reason for great hope; 
meeting the massive water challenge necessary to secure a better future 
is a clarion call to action for us all.
At Home
    To be part of the solution America needs to tackle significant 
water issues right here at home.
    The aquifer serving California's Central Valley--a vital national 
breadbasket--is collapsing from overdraft, worsened by a prolonged 
drought. Within the next decade at least 40 U.S. States will experience 
significant water shortages.
    The economic drag of these shortfalls is an impediment to America's 
prosperity needed to maintain a strong national defense and project 
global leadership in a dangerous and needy world.
    Our history makes quite clear that any form of American retreat 
from the world stage--whether security related, economic, political, or 
social--isn't just a blow to our international prestige and respect; 
but also to the prospects of a more peaceful and prosperous world order 
for mankind.
Agenda
    The challenge . . . at home and abroad . . . is enormous . . . and 
the stakes couldn't be larger.
    But I confess to being an unrepentant optimist by nature. We have 
every reason to be. America has always demonstrated an amazing capacity 
to rise to the most pressing problems, often against great odds. 
Resilience is a defining feature of our national character, and 
problem-solving courses in our blood.
    In the water security challenge, I see enormous opportunity for 
American leadership and problem solving; and for the prospects of 
enduring peace and prosperity by achieving food, water, and energy 
security.
    But success is not self-actuating. It will require strategic 
vision, hard work, new approaches and lots of good, old-fashioned 
American ingenuity.
    I would like to offer what I believe are five essential pillars of 
a national water security agenda.
Strategy
    First, it seems to me we need a comprehensive national energy and 
water security strategy . . . a forward-looking, detailed data-driven 
blueprint laying out the economic, political, commercial, and 
innovation lines of effort required to achieve long-term resource 
sufficiency at home and globally. It must be a strong, concrete, and 
data-based plan.
    I commend the U.S. Water Partnership and the Atlantic Council for 
agreeing to lead an effort outside of Government to engage the best 
private sector and public sector thinking to start the process.
Technology
    Two, we must have the strongest possible research and development 
program to promote the water abundance, resource conservation, and wise 
stewardship.
    America has pioneered some of the greatest technological marvels 
known to man. I have no doubt we can revolutionize the water domain by 
creating and bringing to scale game-changing solutions--from advanced 
water recycling and desalination technologies . . . to the development 
of drought resistant crops . . . and solutions to every aspect of the 
challenge.
    We have created advanced research capacities at our world-leading 
national labs and through agencies such as DARPA, which has pioneered 
game-changing defense solutions, ARPA-EYE, which brings marvelous 
technology to the intelligence community, and ARPA-E working to 
transform the energy sector.
    Perhaps it's time for an ARPA-W to promote water solutions building 
on the State Department's Global Development Laboratory; but an 
initiative far more robust that harnesses our national labs, leading 
universities, and most innovative companies.
    I understand that this is an idea strongly endorsed by the 
impressive group of Chief Technology Officers and other thought leaders 
who assembled in San Francisco several weeks ago. Let's make it happen!
Policy
    Three, we must adopt forward-leaning national water policies, 
rules, norms, and practices that promote efficient water management and 
resource protection. At the same time we must leverage our influence in 
international institutions to make water security a global priority . . 
. and international security imperative.
    Our top companies are finding out that natural resource stewardship 
is no longer just a corporate social responsibility, but a competitive 
necessity. The concept of ``sustainability'' has graduated from being a 
vogue environmental buzzword. It's now the center link in the 
integrated supply chain of human prosperity and international security.
    Thought leaders tell of an emerging ``circular economy'' built on 
resource efficiency, closed systems, and zero waste. I submit to you 
that America must lead this transition with our innovations, policies, 
and example.
    Taking up this challenge will not only help save the world, it will 
be a fertile platform for American competitiveness and economic growth 
in the decades ahead. Success will require unequalled levels of public-
private sector cooperation.
Population Trends
    Four, we must lead a global dialogue on surging populations in the 
least developed areas of the world, which poses a severe threat to 
regional security and to natural resource management. The fertility 
rate in Africa remains at nearly five children per woman, over double 
the average in developed countries.
    More than 220 million women worldwide, a great number of whom live 
in Africa, lack access to modern maternal health and family planning 
services. This is a significant barrier to economic growth and 
opportunity, particularly among women, and it also intensifies water 
scarcity. The international community, civil society, and religious 
leaders need to form stronger partnerships to tackle family planning at 
national, regional, and global levels.
    Extreme poverty, extreme population, and extreme heat is a recipe 
for extreme ideology and conflict.
Modernize U.S. Global Engagement
    Finally, the ``chapeau'' is a long-needed modernization of how the 
United States engages with the world, particularly developing 
countries. The quality of our future depends upon accomplishing this.
    We gather here today because of a deep concern about a major threat 
to modernity. In doing so, let's not allow present regional strife, 
problems at home and abroad, or the dire threats inherent in water, 
food, and energy insecurity to obscure the broader picture. The truth 
is that despite the many major challenges, the human condition is 
decidedly on the ascent. And every one of the challenges we face is 
solvable.
    Global poverty has been reduced more in the last 50 years than in 
the previous 500. Most of the improvement has been achieved in the last 
two decades alone.
    Hundreds of millions of people are rising up and taking their 
rightful place in the great enterprise of human advancement--creating 
new markets and new opportunities for themselves and for America; and 
that's good news because we need them to succeed if we are to prosper.
    American innovation and systems have much to with the global 
progress that has been made . . .
    . . . Our job is to keep the momentum going!!!
    To do that we must come to grips with the reality I mentioned at 
the beginning of my remarks and bears repeating: national security is a 
far deeper and broader concept than it was during the last half of the 
20th century.
    Anachronistically, many of today's challenges and events are 
measured against the backdrop of the last century. Too often our policy 
approaches remain mired in the past as well.
    It's time to acknowledge that global stability is no longer defined 
solely by the ability of nations to deploy and defeat, but rather by 
our capacity to engage and endow--to meet human needs, sustain economic 
growth, and turn promise and opportunity into jobs and a higher quality 
of life.
    Yes, our armed forces will remain a central pillar of our national 
security portfolio, but they must be part of a more sophisticated tool 
kit. More than ever our Government, our firms, and our NGOs must work 
together in harmony.
    We need a contemporary ``whole of government,'' ``whole of 
society,'' and ``whole of alliance'' global engagement strategy--one 
that synchronizes the complementary advance of economic development, 
security, and good governance rooted in rule of law--the pillars of 
sustainable peace and prosperity.
    This is what's required to nurture developing societies and build 
stronger markets. In other words it means doing the work of preventing 
instability rather than having to respond to it--work that will cost 
far fewer lives and taxpayer dollars.
    In the long run, this will cause the lasting defeat of radical 
fundamentalism and other blights on humanity--but it must be a 
proactive, vice reactive, campaign . . . and it is deeply rooted in 
global resource sufficiency--energy, food, and water--that will require 
modernized global engagement to accomplish.
Conclusion
    Ladies and gentlemen, let me conclude by reemphasizing that 
achieving the better future requires we overcome an implacable 
adversary.
    Again, it's not so much retrograde ideologies or the marshal 
ambitions of Russia, China, Al Qaeda or ISIS. The enemy is human wants 
and needs for basic necessities . . . and it is the most formidable 
adversary we will ever face.
    Though the risks and threats inherent in the water challenge of our 
time are enormous; so are the opportunities . . . and that is what 
should inspire us.
    As it was in the last century, American leadership will be the 
indispensable element.
    That's why the country groans when, instead of addressing these 
life-defining challenges, our Presidential candidates debate one 
another's physical features and engage in other silliness that 
diminishes us on the world stage; antics that I believe are totally 
unworthy of our great Nation.
    The fact is that the shared challenge of achieving water abundance 
can be a new and powerful basis for international cooperation--a 
unifying rather than divisive force against a common foe.
    In defeating that foe we have a chance to make the decades ahead a 
period of unprecedented peace, prosperity, and human development. But, 
victory will take American leadership, commitment, and know-how at its 
best.
    With America in the lead, we can, we must . . . and I believe we 
will rise to that challenge . . . and seize this truly monumental 
opportunity.
    Thank you for listening . . . and for all that you have done and 
all you continue to do in service to that cause--a cause for the ages.
</pre></body></html>
